<html>
<title> - NASA'S SPACE SCIENCE PROGRAMS: REVIEW OF FISCAL YEAR 2008 BUDGET REQUEST AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     NASA'S SPACE SCIENCE PROGRAMS:
                       REVIEW OF FISCAL YEAR 2008
                       BUDGET REQUEST AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 2, 2007

                               __________

                           Serial No. 110-24

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                     U.S. GOVERNMENT PRINTING OFFICE

34-907 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     KEN CALVERT, California
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               TOM FEENEY, Florida
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                              May 2, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    15
    Written Statement............................................    16

Statement by Representative Ken Calvert, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    18

                               Witnesses:

Dr. S. Alan Stern, Associate Administrator, NASA Science Mission 
  Directorate
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    31

Dr. Lennard A. Fisk, Chair, Space Studies Board, National 
  Research Council
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    37

Dr. Garth D. Illingworth, Chair, Astronomy and Astrophysics 
  Advisory Committee (AAAC)
    Oral Statement...............................................    38
    Written Statement............................................    40
    Biography....................................................    50
    Financial Disclosure.........................................    54

Dr. Daniel N. Baker, Director, Laboratory for Atmospheric and 
  Space Physics, University of Colorado, Boulder
    Oral Statement...............................................    54
    Written Statement............................................    56
    Biography....................................................    63

Dr. Joseph A. Burns, Irving P. Church Professor of Engineering 
  and Astronomy; Vice Provost, Physical Sciences and Engineering, 
  Cornell University
    Oral Statement...............................................    64
    Written Statement............................................    66
    Biography....................................................    70

Discussion
  Most Important Issue for SMD...................................    71
  Measures to Reduce Mission Costs, Specifically, Management, 
    Oversight and Risk Reduction.................................    72
  Planned Changes in the Science Mission Directorate.............    74
  Understating True Costs........................................    76
  Status and Impact of Delta 2 Launcher..........................    77
  Application of Space Research Experience to NASA Space Science 
    Programs.....................................................    78
  '08 Appropriations Priorities to Strengthen Space Science 
    Programs.....................................................    79
  R&A Budgeting..................................................    80
  International Collaboration....................................    82
  Status of Europa Mission.......................................    84
  Chinese Cooperation............................................    85
  Lessons From Astronomy.........................................    86
  Nuclear Energy.................................................    88
  Arecivo Radio Telescope and Near-Earth Objects.................    89
  Warming on Mars................................................    90
  ITAR and International Technological Development...............    90

             Appendix 1: Answers to Post-Hearing Questions

Dr. S. Alan Stern, Associate Administrator, NASA Science Mission 
  Directorate....................................................    94

Dr. Lennard A. Fisk, Chair, Space Studies Board, National 
  Research Council...............................................    98

Dr. Garth D. Illingworth, Chair, Astronomy and Astrophysics 
  Advisory Committee (AAAC)......................................   102

Dr. Daniel N. Baker, Director, Laboratory for Atmospheric and 
  Space Physics, University of Colorado, Boulder.................   118

Dr. Joseph A. Burns, Irving P. Church Professor of Engineering 
  and Astronomy; Vice Provost, Physical Sciences and Engineering, 
  Cornell University.............................................   122


   NASA'S SPACE SCIENCE PROGRAMS: REVIEW OF FISCAL YEAR 2008 BUDGET 
                           REQUEST AND ISSUES

                              ----------                              


                         WEDNESDAY, MAY 2, 2007

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     NASA's Space Science Programs:

                       Review of Fiscal Year 2008

                       Budget Request and Issues

                         wednesday, may 2, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, May 2, 2007 at 10:00 am, the House Committee on 
Science and Technology, Subcommittee on Space and Aeronautics will hold 
a hearing to examine the National Aeronautics and Space 
Administration's (NASA) Fiscal Year 2008 budget request and plans for 
space science programs including heliophysics, planetary science 
(including astrobiology), and astrophysics, as well as issues related 
to the programs.

Witnesses:

    Witnesses scheduled to testify at the hearing include the 
following:

Dr. S. Alan Stern
Associate Administrator,
NASA Science Mission Directorate

Dr. Lennard Fisk
Thomas M. Donahue Distinguished University Professor of Space Science
University of Michigan, and
Chair, Space Studies Board, National Research Council

Dr. Garth Illingworth
Professor
University of California Observatories/Lick Observatory,
University of California, Santa Cruz, and
Chair, Astronomy and Astrophysics Advisory Committee

Dr. Daniel Baker
Professor, Astrophysical and Planetary Sciences
Director,
Laboratory for Atmospheric and Space Physics
University of Colorado, Boulder

Dr. Joseph Burns
Irving Porter Church Professor of Engineering and Professor of 
Astronomy, and
Vice Provost, Physical Sciences and Engineering
Cornell University

BACKGROUND

Potential Issues
    The following are some of the potential issues that might be raised 
at the hearing:

        <bullet>  Impact of Budgetary Cutbacks on NASA's Space Science 
        Programs--In the three years since the President's Vision for 
        Space Exploration was announced in early 2004, the 
        Administration has reduced NASA's Science Mission Directorate 
        outyear funding by a total of $4 billion. As a result, missions 
        have been delayed or deferred, supporting activities such as 
        technology development have been decreased and the prospects 
        for new activities have been pushed out into the future. At the 
        same time, some missions in development are costing more than 
        anticipated, placing further stress on Science Mission 
        Directorate programs. How serious a problem is the budgetary 
        situation facing NASA's Science Mission Directorate? What 
        should be done to ensure NASA has a sustainable and robust 
        science program?

        <bullet>  Role of Space Science in the President's American 
        Competitiveness Initiative and Innovation Agenda--Research 
        funded through NASA's space science program exemplifies the 
        types of research highlighted in the National Academies report, 
        Rising Above the Gathering Storm, and in the President's 
        American Competitiveness Initiative. Specifically, the 
        Academies' recommendations for long-term basic research and 
        ``special emphasis on physical sciences, engineering, 
        mathematics, and information sciences''; high-risk research; 
        research grants to early career researchers; and funding for 
        advanced research instrumentation and facilities also apply to 
        NASA. Given that, why hasn't NASA space science been included 
        in the President's American Competitiveness Initiative? 
        Moreover, why has the NASA-funded research that most directly 
        applies to the goals of the ACI been declining at a time when 
        the focus on and funding for long-term basic research at other 
        agencies is increasing under the ACI? What message does the 
        exclusion of NASA research from the ACI send to the community 
        of space scientists that performs that research? How does a 
        strategy that promotes basic research at some government R&D 
        agencies while cutting funding for the same type of research at 
        other agencies help the Nation meet the ACI goals of 
        strengthening research in the physical sciences, engineering, 
        and mathematics and building the foundation for innovation? 
        What, if anything, should be done to address NASA's absence 
        from the ACI?

        <bullet>  Lack of Adequate Balance--Administrator Griffin 
        testified at the March 15, 2007 Committee on Science and 
        Technology hearing on the NASA FY08 budget request that NASA 
        has attempted to balance its science programs. However, a 
        number of advisory committees, including, the National 
        Academies and the Astronomy and Astrophysics Advisory 
        Committee, have raised concerns about the lack of balance in 
        NASA science programs. In its report, An Assessment of Balance 
        in NASA's Science Programs (2006), the National Academies found 
        that:

                 ``The program proposed for space and Earth science is 
                not robust; it is not properly balanced to support a 
                healthy mix of small, medium, and large missions and an 
                underlying foundation of scientific research and 
                advanced technology projects.''

           According to the Assessment of Balance report, lack of 
        balance, sustainability and robustness in NASA's science 
        programs affects the ability to make progress on the Decadal 
        Surveys (research priorities for the next ten years in specific 
        space science disciplines that represent a consensus of the 
        science community); to follow a plan or sequence of missions, 
        to meet commitments to international partners; to develop 
        advanced technology; to nurture a research and technology 
        community; and to train and educate future space scientists and 
        engineers. What is NASA's definition of balance? What, if 
        anything has NASA done in response to findings of the advisory 
        committees? What does a properly balanced program look like?

        <bullet>  Cuts to smaller science mission opportunities--
        Cutbacks in small- and medium-sized mission opportunities, such 
        as are offered by the Explorer program, are cited in advisory 
        committee reports as indicators of a science program lacking 
        balance. Explorer missions, which are highly rated in the 
        decadal surveys, are competitively awarded missions that are 
        led by a scientist principal investigator (PI) who is given 
        responsibility for the scientific, technical, and management 
        success of the mission. Explorers examine focused science areas 
        not addressed by NASA's larger, agency-led, strategic missions. 
        They provide flight opportunities in the gaps between strategic 
        missions and are critical opportunities for the much-needed 
        training of the next generation of scientists and engineers. 
        That the Nobel Prize in physics for 2006 was awarded to two 
        U.S. researchers whose work relied on data from the Cosmic 
        Background Explorer (COBE) exemplifies the scientific potential 
        of these small spacecraft. Should funds be restored to increase 
        the flight rate of Explorer and other small- and medium-sized 
        missions, and at what cost to other missions or science 
        activities? What is the appropriate frequency of small- and 
        medium-sized missions needed to sustain the scientific 
        activities and researcher base that relies on such flight 
        opportunities? Should future budgets fence off a certain 
        percentage of resources for small- and medium-sized missions 
        such as Explorer?

        <bullet>  Cuts to Research and Analysis--According to advisory 
        committee reports such as An Assessment of Balance in NASA's 
        Science Programs and the Annual Report of the Astronomy and 
        Astrophysics Advisory Committee, March 16, 2006-March 15, 2007, 
        a properly balanced science program is defined, in part, by the 
        support provided for research grants, largely through NASA's 
        research and analysis (R&A) accounts. R&A grants fund theory, 
        modeling, and the analysis of mission data; technology 
        development for future science missions; the development of 
        concepts for potential future science missions; scientific 
        investigations using aircraft, balloons, and sub-orbital 
        rockets; the training of the next generation of scientists and 
        engineers, among a host of other supporting research and 
        technology activities. The FY06 NASA operating plan cut R&A 
        accounts by about 15 percent across the science programs, 
        reducing support for graduate students, post-doctoral students 
        and junior faculty. The FY07 request did not restore those 
        cuts, and the FY08 request largely continues the previous 
        levels of funding for R&A. What is a healthy level of R&A 
        funding within the NASA science programs? How long can the 
        research community sustain lower levels of activity before 
        attrition occurs, along with a loss of expertise that cannot be 
        easily recovered? What, if anything, should be done about the 
        current level of R&A funding? Should measures be instituted to 
        protect R&A funding against future cuts, and if so, what would 
        those measures be?

        <bullet>  Cost Growth in Missions--Several of the increases in 
        NASA's FY08 budget request provide funds for science missions 
        that have run over budget or schedule, or that run the risk of 
        doing so. In addition, cost growth in some of the planned space 
        science missions in recent years, coupled with constrained 
        budgets, has wound up squeezing other science activities. The 
        factors contributing to cost and schedule growth are not easy 
        to pinpoint, but can include underestimates in the technology 
        development required for mission readiness; increases in launch 
        vehicle costs; internal decisions to delay missions or alter 
        budget profiles; project management difficulties; and delays in 
        contributions from international or interagency partners. Lack 
        of clarity in the communication of what is included in those 
        costs (e.g., technology development, mission development, 
        operations) has also contributed to the problem. Mission cost 
        growth can lead to delays, cancellations, or reduction in funds 
        for other NASA science missions and activities. What, if 
        anything, can be done to control cost growth on missions? Is 
        there adequate understanding of the cost growth contributors or 
        is more information needed to come up with solutions to the 
        cost growth problem?

        <bullet>  Role of Space Science in Human and Robotic 
        Exploration of the Solar System--Robotic exploration of the 
        solar system is called out in the President's Vision for Space 
        Exploration as being important to achieving the Vision. The 
        Report of the President's Commission on Implementation of 
        United States Space Exploration Policy states that ``science in 
        the space exploration vision is both enabling and enabled.'' 
        What should be the role of science activities in the context of 
        the Vision for Space Exploration? Should science that supports 
        the Vision have a higher priority?

        <bullet>  Future Availability of the Delta II Launch Vehicle--
        The Delta II has been a highly reliable workhorse for space 
        science missions. Over the next two years, eight missions are 
        scheduled to launch on Delta IIs, however, NASA has expressed 
        uncertainty about the availability of the Delta II launch 
        vehicle after 2009 and is studying alternatives. What is the 
        status of the Delta II availability for science payloads after 
        2009? If the Delta II is not available, what is the plan for 
        launching Delta-class science missions? What are the 
        alternatives to the Delta II and what are the likely impacts of 
        using an alternative vehicle? If launch costs increase, does 
        NASA plan to alter the levels of cost-capped missions?

        <bullet>  Technology Development and Supporting Programs--
        missions proposed with immature technologies can be a root 
        cause of cost growth. The Academies report on Principal-
        Investigator-Led Missions in the Space Sciences states that ``. 
        . .project technology development efforts often lag planned 
        progress owing to unexpected design failures, fabrication or 
        testing issues, or other glitches. . . .attempts by mission 
        projects to using promising but immature technology is a 
        frequent cause of PI-led missions (and others) exceeding the 
        cost cap.'' The FY08 budget request decreases funding for the 
        New Millennium Program and the research and analysis programs 
        both of which enable technology development for future 
        missions. In light of the cost growth and technical challenges 
        encountered by several science missions, will reductions in 
        technology development programs increase the risk of cost 
        growth on future missions? Have technology development programs 
        been an adequate and effective means of understanding technical 
        risks and mission costs? If not, why and what other mechanisms 
        are available to prepare for technical challenges on future 
        missions?

        <bullet>  International Partnerships--NASA has a successful 
        history of international cooperation in science and involves 
        non-U.S. partners on some two-thirds of its science missions, 
        and also provides instruments, science support, and other in-
        kind contributions to non-U.S.-led space and Earth science 
        missions. Successful cooperative missions can increase the 
        scientific content of a mission and build mutually beneficial 
        relationships. At the same time, cooperation can lead to delays 
        and added mission costs. Among the factors that have made 
        international cooperative missions harder in recent years is 
        ITAR. Pursuant to 22 U.S.C. 2778 of the Arms Export Control 
        Act, the International Traffic in Arms Regulations (ITAR) 
        regulates the export of defense articles on the U.S. Munitions 
        Control List. The Department of State has responsibility for 
        administering the regulations. In 1999, scientific satellites 
        were added to the Munitions Control List (USML). ITAR often 
        poses significant challenges for space science missions, many 
        of which involve international partners. The time required to 
        manage licenses or agreements can threaten mission schedules. 
        ITAR can be especially problematic for U.S. universities, which 
        typically attract a large percentage of foreign graduate 
        students to their programs. Is increasing international 
        cooperation on planned and future missions feasible, given 
        recent experiences with ITAR? What factors associated with ITAR 
        must be considered before agreeing to international 
        collaborations?

Overview

    Over the past five decades, NASA has fostered a world-class space 
science program that has led to such discoveries as new planets outside 
our solar system, the presence of dark energy and the acceleration of 
an expanding Universe, the signs of possible recent liquid water flows 
on Mars, and more knowledge of the Sun's interior structure and 
activity. NASA missions have also improved our understanding of the 
effects of solar activity and space radiation on ground-based 
electrical power grids and wireless communications systems, on orbiting 
satellites, and also on humans in space. The space science program's 
technical achievements are equally stunning as demonstrated in the 
successful landing and operation of Mars rovers Spirit and Opportunity; 
the recent deployment of five spacecraft to study the causes of the 
changing auroras at the North Pole, and Deep Impact's successful 
penetration of the comet Tempel 1. In 2006, Dr. John Mather and Dr. 
George Smoot were awarded the Nobel Prize in physics for their work 
with the NASA Cosmic Background Explorer. [Dr. Mather is the first NASA 
civil servant to receive the Nobel prize.]
    This hearing will examine NASA's space science programs within 
NASA's Science Mission Directorate (SMD) and their status within the 
context of the Fiscal Year 2008 budget request. The space science 
programs include the following theme areas:

        <bullet>  Heliophysics, which seeks to understand the Sun and 
        its effects on Earth and the rest of the solar system;

        <bullet>  Planetary science, which seeks to understand the 
        origin and evolution of the solar system and the prospects for 
        life beyond Earth; and

        <bullet>  Astrophysics, which seeks to understand the origin, 
        structure, evolution and future of the Universe and to search 
        for Earth-like planets.

    Earth science is also an SMD theme area. It will be the topic of a 
separate Subcommittee hearing.
    It should also be noted that Dr. Stern has informed the 
Subcommittee that he has gotten agreement to move NASA's Near-Earth 
Objects (NEO) program, and its associated budget, from the Exploration 
Systems Mission Directorate to the Science Mission Directorate.
    NASA's space science programs involve the following types of 
activities:

        <bullet>  space missions that take measurements and collect 
        data to investigate high priority science questions;

        <bullet>  the analysis of that mission data, which leads to new 
        knowledge;

        <bullet>  research on theories and models;

        <bullet>  the development of new technologies to enable future 
        science investigations; and

        <bullet>  the use of balloons, sounding rockets, and sub-
        orbital flights to take measurements and test technologies.

    Stakeholders in the NASA space science programs include academic 
institutions; industry; NASA field centers, predominantly the Goddard 
Space Flight Center (GSFC) and the Jet Propulsion Laboratory (JPL); and 
other government laboratories. There are a number of advisory panels 
that provided guidance on NASA's space science programs and activities, 
including the NASA Advisory Council (NAC) and the NAC Science 
Subcommittees, the National Academies, and the Astronomy and 
Astrophysics Advisory Committee (AAAC).

Fiscal Year 2008 Budget Request

    The President's FY08 budget requests $4.019 billion to fund NASA's 
space science programs--heliophysics, planetary science, and 
astrophysics. The budget represents a $16.5 million increase (or about 
0.4 percent) over the President's proposed FY07 budget. (Appendix A 
presents the President's FY08 budget request for NASA space science 
programs.) Space science programs represent 23.2 percent of the 
President's total FY08 budget request for NASA. Within the proposed 
FY08 budget for space sciences programs, heliophysics represents 26 
percent, planetary science represents 35 percent and astrophysics 
represents 39 percent of the total space science funding.
    Comparing the President's FY08 budget request with the funding 
requested for FY08-FY11 in the President's FY07 proposal (and under 
full cost simplification) shows that planetary science gains $87M, 
while heliophysics loses over $300M and astrophysics is decreased by 
about $125M. The FY08 budget request shows the following cumulative 
results for individual science missions, over the FY08-FY11 period, 
relative to the President's FY07 budget request:

        <bullet>  NASA adds funding to support the development of 
        several key missions and mission areas, including (in millions 
        of dollars):
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        <bullet>  However, there are significant funding cuts to other 
        space science activities, activities over the same period, such 
        as (in millions of dollars):
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    In 2008, the Science Mission Directorate plans to launch Kepler, 
Interstellar Boundary Explorer, Solar Dynamics Observatory, conduct a 
fourth Hubble servicing mission; and complete contributions to 
international and interagency partner missions that are planned for 
launch in 2008.

Heliophysics
    The President's FY08 budget request for NASA includes $1.057 
billion for the Heliophysics theme, which seeks to understand the Sun 
and its effect on the Earth, the rest of the solar system, and the 
conditions in the space environment and their effects on astronauts; 
and to develop and demonstrate technologies to predict space weather.
    Programs within the Heliophysics theme include:

        <bullet>  Heliophysics Research--research and analysis; space 
        missions; sounding rockets and other scientific platforms; 
        science data and computing technology;

        <bullet>  Living with a Star--investigations to understand 
        solar variability (space weather), its effect on the Earth and 
        the rest of the solar system, and the implications for ground-
        based systems such as electric power grids and wireless 
        communications, and for on-orbit spacecraft and astronauts. 
        Space missions under the Living with a Star program include:

                  Solar Dynamics Observatory (SDO) to understand the 
                structure of the Sun's magnetic field and how magnetic 
                field energy forms the solar wind, energetic particles, 
                and fluctuations in solar irradiance. SDO will help 
                acquire data to enable space weather predictions. SDO 
                is slated to launch in 2008.

                  Radiation Belt Storm Probes (RBSP) to investigate 
                solar storms and their interaction with charged 
                particles, fields, and radiation in the Van Allen 
                radiation belts. The results of the mission will be 
                used to develop models that assist engineers in 
                designing systems to withstand radiation effects and to 
                alert pilots and crews of potentially hazardous solar 
                storms or radiation. RBSP is estimated to launch around 
                2012.

        <bullet>  Solar Terrestrial Probes--missions to investigate the 
        Sun, the heliosphere, and planetary environments as an 
        interrelated system. Missions within the Solar Terrestrial 
        Probe program include:

                  Magnetospheric Multi-scale (MMS) is proposed as a 
                system of four spacecraft to investigate processes such 
                as magnetic reconnection, which involves the transfer 
                of energy from the solar wind to the Earth's 
                magnetosphere, and is an important factor in predicting 
                space weather. The estimated launch date for MMS is 
                2013.

        <bullet>  Heliophysics Explorer Program--small and medium-class 
        competitively-selected missions that endeavor to provide 
        frequent flight opportunities to investigate focused research. 
        Explorer programs are cost-capped and awarded to individual 
        principal investigators who have sole responsibility for the 
        scientific and technical success of the mission.

        <bullet>  New Millennium--a program to validate technologies 
        for use in future space science missions. The program reduces 
        the risk of new technologies that have not yet been flown in 
        space.

        <bullet>  Deep Space Mission Systems--telecommunications and 
        navigation services (e.g., the Deep Space Network) to support 
        human and robotic exploration of the solar system. [This 
        program is located in Heliophysics as a bookkeeping function in 
        the FY08 request.]

Issues

        <bullet>  ``Flagship'' missions including the James Webb Space 
        Telescope, which is under development in the Astrophysics 
        Program, and the Cassini mission which is currently 
        investigating Saturn, for the Planetary Science program, 
        represent long-term, high priority scientific investigations 
        for those disciplines. The National Academies decadal survey 
        for solar and space physics recommended in 2003 the Solar Probe 
        as a flagship mission to measure the heating and acceleration 
        of the solar wind. According to NASA's Science Plan for 2007-
        2016, ``a flagship mission cannot be supported within the 
        available funding resources.'' What are NASA's plans for Solar 
        Probe and why are flagship missions being pursued in other 
        science disciplines but not in Heliophysics? How does the 
        absence of a Solar Probe mission affect the balance of the 
        Heliophysics program?

Planetary Science
    The President's FY08 budget request provides $1.396 billion to fund 
NASA's Planetary Science theme, which seeks to understand:

        <bullet>  the history and evolution of the solar system;

        <bullet>  whether life existed or exists beyond Earth.

    The FY08 budget represents a decrease of $15.4 million or one 
percent cut relative to the President's FY07 budget request for 
planetary science.
    The Planetary Science program includes the following elements:

        <bullet>  Mars Exploration--several mission projects aimed at 
        exploring Mars for indicators of life, helping to understand 
        the history of the solar system, and to improving our 
        understanding of the potential hazards to humans in future Mars 
        explorations.

                  Mars Scout 2007 (Phoenix) is a mission to help 
                understand the chemistry, mineralogy and composition of 
                gases in surface and subsurface soils at areas in the 
                northern latitudes of Mars. The Mars Scout line is led 
                by a principal investigator, a scientist who is 
                selected competitively to lead the development of a 
                mission and ensure its scientific and technical 
                success. Mars Scout missions are cost-capped at $475M 
                (FY06 dollars). Phoenix is scheduled for launch in 
                August, 2007.

                  Mars Science Laboratory is a NASA strategic rover 
                mission designed with a new entry, descent and landing 
                system to take measurements focused on identifying 
                possible Martian habitats for life. Mars Science 
                Laboratory is scheduled for launch in 2009.

        <bullet>  Discovery Program--a program of missions that offer 
        scientists opportunities to form a team and submit a proposal 
        to design and develop innovative, medium-sized, missions that 
        address focused science objectives. Proposals are competed; 
        NASA awards funds to the scientist, as principal investigator, 
        leading the selected proposal. Principal investigators are 
        responsible for the scientific, technical and managerial 
        success of the mission. Discovery missions are cost-capped at 
        $425M, according to the Announcement of Opportunity issued in 
        2006. Discovery missions under development include Dawn--a 
        mission whose purpose is to visit and study Vesta and Ceres, 
        the two largest asteroids in the solar system. Dawn is 
        scheduled for launch in June 2007.

        <bullet>  New Frontiers--offers opportunities for scientists to 
        form a team and propose to design and develop innovative, 
        medium-sized missions that focus on understanding the origin, 
        evolution, and formation of the solar system. New Frontiers 
        missions are led by principal investigators and have a cost-cap 
        up to $700M in FY03 dollars, as of 2006. New Frontiers missions 
        include:

                  New Horizons, launched in 2006, which is en route to 
                Pluto where it will collect data about the geology and 
                atmosphere of Pluto and its moon, Charon.

                  Juno, a mission that is being planned to investigate 
                several aspects of Jupiter including its interior 
                structure and its atmosphere. Juno is being planned for 
                launch in 2011. Juno is a high priority mission of both 
                the National Academies' solar system exploration and 
                solar and space physics decadal surveys.

        <bullet>  Technology--a program to develop Radioisotope Power 
        Systems such as radioisotopic thermoelectric generators and In-
        Space Propulsion technologies such as solar electric propulsion 
        and solar sail propulsion that enable solar system exploration 
        missions to reach distant outer planets at lower costs, with 
        less mass, and for shorter travel times.

        <bullet>  Planetary Science Research includes research and 
        analysis, lunar science and funding for existing missions and 
        planetary data archiving. Specific program elements include:

                  Research and Analysis programs involve the 
                development of theory and instrumentation to enable 
                future planetary science missions as well as research 
                on specific interdisciplinary areas such as 
                astrobiology and cosmochemistry (research on the 
                origins and evolution of planetary systems and for 
                study of the atmospheres, geology, and chemistry of 
                planets in the solar system).

                  Lunar Science is a new program in the FY08 request, 
                which provides funds for the archiving of lunar science 
                data, lunar science instruments and payloads that are 
                selected through peer review, analysis of data from 
                lunar missions, and technology development for lunar 
                science missions.

           The planetary science research program also supports 
        planetary data systems and astromaterials curation; the Cassini 
        Huygens mission; U.S. involvement in non-U.S. missions such as 
        the European cometary mission, Rosetta, and the Japanese 
        cometary sample return mission, Hayabusa.

Issues

        <bullet>  NASA created the interdisciplinary field of 
        astrobiology in the late 1990s to increase knowledge on the 
        origin and evolution of life on Earth and beyond Earth. Two 
        National Academies decadal surveys strongly support 
        Astrobiology, and Astrobiology contributes to NASA's own 
        strategic goal to ``Advance scientific knowledge of the origin 
        and history of the solar system, the potential for life 
        elsewhere, and the hazards and resources present as humans 
        explore space,'' as stated in the 2006 NASA Strategic Plan. 
        According to the January-March 2007 Newsletter of the National 
        Academies' Space Studies Board, over the last two years, NASA 
        cut the budget for Astrobiology by 50 percent, from 
        approximately $65 million to $31 million. In FY07, reductions 
        in the astrobiology budget reduced the number of research 
        institutions participating as part of the NASA Astrobiology 
        Institute from 16 to 12, and the funding for those 12 teams was 
        reduced. [The Astrobiology Institute is a consortium of 
        institutions that have been competitively selected and provided 
        seed funding for astrobiology research programs.] No new 
        research has been provided in the Astrobiology Science and 
        Technology for Exploring Planets program or the Astrobiology 
        Science and Technology Instrument Development program since 
        2004. Funding for grants in the exobiology and evolutionary 
        biology program has been delayed. The cuts to the research 
        program have affected graduate students, post-doctoral students 
        and junior faculty, who rely on grant funding for their 
        research. The decrease in available funding and research 
        opportunities is expected to discourage younger scientists from 
        entering the field.

        <bullet>  The FY08 budget request adds $27 million of new 
        content in FY08 through the creation of a lunar science 
        research program in the Planetary Science Research line. The 
        total funding budgeted for lunar science through FY 2012 is 
        $350 million. The goals for the lunar science program over the 
        next five years include archiving of data from the lunar 
        precursor robotics missions; launching missions of opportunity 
        for scientific instruments on lunar precursor robotic missions 
        or international lunar missions and funding the analysis of 
        data from those missions. Plans for the lunar science program 
        also involve providing opportunities for developing instruments 
        and technologies to support lunar science studies and 
        investigations. What priority will the new lunar science 
        program have relative to other space science research 
        activities? Is it intended to support the human lunar 
        exploration program, or is it independent of that initiative?

Astrophysics
    The President's NASA FY08 budget request includes $1.566 billion to 
fund NASA's Astrophysics program, which seeks to improve our 
understanding of the origin, structure, evolution and future of the 
Universe and to search for Earth-like planets. The FY08 request 
represents a $2.8 million or .02 percent increase over the President's 
FY07 budget proposal.
    The Astrophysics program includes the following elements:

        <bullet>  Astrophysics Research includes managing operating 
        missions; managing, archiving, and disseminating mission data; 
        funding science research and data analysis; and technology 
        development

        <bullet>  Gamma-ray Large Space Telescope (GLAST) is a mission 
        being conducted with NASA and the Department of Energy. The 
        mission will take measurements of high-energy gamma rays in an 
        effort to understand their sources and behavior. GLAST is 
        scheduled for launch in November 2007.

        <bullet>  Kepler is a competitively-selected principal 
        investigator-led mission in the Discovery program that will 
        search for Earth-like planets. Kepler is scheduled for launch 
        in November 2008.

        <bullet>  James Webb Space Telescope (JWST) is an infrared 
        observatory involving a 6.5m aperture mirror and sunshade that 
        will unfold upon deployment in space. JWST will enable 
        scientific study of the early Universe and of the development 
        of galaxies, stars, planetary systems and the elements required 
        for life. JWST is the top-ranked mission from the last National 
        Academies decadal survey in astronomy and astrophysics and is 
        considered the successor to the Hubble Space Telescope. JWST is 
        slated for launch in 2013.

        <bullet>  Hubble Space Telescope is a space observatory 
        currently utilized to study and understand the formation, 
        structure, and evolution of stars and galaxies in the visible, 
        near infrared and ultraviolet wavelengths. The Hubble was 
        designed to be serviced from space. The fourth Shuttle 
        servicing mission is scheduled for September 2008 to replace 
        batteries, gyroscopes, and other systems necessary for 
        operating capabilities and to add new scientific instruments. 
        Hubble was launched in 1990.

        <bullet>  Navigator Program involves several projects aimed at 
        the search for habitable planets beyond the solar system:

                  Space Interferometer-PlanetQuest (SIM) is a mission 
                to conduct a census of planetary systems and to 
                identify the location and masses of targets for 
                potential further study. SIM is a technology 
                development project.

                  Terrestrial Planet Finder (TPF) is a concept for a 
                space mission that would detect planets similar to 
                Earth in the areas of nearby stars that are considered 
                possible for the formation of Earth-like planets. TPF 
                would collect and analyze data on the spectra of 
                planets it identified for possible signs of life. TPF 
                is a technology development project.

                  The Keck Interferometer (KI) is a ground-based 
                effort currently under development to measure the dust 
                and gas around stars, especially the inner region of 
                stars where Earth-like planets may form.

                  Large Binocular Telescope Interferometer (LBTI) in 
                under development and will take measurements of the 
                dust and gas surrounding stars, including the outer 
                ranges of disks around stars where it is thought that 
                Jupiter-like planets might form and evolve.

        <bullet>  Stratospheric Observatory for Infrared Astronomy 
        (SOFIA) is an astronomical observatory to help understand the 
        birth and death of stars, how new solar systems form, among 
        other astrophysical questions. The SOFIA observatory includes a 
        2.5 meter telescope, provided by the German Aerospace Center 
        (DLR), that will be mounted on a customized Boeing 747 
        aircraft.

        <bullet>  Astrophysics Explorer Program provides opportunities 
        for researchers to assemble a team and propose to design and 
        develop a focused science mission. Explorer missions are led by 
        principal investigators and are cost-capped. The program is 
        intended to offer frequent flight opportunities and to conduct 
        focused science investigations that complement larger, NASA-
        developed strategic missions. Astrophysics Explorer missions in 
        development include Wide-Field Infrared Survey Explorer (WISE) 
        which seeks, as a main objective, to find the brightest 
        galaxies in the Universe. WISE is slated for launch in 2009.

        <bullet>  International Space Science Collaboration, which 
        involves the U.S. contribution of instruments, subsystems, and 
        U.S. investigators to two European-led missions.

        <bullet>  Beyond Einstein, a program including space missions, 
        research and theory work, and technology development aimed at 
        improving our understanding of proposed missions to help 
        understand Einstein's theory of general relativity and its 
        predictions about the Big Bang, black holes, and dark energy. 
        NASA has commissioned a National Academies study to recommend 
        which Beyond Einstein mission should be developed and launched 
        first. The Beyond Einstein program, as described in NASA's FY08 
        budget request documentation, includes:

                  Laser Interferometer Space Antenna (LISA), a 
                collaborative mission with the European Space Agency to 
                measure gravitational waves.

                  Constellation-X Observatory (Con-X), a mission that 
                will harness the collective power of several x-ray 
                telescopes to investigate black holes, Einstein's 
                theory of general relativity, the formation of 
                galaxies, and the nature of dark matter and dark 
                energy, among other science goals.

                  Joint Dark Energy Mission, which will study the 
                nature of dark energy in the Universe and the expansion 
                of the Universe.

                  Beyond Einstein Future Missions, which include an 
                Inflation Probe to study the causes of the inflation of 
                the Universe and Black Hole Finder Probe, which will 
                conduct a census of black holes to identify where they 
                are and when and how they form.

Issues

        <bullet>  The Navigator Program, a project within the 
        Astrophysics theme, seeks to understand how planets and 
        planetary systems form, search for planets around other stars, 
        and characterize those planets and their environments for signs 
        of potential life. The Space Interferometer-PlanetQuest (SIM) 
        mission along with the Terrestrial Planet Finder (TPF) mission 
        are integral components of the Navigator Program. The 2001 
        astronomy and astrophysics decadal survey recommends SIM for 
        completion and TPF as a technology development project. The 
        President's FY07 request for NASA delayed SIM to a potential 
        2015 or 2016 launch and deferred TPF development indefinitely. 
        The FY08 request cuts $800M from the Navigator Program between 
        FY08 and FY11. The FY08 request does provide funds ($35.5M) for 
        reinstating technology development work on TPF. What is the 
        appropriate path for the Navigator program? Should funding be 
        restored to put SIM back on track for mission development? 
        Should funding for TPF technology development be increased? 
        Should both the SIM and TPF missions be deferred until they can 
        be reconsidered in the next decadal survey?

        <bullet>  As can be seen in the chart below, a large number of 
        highly recommended astrophysics missions have been delayed, 
        canceled, or deferred. At the same time, the recent National 
        Academies Assessment of NASA's Astrophysics Program noted that: 
        ``Although six astrophysics Explorer missions have been 
        launched in the current decade, those launches are the result 
        of development work performed mostly in the 1990s. At this 
        point it appears that only one Explorer mission will be 
        developed and launched in this decade, and at most one Explorer 
        will begin development in this decade for launch in the next.'' 
        What is the outlook for the Astrophysics program if current 
        trends continue, and what should be done?
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        <bullet>  The President's FY08 budget request includes an 
        estimate for a Space Shuttle servicing mission of the Hubble 
        Space Telescope in May 2008, and the budget proposes funding to 
        support that date. An updated Shuttle manifest moved the 
        mission to September 2008, leaving a gap of four months or $40 
        million ($10 million a month in costs). The current tentative 
        Shuttle manifest has moved the mission forward to an August 
        2008 launch, although further changes and launch delays could 
        widen the funding shortfall. It is not yet clear where NASA 
        will find the $40 million to fill the gap.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Udall. Good morning. This hearing will come to 
order. I would like to begin by welcoming all of our witnesses 
to today's hearing. We have a distinguished panel that can 
provide this subcommittee with important perspectives on the 
state of NASA's space science activities. In particular, I 
would like to welcome Dr. Alan Stern, the new Associate 
Administrator of NASA's Science Mission Directorate. I got to 
know Dr. Stern when he was at the Southwest Research Institute, 
and I look forward to working with him in his new role.
    As Chairman Calvert reminded me, he is also a constituent 
of mine and I am glad to have Alan here.
    I would also like to welcome Dr. Dan Baker, who is the 
Director of University of Colorado's laboratory for Atmospheric 
and Space Physics in Boulder, Colorado, also a constituent. Dr. 
Baker, great to have you.
    As can be seen by the title of today's hearing, we are 
going to focus on a subset of NASA's science activities, mainly 
its astrophysics, planetary science, and heliophysics programs. 
Obviously, NASA's Earth science program is an important element 
of NASA's overall science program, but it will be the focus of 
a separate hearing that will expand on the Full Committee 
hearing we held earlier this year.
    In addition, while not currently part of the Science 
Mission Directorate, NASA' life and microgravity research 
programs are also important research endeavors that will be 
scrutinized by this subcommittee in the coming months, 
particularly in light of the deep--and many would say, unwise--
cuts that NASA has made to those programs. To paraphrase 
Dickens, it is both the best of times and the worst of times 
for NASA'S space science programs.
    We have witnessed a whole series of exciting events in 
recent months, whether it be the discovery of possible recent 
liquid water flows on Mars, stereo images of solar activity, or 
Nobel Prizes awarded for research enabled by NASA's cosmic 
background explorer. These are just a few of the 
accomplishments of NASA's space science enterprise over the 
last few years.
    In short, NASA's space science programs are highly 
productive and exciting in addressing compelling scientific 
questions. That is the good news.
    What is the bad news? The bad news is that while those 
accomplishments were enabled by the Nation's past investments 
in NASA's science activities, the outlook for the needed future 
investments is not good if present trends are any indication.
    For example, the five-year funding plan for NASA's science 
mission directorate has been reduced by a total of $4 billion 
since fiscal year 2005, which is a significant disruption. In 
addition, the impact of those cuts to NASA'S out year science 
funding is magnified by cost growth that has occurred within 
some science missions under development, cost growth that is 
putting additional stress on the overall space science program.
    Another example: the Explorer Program, which has enabled 
major scientific discoveries, has seen new mission 
opportunities dramatically curtailed. Funding for research and 
analysis which helps to enable scientific research and train 
the next generation of scientists and engineers was cut by 15 
percent in fiscal year 2007. Those cuts were also applied 
retroactively to fiscal year 2006, and that reduced R&A funding 
level was maintained in the '08 request.
    Moreover, that 15 percent R&A cut was an average cut with 
some disciplines suffering much deeper cuts.
    In short, at a time when NASA's science programs offer the 
promise of major advances in our understanding of the Sun, the 
solar system, and the universe beyond, we risk long-term damage 
to the health of those programs if we are not careful. That is 
why I look forward to hearing from Dr. Stern and the rest of 
our expert panel today. We need to get their best assessment of 
the challenges facing NASA's space science program, and the 
likely consequences of inaction, and most importantly, their 
recommendations for addressing those challenges.
    At the end of the day, however, it is clear to me that if 
we are going to ask our nation's space science program to 
undertake challenging and meaningful initiatives, we are going 
to need to provide the necessary resources.
    In closing, again, I want to welcome our witnesses, and I 
now yield to my colleague, my good friend Ranking Member 
Calvert, for any opening remarks he would like to make.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning. I'd like to begin by welcoming all of our witnesses 
to today's hearing. We have a distinguished panel that can provide this 
subcommittee with important perspectives on the state of NASA's space 
science activities.
    In particular, I would like to welcome Dr. Alan Stern, the new 
Associate Administrator of NASA's Science Mission Directorate. I got to 
know Dr. Stern a bit when he was at the Southwest Research Institute, 
and I look forward to working with him in his new role.
    I'd also like to welcome Dr. Dan Baker, Director of the University 
of Colorado's Laboratory for Atmospheric and Space Physics in Boulder, 
Colorado.
    As can be seen by the title of today's hearing, we are going to 
focus on a subset of NASA's science activities, namely its 
astrophysics, planetary science, and heliophysics programs.
    Obviously, NASA's Earth Science program is an important element of 
NASA's overall science program, but it will be the focus of a separate 
hearing that will expand on the Full Committee hearing we held earlier 
this year.
    In addition, while not currently part of the Science Mission 
Directorate, NASA's life and microgravity research programs are also 
important research endeavors that will be scrutinized by this 
subcommittee in the coming months, particularly in light of the deep--
and many would say unwise--cuts that NASA has made to those programs.
    To paraphrase Dickens, it is both ``the best of times and the worst 
of times'' for NASA's space science programs. We have witnessed a whole 
series of exciting events in recent months, whether it be the discovery 
of possible recent liquid water flows on Mars, stereo images of solar 
activity, or Nobel prizes awarded for research enabled by NASA's Cosmic 
Background Explorer.
    Those are just a few of the accomplishments of NASA's space science 
enterprise over the past several years. In short, NASA's space science 
programs are highly productive, exciting, and addressing compelling 
scientific questions.
    That's the good news. . .what's the bad news? The bad news is that 
while those accomplishments were enabled by the Nation's past 
investments in NASA's science activities, the outlook for the needed 
future investments is not good if present trends are any indication.
    For example, the five-year funding plan for NASA's Science Mission 
Directorate has been reduced by a total of $4 billion since Fiscal Year 
2005--a significant disruption.
    In addition, the impact of those cuts to NASA's outyear science 
funding is magnified by cost growth that has occurred within some 
science missions under development--cost growth that is putting 
additional stress on the overall space science program.
    Another example: the Explorer program, which has enabled major 
scientific discoveries, has seen new mission opportunities dramatically 
curtailed.
    Funding for Research and Analysis, which helps to enable scientific 
research and train the next generation of scientists and engineers, was 
cut by an average of 15 percent in FY 2007.
    Those cuts were also applied retroactively to FY 2006 and that 
reduced R&A funding level was maintained in the FY 2008 request.
    Moreover, that 15 percent R&A cut was an average cut, with some 
disciplines suffering much deeper cuts.
    In short, at a time when NASA's science programs offer the promise 
of major advances in our understanding of the sun, our solar system, 
and the universe beyond, we risk doing long-term damage to the health 
of those programs if we are not careful.
    That is why I look forward to hearing from Dr. Stern and the rest 
of our expert panel today.
    We need to get their best assessment of the challenges facing 
NASA's space science program and the likely consequences of inaction, 
and most importantly, their recommendations for addressing those 
challenges.
    At the end of the day, however, it is clear to me that if we are 
going to ask our nation's space science program to undertake 
challenging and meaningful initiatives, we are going to need to provide 
the necessary resources.
    In closing, I again want to welcome our witnesses, and I now yield 
to my colleague, Ranking Member Calvert, for any opening remarks he 
would like to make.

    Mr. Calvert. Thank you, Mr. Chairman. I would like to thank 
you for scheduling today's hearing on NASA's space science 
program, and my sincere thanks to our witnesses for taking time 
from their busy schedules to join us this morning and share 
their views and recommendations.
    I am glad our Chairman is here today. He was out running 
this morning and did a great job, that is why he is a little 
sweaty in here, though the room is a little warm, Mr. Chairman. 
Let me just point that out.
    As everyone in this room well knows, NASA is an 
extraordinary agency that, at a relatively small cost to the 
taxpayer, has produced science discoveries that have 
transformed man's view of the universe around us, and has also 
demonstrated that man can live and work in space. The pace and 
scope of science discoveries over the last decade have been 
breathtaking. Dark energy, dark matter, extra solar planets, 
evidence of water, as the Chairman mentioned, on Mars, just to 
name a few.
    Despite the fact that funding for NASA's science mission is 
roughly 32 percent of the Agency's budget, including Earth 
science, hovering near a historical high relative to the 
overall Agency budget, the tempo of new discoveries and 
capabilities that we recently enjoyed are at serious risk of 
tapering off for a variety of well-understood reasons.
    One, mission costs have far exceeded early projections.
    Two, until Mike Griffin's arrival as Administrator, NASA 
was developing too many missions for the resources they had 
available, forcing the Agency to stretch out schedules, stay 
within budget, and delaying the pace of new starts.
    Three, cost uncertainties of launching small and medium-
sized payloads after Delta 2 is retired, and mission assurance 
and accounting changes.
    Everyone in this room understands that severe budget 
challenges are also confronting NASA in its manned space flight 
and aeronautics research programs, forcing the Agency to remove 
future budget growth from the science mission directorate in 
order to address more pressing needs. I don't fault NASA for 
making the tough choices it did, but it shouldn't be that way.
    I have stated before and I will say it again, that the 
Administration must provide NASA with realistic budget requests 
to match resources with program content, otherwise, the balance 
among NASA's programs becomes imperiled as the Agency moves 
resources around to fund priorities and invites Congress--and 
this is often not a good thing--to begin imposing its own 
preferences.
    NASA Administrator Mike Griffin is doing an exceptional 
job, in my opinion, leading the Agency. He has set priorities, 
and while everybody in this room may not agree with his 
decisions, he has not attempted to be disingenuous or hasn't 
disguised his decisions.
    NASA's science enterprise leads the world in the quest for 
human understanding of the cosmos, our solar system, and 
indeed, our home planet. The strength of the Agency's science 
program is rooted in its close working relationship with the 
science community. Our witnesses today will provide us with the 
best guidance on how NASA and Congress can address the 
challenges confronting the science community to ensure a return 
to a robust mission tempo and to ensure a strong cadre of 
scientists and engineers to propose and design future missions.
    With that, Mr. Chairman, my thanks, and again, thanks to 
our witnesses.
    [The prepared statement of Mr. Calvert follows:]
            Prepared Statement of Representative Ken Calvert
    Thank you, Mr. Chairman, for scheduling today's hearing on NASA's 
Space Science program, and my sincere thanks to our witnesses for 
taking time from their busy schedules to join us this morning and share 
their views and recommendations.
    As everyone in this room well knows, NASA is an extraordinary 
agency that at a relatively small cost to the taxpayer has produced 
science discoveries that have transformed man's view of the universe 
around us, and has also demonstrated that man can live and work in 
space. The pace and scope of science discoveries over the last decade 
has been breath-taking; dark energy, dark matter, extra-solar planets, 
evidence of water on Mars, to name but a few.
    Yet despite the fact that funding for NASA science missions is 
roughly 32 percent of the Agency's budget (including Earth Science), 
hovering near an historical high relative to the overall agency budget, 
the tempo of new discoveries and capabilities that we've recently 
enjoyed are at serious risk of tapering off for a variety of well 
understood reasons--

          mission costs have far exceeded early projections;

          until Mike Griffin's arrival as Administrator, NASA was 
        developing too many missions for the resources it had 
        available, forcing the Agency to stretch out schedules to stay 
        within budget, and delaying the pace of new starts;

          cost uncertainties of launching small and medium-sized 
        payloads after the Delta II is retired; and

          mission assurance and accounting changes.

    Everyone in this room understands that severe budget challenges are 
also confronting NASA in its manned space flight and aeronautics 
research programs, forcing the Agency to remove future budget growth 
from the science mission directorate in order to address more pressing 
needs. I don't fault NASA for making the tough choices it did.
    But it shouldn't be that way. I have stated before, and I'll say it 
again, that the Administration must provide NASA with realistic budget 
requests to match resources with program content. Otherwise, the 
balance among NASA's programs becomes imperiled as the Agency moves 
resources around to fund priorities, and it invites Congress--and this 
is often not a good thing--to begin imposing its own preferences.
    NASA Administrator Mike Griffin is doing an exceptional job leading 
the Agency. He has set priorities, and while everyone in the room may 
not agree with his decisions, he has not attempted to be disingenuous 
and hasn't disguised his decisions.
    NASA's science enterprise leads the world in the quest for human 
understanding of the cosmos, our solar system, and indeed, our home 
planet. The strength of the Agency's science program is rooted in its 
close working relationship with the science community.
    Our witnesses today will provide us with their best guidance on how 
NASA and Congress can address the challenges confronting the science 
community to ensure a return to a robust mission tempo and ensure a 
strong cadre of scientists and engineers to propose and design future 
missions.
    Thank you, Mr. Chairman, and my thanks again to our witnesses.

    Chairman Udall. Thank you, Mr. Calvert.
    I want to do a little housekeeping at this point before we 
begin the testimony. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record. Without objection, so ordered.
    In addition, we would also like to include a statement for 
the record from the Planetary Society in today's hearing. 
Again, without objection, so ordered.
    [The information follows:]
                   Statement of The Planetary Society

                          Restoring the Vision

    NASA is a great agency achieving great things. NASA brings out the 
best in us, a society using some of its great wealth to help people 
around the globe understand our place in the Universe and to inspire 
generations of explorers. NASA's images, its heroes, along with its 
scientific and engineering achievements, have changed the world for all 
humankind. This statement criticizing both the proposed NASA budget and 
current NASA operating plan is in support of space exploration and the 
process of scientific discovery and engineering achievement that NASA 
represents to the world.
    The Vision for Space Exploration--which is supposed to be guiding 
NASA's program and budget--has become distorted. Its mantra, ``go as 
you pay,'' has become ``go as you cannibalize other programs.'' Its 
scientific underpinnings have been removed, leaving it suspended with 
uncertain public support and public interest.
    This statement of The Planetary Society, is designed to represent 
that public interest. The Society is the largest public space-interest 
group in the world, a non-governmental organization that represents no 
particular profession, but instead represents the interest of citizens 
who believe in the value of space exploration to the Nation and to the 
world.
    The original Vision for Space Exploration's first goal was ``a 
sustained and affordable human and robotic program to explore the solar 
system and beyond.'' Instead, the robotic program has been undercut and 
the solar system is nearly unmentioned in the human program.
    The original Vision for Space Exploration was to ``Undertake lunar 
exploration activities to enable sustained human and robotic 
exploration of Mars and more distant destinations in the solar 
system.'' Instead, Mars robotic exploration in the next decade has been 
almost eliminated, and lunar exploration activities have been diverted 
to constructing a permanent lunar base with macro-engineering projects 
in place of exploration objectives.
    The original Vision for Space Exploration directed NASA to 
``Conduct robotic exploration of Mars to search for evidence of life, 
to understand the history of the solar system, and to prepare for 
future human exploration; Conduct robotic exploration across the solar 
system for scientific purposes and to support human exploration. In 
particular, explore Jupiter's moons, asteroids and other bodies to 
search for evidence of life, to understand the history of the solar 
system, and to search for resources; and Conduct advanced telescope 
searches for Earth-like planets and habitable environments around other 
stars.'' Instead, Mars exploration has been cut, the mission to 
Jupiter's moon Europa and the Terrestrial Planet Finder mission have 
been eliminated, and the search for extraterrestrial life has been cut 
in half.
    Instead of ``for scientific purposes,'' the program has seen $3 
billion eliminated from four years of space science planning, and 
science research and data analysis--the ``seed corn'' that allows NASA 
to reap future benefits from its exploration programs--was cut 15 
percent across the board.
    These contradictions between the conduct of the NASA program and 
the originally stated Vision for Space Exploration explain why The 
Planetary Society supports the Vision but opposes its current 
implementation plan. The word ``exploration'' has been hijacked and is 
now used to mean human space vehicle development, instead of missions 
and discoveries in the solar system.
    Not only do we still support the Vision, we also support the NASA 
Administrator in his incredibly difficult effort to, at long last, 
redirect human space flight beyond Earth orbit. Mike Griffin is not 
against science, but he has been given too few resources and too many 
constraints to properly administer either the Vision or space science 
and exploration.
    NASA cannot juggle limited resources and overburdening constraints 
without dropping a few balls. NASA's budget should be increased as was 
originally envisioned, and as this committee particularly supported, to 
restore the Vision's scientific underpinnings and to prepare for human 
exploration of the solar system. If such a realistic budget increase is 
not possible, then the Vision's timetable should be stretched. In fact 
originally the Vision was said to have no timetable. Most of the 
current dislocations in the Vision's Constellation program are being 
driven by arbitrary dates having only political objectives. There is no 
national security or economic driver that requires its current 
timetable.
    ``Save Our Science'' has become a rallying cry for The Planetary 
Society--we submitted thousands of petitions to Congress last year, and 
thousands more to the President this year, from citizens asking to 
restore the science funding that was cut from the NASA plan. 
Intellectually, science and exploration are inextricably linked, but 
the ``firewall'' that once helped protect science needs to be restored.
    We fully recognize that space science is not an entitlement program 
and that it can proceed at a slower pace. Our call to restore the 
scientific underpinnings to the Vision and to NASA's budget is not a 
statement of special interest for scientists. Too often, NASA is forced 
to make decisions in order to bolster one or another part of its work 
force because of some special interest. Our call is dominated by the 
public interest and by public support for the great ventures of space 
exploration--the ventures that for the past decade brought such 
extraordinary credit and support for NASA in the U.S. and around the 
world.
    Consider just three examples: the remarkable, continuing three-year 
odyssey of the Spirit and Opportunity rovers on Mars; the complementary 
discoveries about water being made from spacecraft in orbit around 
Mars; and the thrilling international Cassini/Huygens mission in the 
Saturn system. The fantastic discoveries from these explorations--the 
watery history of Mars and the possibility of liquid water on its 
surface today; water geysers in the Saturnian system; and hydrocarbon 
lakes on Titan, to name a few--are only part of the rewards that the 
U.S. has accrued. The adventures of roving on Mars, probing Titan, and 
voyages through the solar system have enthralled the public, motivated 
a generation of students and their teachers, and have advanced American 
technology. And, of course, we should mention the Hubble Space 
Telescope and the Voyager probes. Their decades-long explorations have 
inspired generations of students to strive for excellence, and yet NASA 
was ready to abandon them both just a few years ago.
    The FY 2007 budget damaged the future of NASA. Science missions 
were delayed or canceled; technology funding was slashed, as was 
research funding--astrobiology, in particular. The slash in research 
and technology funding put at risk the ability to develop future 
missions and to adequately analyze data from existing ones; it will 
drive many young people from the field, thereby mortgaging the future 
of NASA science and exploration.
    Congress recognized these problems last year, the FY 2007 
Appropriations Bill passed by the House would have partially rectified 
these problems. The Senate was also working to correct the situation. 
But all that work was lost when no budget was passed last year. We 
urgently ask you to support restoration for some of the losses in NASA 
science, technology, and flight missions.
    There is one additional thing that you could do to help open the 
box in which NASA has been placed--the box defined by too much politics 
and not enough resources. That is international cooperation. Four 
nations, besides the U.S., are planning lunar missions: Japan and China 
this year, India next year, Russia soon afterwards. In fact, these 
countries are not just sending single lunar missions, but each has a 
lunar program with orbiters to be followed by landers and rovers. 
Europe is also planning lunar missions as part of its Aurora 
exploration program. For the U.S. to plan a lunar base completely 
independent of these missions is not just wasteful, it lacks rationale. 
It lacks vision.
    The Planetary Society has called for an International Lunar Decade 
in which the space-faring nations of the world can cooperate to advance 
their exploration objectives, and in which the developing world can 
share in the benefits of space science and exploration. The U.S. could 
return to its original Vision for Space Exploration, looking forward to 
Mars. We have already landed humans on the Moon. We can work with other 
nations as they now reach for the Moon, and in that way, build a 
rationale that serves more than just a space program, but global 
cooperation as well.
    This statement has focused on exploration, the goal enunciated in 
the Vision for Space Exploration to extend human presence into the 
solar system. More specifically, we have focused on the planets. That 
isn't too surprising--we are after all, The Planetary Society. However, 
we were founded on the premise that one of the chief goals of planetary 
exploration is to learn about ourselves, and about our own planet. The 
very first observations and models of global climate change came from 
planetary missions to Venus, and then later, to Mars. The most basic 
scientific work of our co-founders Carl Sagan and Bruce Murray was 
about comparative planetology, studying other worlds to understand the 
processes at work on our own planet. Never in our history has 
understanding the Earth been so important. Congress should, along with 
addressing all other science concerns, restore the programs and 
missions in NASA to observe the Earth.
    This past year, NASA dropped ``understanding the Earth'' from its 
mission statement. The Planetary Society picked it up, and added it to 
our own mission statement.\1\ But we cannot pick up the budget for the 
planetary and Earth science that has been cut from the NASA budget. 
Congress must do that. We urge Congress to help NASA achieve the goals 
articulated in the Vision for Space Exploration, for the benefit of our 
future, and our children's future. Save our future; Save Our Science.
---------------------------------------------------------------------------
    \1\ To inspire the people of Earth to explore other worlds, 
understand our own, and seek life elsewhere.

                     Statement of J. Craig Wheeler
                President, American Astronomical Society
    I appreciate the opportunity to comment on NASA's 2008 science 
budget from my perspective as President of the American Astronomical 
Society (AAS).

    The AAS believes that NASA's Science Mission Directorate (SMD) 
should be part of the American Innovation Agenda, which seeks to 
bolster funding for the National Science Foundation (NSF), the 
Department of Energy's (DOE) Office of Science, and the National 
Institute for Standards and Technology (NIST). These agencies have been 
identified as vital to America's leadership in innovation, by training 
a highly-skilled workforce and fostering the discovery and development 
of new ideas. NASA Science is a partner in these endeavors. 
Specifically, we advocate for increasing NASA SMD's FY 2008 budget to 
$5.566 billion, which is six percent over the final FY 2007 amount and 
a modest increase over the President's FY 2008 request.

    The AAS is the major organization of professional astronomers in 
the United States. The basic objective of the AAS is to promote the 
advancement of astronomy and closely related branches of science. The 
membership, numbering approximately 7000, includes physicists, 
mathematicians, geologists, and engineers whose interests lie within 
the broad spectrum of modern astronomy. AAS members advise NASA on 
scientific priorities, participate in NASA missions, and use the data 
from NASA's outstanding scientific discoveries to build a coherent 
picture for the origin and evolution of the Earth, the solar system, 
our Galaxy, and the Universe as a whole.
    In the recent past, the astronomical community, working together 
with NASA, has produced a remarkable string of successes that have 
changed our basic picture of the Universe. Observations with the Hubble 
Space Telescope (HST) of exploding stars whose light has been traveling 
for half the age of the Universe, combined with the exquisite map of 
the glow from the Big Bang itself from the Wilkinson Microwave 
Anisotropy Probe and information from other observatories, shows that 
the Universe we live in is not the Universe we see. Mysterious Dark 
Matter makes the ordinary particles clump together to form stars and 
galaxies. Even more mysterious Dark Energy makes the expansion of the 
Universe speed up. Both of these concepts challenge our understanding 
of the nature of matter and energy in the Universe and open up broad 
new vistas for future work. An ambitious set of Great Observatories, 
now including Spitzer in the infrared and Chandra at X-ray wavelengths, 
is hard at work, enriching our understanding of how the Universe works.
    Similarly, exploration of the solar system has been a resounding 
success for NASA, with exciting missions to Mars and to Saturn 
revealing a beautiful and intricate history that is interwoven with the 
history of our planet Earth. The discovery of planets around other 
stars has been a great triumph of the past decade, raising hopes for 
seeing planets like our own Earth, and placing our own solar system, 
and life itself, in a new context.
    NASA's key role in these discoveries makes its science program of 
deep interest to AAS members. In the past, NASA has worked with the 
astronomical community to find the most promising paths forward. The 
James Webb Space Telescope (JWST) is a large program that was endorsed 
by the National Academy of Sciences (NAS) Decadal Survey in astronomy. 
When completed in the next decade, it will help expand the frontier of 
knowledge to the deepest reaches of space and time and into the hidden 
places where stars and planets are formed. The astronomical community 
also recommended, and NASA plans to execute, a wide range of other 
programs--some of moderate scope and others that nourish the 
infrastructure for a healthy and vibrant community. This balanced 
approach has proved best--with a range of opportunities carefully 
crafted to get the best science from NASA's Science budget.
    Recognizing the current challenging budget climate, in which 
federal non-security, discretionary spending is declining by about one 
percent, the current NASA budget for science is nonetheless cause for 
concern. The continuing resolution (CR), now Public Law 110-005, 
provided funding for many federal agencies including NASA for FY 2007. 
NASA Science has suffered a $78.8 million shortfall from the 
President's FY 2007 request. The President's FY 2008 budget request 
represents a 0.9 percent increase in NASA Science spending over the FY 
2007 request; however, with inflation currently around two percent, the 
FY 2008 request still represents a decline in real dollars available 
for research in science compared to the President's FY 2007 request. A 
key question is what will become the new baseline for NASA Science 
funding, the FY 2007 request or the CR. If the CR is adopted as the new 
baseline, this could represent a loss to NASA Science in the outyears 
of $1 billion or more.

    The AAS therefore recommends that Congress increase the FY 2008 
budget for NASA Science by six percent over the CR level. This modest 
increase over the President's FY 2008 request will help maintain 
balance within the science portfolio, which is critical to our 
community. It is important to support small missions and research 
grants to individual investigators. Otherwise, many exciting programs 
to explore the solar system, to detect planets around other stars, to 
measure gravitational waves from astronomical events, to explore black 
holes in all their manifestations, and to seek the nature of the dark 
energy may be threatened. In particular, we advocate for restoring 
funding to the Explorer program and protecting the Beyond Einstein 
mission.

    We further advocate that NASA Science should be part of the 
American innovation agenda. Maintaining and strengthening American 
innovation in science and technology has broad bipartisan support, both 
in Congress and the Administration. Our recommended increase of six 
percent in NASA Science is smaller than the increases proposed for the 
science component of other agencies identified as strategically 
important for innovation. These include an 8.7 percent increase for 
NSF, a 16 percent increase for Department of Energy's Office of 
Science, and nearly 21 percent for NIST (all increases over the CR 
levels). For AAS members, the cuts in NASA's support for science 
threaten to offset or overwhelm the increases that have been aimed at 
improving America's innovation through the NSF, DOE, and NIST. A real 
effort to improve science and engineering in the U.S. should treat 
NASA's science program as part of the solution. NASA's science missions 
inspire new generations of young people to pursue careers in science, 
engineering, and mathematics and train these students and young 
scientists to become the innovators of the future.
    Finally, the AAS applauds the Administration and Congress for 
upholding the priorities of the NAS Decadal Survey in astronomy. We are 
pleased that the development of JWST and HST servicing mission are 
priorities in the new budget, but we stress that balance is critical in 
the Science portfolio.
    NASA Science has been and continues to be a beacon of innovation 
and discovery by inspiring generations of young people, capturing the 
imagination of the public, developing new technologies, and discovering 
profound insights into the nature of our Universe.
    The AAS and its members are prepared to work with Congress and with 
NASA to help find the best way forward. We will give you our best 
advice and we will work diligently to make the most of NASA's 
investment in science.

    Chairman Udall. I would like to acknowledge the presence of 
Eddie Bernice Johnson, Congresswoman Johnson. She is a Member 
of the Full Committee, and she is here today with us. Also, I 
would like to acknowledge, Dr. Stern, with your forbearance, an 
esteemed and highly accomplished American, Dr. John Mather, who 
is a winner of the Nobel Prize and the new NASA chief 
scientist, so Dr. Mather, we are honored to have you here as 
well.
    At this time, I would like to introduce our panel of 
witnesses, and I will go across and introduce each one of you, 
and then we will come back and start with Dr. Stern.
    As I mentioned earlier, we have a constituent, a friend of 
mine, Dr. Alan Stern, who in addition to serving as the 
principal investigator on NASA's New Horizons mission to Pluto, 
has now become the new Associate Administrator of NASA's 
science mission directorate.
    Next to him is Dr. Lennard Fisk, who is the Thomas M. 
Donahue distinguished Professor of Space Science at the 
University of Michigan, currently serving as the Chairman of 
the National Research Council Space Studies Board.
    Next to him is Dr. Garth Illingworth, who is a Professor of 
Astronomy and Astrophysics at the University of California, 
Santa Cruz, and is the Chair of the Astronomy and Astrophysics 
Advisory Committee.
    Dr. Daniel Baker, who I mentioned earlier, is Professor of 
Astrophysical and Planetary Sciences and Director for the 
Laboratory for Atmospheric and Space Physics, fondly known as 
LASP, and it is located in my home district at the University 
of Colorado, Boulder.
    Finally, we have Dr. Joseph Burns who is the Irving Porter 
Church Professor of Engineering and Professor of Astronomy, and 
currently serves as Vice Provost for Physical Sciences and 
Engineering at Cornell.
    Again, welcome to all of you. We really are appreciative of 
you taking time today.
    You will each, as I think you know, have five minutes for 
your opening remarks, and after which the Members of the 
Subcommittee or Members of the Full Committee, as it may be, 
will have five minutes to ask questions.
    Dr. Stern, the floor is yours. Welcome.

 STATEMENT OF DR. S. ALAN STERN, ASSOCIATE ADMINISTRATOR, NASA 
                  SCIENCE MISSION DIRECTORATE

    Dr. Stern. Thank you. Good morning, Chairman Udall, Ranking 
Member Calvert, Congresswoman Johnson. I appreciate the 
opportunity to appear before you today.
    I am excited and humbled by the task I assumed four weeks 
ago, leading NASA's Space Science Mission Directorate, the 
world's premiere space and Earth science effort, without doubt.
    The President's budget for NASA fiscal year 2008 provides 
$5.4 billion for science in that year alone. This allows us to 
operate a fleet of 52 orbital and interplanetary missions while 
simultaneously developing another 41 new missions for launch 
over the next seven years. That is an impressive total, 93 
space missions in development or flight.
    Within this budget, we also support a modest sub-orbital 
research program, and more than 3,000 scientist-led research 
projects across the entire spectrum of Earth and space 
sciences.
    More complete details of NASA's fiscal year 2008 science 
budget request are included in my written testimony, but you 
asked me to comment on how I see my role at NASA, and I want to 
turn heads while I am here. I want to produce landmark 
scientific achievements and to make my Directorate and its 
various projects run more efficiently and stay within their 
cost boundaries. I see this as a requirement for my being an 
agent for change.
    I want to highlight two examples of change that have 
already taken place since I began work at NASA four weeks ago. 
The first is the establishment of an Office of Chief Scientist, 
or OCS. This office will provide an independent technical 
analysis and advice regarding scientific matters within our 
portfolio, particularly on issues of prioritization within and 
between each of the four scientific disciplines. As I said, we 
opened this office on my first day at NASA, and it is a signal 
of our renewed commitment to scientific excellence. OCS is led 
by one of the most impressive and experienced space scientists 
in the United States, cosmologist and 2006 Nobel Laureate Dr. 
John Mather from NASA's Goddard Space Flight Center. John is 
with us here today, and he is ably supported by two deputies, 
one for Earth sciences and one for the space sciences.
    I have also created a position called a senior advisor for 
research analysis within the leadership of the Directorate, and 
I have appointed Dr. Yvonne Pendleton to that position. She is 
also here just behind me. Yvonne? Dr. Pendleton was formerly 
the Space Science and Astrobiology Division Chief at NASA's 
Ames Research Center where she set an outstanding record about 
science program management and achievement. Dr. Pendleton is 
charged with guiding our research and analysis program and 
making recommendations for ways that we can both improve the 
processes and the content of our core research and analysis 
effort. This really is a core part of our entire science. Never 
before has NASA's scientific leadership included a position 
focused solely on improving our research and analysis programs.
    Now, let me turn to the four specific questions you asked 
of me. The first question asked about my top goals, I have 
three, and they are first, to make stronger progress at all 
four of the Decadal surveys. Secondly, to get more from our 
existing and planned budget, and third, to help the Division 
for Space Exploration succeed.
    Your second question concerning the top three management 
risks as I see them, these are the cost of launches to space 
for science missions, cost growth in science mission 
development, and the sometimes immature cost realism and the 
resulting unrealistic expectations that have been set by some 
recent Decadal surveys.
    Your third question concerned how we will prioritize and 
balance our objectives across the portfolio. The answer is that 
we must balance with four considerations: science impact, 
affordability, development risk, and technological readiness. I 
have chartered Chief Scientist Mather to make a fair and 
deterministic process that takes these four factors into 
account to balance our priorities within each portfolio element 
and between the four portfolios.
    The final question concerns strategic investments that I 
would like to make. These will be in three areas: research and 
analysis, data analysis from space flight missions, and sub-
orbital programs. To say a little bit more specifically, I want 
to make scientists more efficient and productive and increase 
the funding to research and analysis so we can better achieve 
our research objectives. Regarding data analysis, an increase 
in data analysis would provide the taxpayers and decision-
makers like yourself with an enhanced value for the investments 
that we make in the missions to actually get the goods out at 
the other end, to the analysis and make the discoveries after 
the data is collected.
    Finally, regarding sub-orbital programs, using rockets and 
high altitude balloons, I intend to provide opportunities to 
train space scientists in the art of space flight, to bridge 
the 2010 to 2012 desert in orbital and planetary mission 
launches, and to provide opportunities for technology 
development and demonstration through this sub-orbital program.
    I will close now by thanking you again for inviting me, and 
I look forward to answering your questions and working with you 
in the future.
    [The prepared statement of Dr. Stern follows:]
                  Prepared Statement of S. Alan Stern
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today as the new Associate Administrator for 
NASA's Science Mission Directorate (SMD). The four weeks I have spent 
on the job at NASA Headquarters have been personally rewarding, and I 
look forward to continuing that experience in appearing before the 
Subcommittee today to discuss NASA's plans for the future of SMD's 
space--and Earth--science portfolio, as represented in the President's 
FY 2008 budget request for NASA, and to highlight my vision for this 
organization. I appreciate this opportunity to address your questions 
and concerns.
    First, permit me to note that although my scientific background and 
expertise is in astrophysics and planetary science, I serve as the 
Associate Administrator for all four of our Earth and space science 
disciplines, and that I look forward to learning more about Earth 
Science and Heliophysics in order to further advance these important 
programs in SMD's science portfolio.
    The President's Vision for Space Exploration calls upon NASA to 
conduct robotic and human exploration of the Moon, Mars and other 
destinations, to conduct robotic exploration across the solar system, 
and to conduct advanced telescope searches for Earth-like planets 
around other stars. Other Presidential directives and legislative 
mandates instruct NASA to conduct Earth observation and scientific 
research and to explore the origin and destiny of the universe. With 
enactment of the NASA Authorization Act of 2005 (P.L. 109-155), the 
Congress provided a fresh legislative mandate for this charge, calling 
for a balanced program of science, exploration, and aeronautics.
    I am committed to implementing this direction, and bringing to NASA 
and the Congress the best possible slate of programs and program 
success within the significant resources already available. This 
includes programs synergistic with NASA's Exploration Systems Mission 
Directorate and also research that both enables, and is enabled by, 
human exploration plans for the Moon and Mars. I am an enthusiastic 
advocate of human exploration and believe that a strong science program 
associated with this exploration is important to maximizing the 
benefits to the Nation of such human exploration.

Vision for SMD

    Before I outline the recent scientific achievements of NASA's space 
science program and the President's request to further advance that 
program in FY 2008, I would like to share with the Subcommittee several 
guiding principles I am instilling in SMD, as well as an important 
change to the way matters of scientific prioritization are analyzed and 
debated within SMD.
    Below are my three guiding principles for SMD, each is extremely 
important and of equal priority:

        1.  To make strong progress advancing the priorities of all 
        four decadal surveys\1\, for example by increasing our 
        international collaboration efforts;
---------------------------------------------------------------------------
    \1\ The term ``decadal survey'' refers to a regular series of 
reports conducted by the National Research Council of the National 
Academies on behalf of NASA and its partner agencies. Each of SMD's 
science disciplines has its own decadal survey, representing community 
consensus in each field. These surveys assess proposed activities and 
recommend investment priorities over a ten-year timeframe.

        2.  To get more from our existing and planned budgets, for 
        example by better managing flight missions and by ensuring that 
        data analysis from missions is sufficiently funded to ``get the 
---------------------------------------------------------------------------
        promised goods out;'' and

        3.  To help the Vision for Space Exploration succeed, for 
        example by fostering a lunar science community.

    As stated above, I also have made an important change to the way 
matters of scientific prioritization are analyzed and debated within 
SMD. That change is both to our processes and to our senior leadership 
in SMD. On my first day with NASA, one month ago today, I established a 
new office, the Office of the Chief Scientist (OCS), reporting directly 
to me as the Associate Administrator for SMD. The primary function of 
this new office is to provide independent technical analysis and advice 
regarding scientific matters in the SMD portfolio. In particular, this 
includes issues of prioritization both within, and between, each of the 
four scientific disciplines in SMD's portfolio. Previously, no strong, 
formal, independent advice function was in place. To ensure the highest 
quality of advice, I asked cosmologist and Nobel Laureate Dr. John 
Mather to lead this effort as the SMD Chief Scientist, and he has 
accepted. John is ably supported by two deputy Chief Scientists, one 
for the Earth Sciences and one for the Space Sciences. I believe Dr. 
Mather and his team, coupled with the strong role they are chartered to 
play in mission prioritization, selection, and science management 
decisions, will produce increasing benefits as we go forward.

Scientific Achievements

    Now I will turn to some of the recent scientific achievements of 
NASA's science program.
    I am proud to be leading a world-class effort that consistently 
returns historic scientific results. This past year alone was truly 
remarkable for scientific discovery about our Earth, the Sun, our solar 
system, and the universe. This is exemplified in part by the fact that 
NASA alone was responsible for 11 percent of Science News magazine's 
top stories--covering all fields of science--for 2006; this is an all-
time record in the 34 years that this metric has been tracked.
    Important findings resulting from our program ranged from new 
observations of familiar phenomena like the ozone hole, hurricanes, and 
rainfall, to the discovery of lakes of organic hydrocarbons on Saturn's 
planet-sized moon Titan, to the identification of new classes of 
planetary abodes across our galaxy, to the study of the Sun's magnetic 
field, showing it to be more turbulent and dynamic than previously 
expected.
    As these and other results about our world and the universe pour 
in, NASA also continues to develop and launch our next generation of 
missions, and to support a vigorous scientific community via research 
and data analysis funding. In total, I note, NASA currently is 
developing or flying a total of 93 space and Earth science missions--
far more than all of the other space agencies of the world combined. 
NASA also supports over 3,000 separate space and Earth science research 
investigations in our Research and Analysis programs, spending 
approximately $600 million annually on scientific data analysis, 
modeling, and theory across the four disciplines of Earth and space 
science spanned by SMD.
    I intend for SMD to continue to turn heads across the world by 
developing space missions and supporting scientific research that 
rewrites textbooks in all of our science disciplines.
    At present, NASA is operating 52 space and Earth science missions 
and, simultaneously, developing 41 new flight missions. These new 
missions range from modest Principal Investigator-led efforts like the 
Interstellar Boundary Explorer (IBEX) currently planned for launch in 
2008 and the Phoenix Mars lander about to launch this summer, to the 
flagship NASA space science missions like the James Webb Space 
Telescope (JWST) mission in development for launch in 2013.
    In 2006, NASA launched four new science and technology 
demonstration missions: New Horizons, Solar Terrestrial Relations 
Observatories (STEREO), CloudSat, and Space Technology (ST)-5. We also 
partnered with other Federal and international agencies to launch five 
other science and technology missions: Cloud-Aerosol Lidar and Infrared 
Pathfinder Satellite Observations (CALIPSO), Two Wide-Angle Imaging 
Neutral-Atom Spectrometers (TWINS)-A, Hinode (Solar-B), ST-6, and the 
NOAA GOES-N satellite. Below Is more detail on this impressive list of 
newly launched missions.
    In January 2006, NASA launched the New Horizons mission to the 
planet Pluto and the ancient Kuiper Belt in which it orbits. New 
Horizons, the fastest spacecraft ever launched, will begin its 
reconnaissance of these bodies eight years hence, in 2015, following a 
three billion-plus mile crossing of our planetary system. I am very 
proud to have been since its inception, and to continue to be, the 
Principal Investigator of this mission. Just 13 months after launch, 
this February, New Horizons flew by Jupiter, making important new 
observations of a wide variety of exotic phenomena in the Jupiter 
system, including, for example, the eruption of the gargantuan Tvashtar 
volcano on Jupiter's moon, Io.
    Following on the launch of New Horizons with the April 2006 launch 
of the CloudSat and CALIPSO spacecraft, NASA added two important assets 
to the ``A-train'' of satellites flying in close proximity polar orbits 
around the Earth to gain a better understanding of key factors related 
to climate change.
    NASA has also been very active this past year launching new 
heliophysics missions. The agency collaborated on the Japanese 
Aerospace Exploration Agency's new Hinode (Solar-B) mission, which was 
successfully launched in September 2006. Early results have already 
provided new insight on solar magnetic processes operating in the Sun's 
atmosphere.
    Then in October 2006, NASA's twin STEREO spacecraft were launched 
to help researchers construct the first-ever three-dimensional views of 
the Sun's atmosphere. This new view will improve our abilities in space 
weather forecasting and greatly advance the ability of scientists to 
understand solar physics, which, in turn, enables us to better protect 
humans living and working in space.
    Already this year, on February 17, we launched all five THEMIS 
(Time History of Events and Macroscale Interactions during Substorms) 
microsatellites on a single rocket to study the genesis of Earth's 
aurora. On April 25, the Aeronomy of Ice in the Mesosphere (AIM) 
mission was launched to study ice clouds in the polar regions of 
Earth's upper atmosphere. We also remain on track to launch both the 
Dawn mission to explore fascinating and important Ceres and Vesta in 
the main belt of asteroids between Mars and Jupiter, and also the 
Phoenix Mars lander by late this summer.
    From across the solar system, NASA's spacecraft have provided 
startling new insights into the formation and evolution of the planets. 
Images from the Mars Global Surveyor have revealed recent deposits in 
gullies on Mars, evidence that suggests water may have flowed in these 
locations within the last several years. The Mars Reconnaissance 
Orbiter, which began its primary science phase in November 2006, has 
not only taken extraordinary high resolution images of Mars at 
resolutions greater than any other mission to-date, but has taken 
incredible images of Opportunity and Spirit on the surface, and helped 
the Phoenix lander find a safe landing area. From its orbit around 
Saturn, the Cassini spacecraft recently found unexpected evidence of 
liquid water geysers erupting from near-surface water reservoirs on 
Saturn's moon, Enceladus.
    Additionally, the Wilkinson Microwave Anisotropy Probe (WMAP) 
Explorer mission was able to gather new information about the first 
second after the universe formed, while the Chandra X-ray Observatory 
provided new and strong evidence of dark matter, and the Hubble Space 
Telescope identified 16 candidate planets orbiting other stars near the 
center of our galaxy.
    In late October 2006, NASA Administrator Mike Griffin announced 
plans for a fifth and final Space Shuttle servicing mission to the 
Hubble Space Telescope (HST) to extend and dramatically improve its 
capabilities for the future. The repaired and revitalized HST will 
boast two new major scientific instruments with capabilities that will 
make it 10 times more powerful than the HST we have today.
    In Earth Science, researchers are using Tropical Rainfall Measuring 
Mission (TRMM) data to provide a complete picture of low-latitude 
precipitation and storms around the entire world; in 2006, researchers 
used eight years of continuous data from the TRMM lightning Imaging 
Sensor to identify the regions on Earth that typically experience the 
most intense thunderstorms.
    Using instruments flying closer to Earth, NASA investigators flew 
29 separate scientific instruments to 60,000 foot altitudes aboard 
NASA's WB-57F Canberra aircraft in the Costa Rica Aura Validation 
Experiment (CAVE). These airborne measurements, coupled with 
measurements from the orbiting Aura spacecraft, shed light on how 
ozone-destroying chemicals get into the stratosphere over the tropics 
and how high-altitude clouds affect the flow of water vapor--a powerful 
greenhouse gas--in this critical region of the atmosphere.
    Additionally, scientists using nearly a decade of global ocean 
satellite data were able to demonstrate a strong relationship between 
warming climate and a decline in the microscopic marine plant life 
(phytoplankton) at the base of the marine ecosystem.
    Examples of important successes in our data analysis programs are 
also diverse. Astronomers combining data from the Hubble Space 
Telescope with data from ground-based and other space-based telescopes 
have created the first three-dimensional map of the large-scale 
distribution of dark matter in the universe. NASA researchers also 
found organic materials that formed in the most distant regions of the 
early solar system preserved in a unique meteorite that fell over 
Canada in 2000. And, using a network of small automated telescopes, 
astronomers have discovered a planet orbiting in a binary star system, 
showing that planet formation very likely occurs in most star systems. 
In our home solar system, scientists predicted that the next solar 
activity cycle will be 30-50 percent stronger than the previous one and 
up to a year late. Accurately predicting the Sun's cycles will help 
plan for the effects of solar storms and help protect future 
astronauts. And a breakthrough ``solar climate'' forecast was made with 
a combination of computer simulation and groundbreaking observations of 
the solar interior from space using the NASA/ESA Solar and Heliospheric 
Observatory (SOHO).
    The list of achievements resulting from NASA's space and Earth 
science portfolio is much longer than these examples alone. I am 
excited to tell you that lack of time here today rather than lack of 
results, causes me to have to move on from this topic to discuss the 
President's FY 2008 budget request for space science.

Highlights of the Science Mission Directorate's FY 2008 Budget Request

    NASA's FY 2008 budget request for the Agency's science portfolio is 
$5.5 billion. This represents an increase of $49.3 million (or one 
percent) over the FY 2007 request, adjusted for NASA's new, simplified 
full cost accounting system. It will enable NASA to launch or partner 
on 10 new missions, operate and provide ground support for more than 50 
spacecraft, and fund a wide array of scientific research related to and 
based on the data returned from these missions.
    The Planetary Science budget request of $1.4 billion will advance 
scientific knowledge of the solar system, search for evidence of 
extraterrestrial life, and prepare for human exploration of the Moon 
and Mars. NASA will get an early start on Lunar science when the 
Discovery Program's Moon Mineralogy Mapper (M3) launches aboard India's 
Chandrayaan-1 mission in March 2008. Also aboard this mission will be 
Mini-RF, a technology demonstration payload, supported by NASA's 
Exploration Systems and Space Operations Mission Directorates which may 
glean evidence for water in the Moon's polar regions. In support of 
expanded opportunities for pursuing lunar science, the President's 
request includes $351 million from FY 2008-2012 for a Lunar Science 
Research budget line within the Planetary Science Division. The Science 
Mission Directorate is already hard at work creating synergy with the 
programs of the Exploration Systems Mission Directorate. After the 
Lunar Reconnaissance Orbiter completes its prime mission for the 
Exploration Systems Mission Directorate, the Science Mission 
Directorate plans to fund extended mission operations through this 
budget line in order to maximize scientific return from the spacecraft. 
In addition, the new Lunar Science Research Initiative includes 
Missions of Opportunity, technology development, data archiving, and 
expanded basic lunar research. The Discovery and New Frontiers programs 
also provide opportunities for the science community to propose 
missions to accomplish lunar science investigations, and one such 
mission is under study. We have tasked the National Research Council 
(NRC) to conduct a study on the scientific context for the exploration 
of the Moon. Their preliminary report is in hand, and their final 
report is due this summer. That report will help us mature our lunar 
science plans in the months ahead. We have also begun similar 
coordinating steps for Mars, where SMD already has a mature and robust 
program of scientific exploration.
    The FY 2008 budget also supports the Mars Exploration Program by 
operating five spacecraft at Mars, flying the Phoenix lander, scheduled 
for launch in August 2007, and continuing to develop the Mars Science 
Laboratory for a launch scheduled in 2009. The Discovery Program's Dawn 
Mission dual asteroid orbiter will be operating en route to the 
asteroid belt, and the Mercury Surface, Space Environment, Geochemistry 
and Ranging (MESSENGER) spacecraft will make its first flyby of 
Mercury. Last year, three Discovery mission proposals and three 
Discovery Missions of Opportunity were selected for Phase A studies 
which will culminate late this year in new mission and instrument 
selections. The Discovery Program plans to again invite proposals for 
additional new missions in 2008. Additionally, the New Frontiers 
Program's Juno Mission will undergo both a Preliminary Design Review 
and a Non-Advocate Review in FY 2008 in preparation for entering 
development towards a 2011 launch to study Jupiter's interior, aurora, 
and magnetosphere. Like Discovery, the New Frontiers Program plans to 
release a new Announcement of Opportunity (AO) in 2008.
    The Heliophysics budget request of $1.1 billion will support 14 
operational missions and six missions in development to better 
characterize and understand the Sun and its effects on Earth, the solar 
system, and space environmental conditions that will be experienced by 
astronauts, and to demonstrate technologies that can improve future 
operational systems. Additionally, during FY 2008, the Explorer Program 
will launch both the Interstellar Boundary Explorer (IBEX) mission, 
focused on the detection of the very edge of our solar system's 
heliosphere and the Coupled Ion-Neutral Dynamics Investigation (CINDI) 
Mission of Opportunity. The Solar Dynamics Observatory (SDO) to study 
the Sun's magnetic field is also scheduled for launch in late 2008 or 
early 2009. The Geospace Radiation Belt Storm Probes (RBSP) mission, 
presently in formulation, will undergo a Preliminary Design Review and 
a Non-Advocate Review in FY 2008 in preparation for entering 
development in early FY 2009. RBSP will improve the understanding of 
how solar storms interact with Earth's Van Allen radiation belts. We 
remain on track to release the next Explorer Announcement of 
Opportunity in very early FY 2008 and we hope to select three new 
astrophysics and heliophysics missions, as well as one or more Missions 
of Opportunity, as a result of that call for proposals.
    The Astrophysics budget request of $1.6 billion will support 
continued operation and data analysis from NASA's orbital astronomical 
observatories, including the Hubble Space Telescope (HST), Chandra X-
Ray Observatory, and the Spitzer Space Telescope, and to build more 
powerful instruments to peer deeper into the cosmos. HST is scheduled 
for a final servicing mission in August 2008 using the Space Shuttle. 
Along with repairs and service life extension efforts, two new 
instruments will be installed during the servicing mission that will 
dramatically extend HST's performance and enable further discoveries, 
including Wide Field Camera 3 (WFC3), which will re-enable some science 
observations that have been affected by the recent failure of the 
Advanced Camera for Surveys. After the servicing mission, HST is 
planned to have six fully operational instruments (including a suite of 
cameras and spectrographs that will have about 10 times the capability 
of older instruments) as well as other new hardware planned to support 
another five years of world-class space science. Additionally, the 
Gamma-ray Large Area Space Telescope (GLAST) will launch in FY 2008 to 
begin a five-year mission mapping the gamma-ray sky and investigating 
gamma-ray bursts, and the Kepler mission development will be near 
completion in preparation for launch in FY 2009, to determine the 
frequency of Earth-like planets. Further, the James Webb Space 
Telescope astrophysics flagship mission will undergo its Preliminary 
Design Review and a Non-Advocate Review in FY 2008, in preparation for 
entering hardware development.
    As the Subcommittee is aware, the SOFIA airborne observatory, which 
we have been developing with the German Aerospace Research Center (DLR) 
has been reinstated. I am pleased to report that SOFIA had its first 
functional check-out flight last week; it is scheduled to undergo an 
ambitious program of flight testing that begins this year and will 
continue in 2008. Though we know of no technical showstoppers in regard 
to the airworthiness of the aircraft or operation of the telescope, 
this program has some remaining hurdles to overcome and so remains 
subject to a careful management review later this spring chaired by the 
NASA Associate Administrator. The SOFIA program baseline will be 
finalized at that time.
    Also in our Astrophysics program, ESA's Herschel and Planck 
missions are planned for launch in FY 2008; both of these missions 
include important contributions and scientific participation from NASA.
    While the focus of this hearing is on space science, I would also 
like to briefly address the FY 2008 President's Budget request for 
Earth Science. The Earth Science budget request is $1.5 billion, an 
increase of $27.7 million over the FY 2007 request, to better 
understand the Earth's atmosphere, lithosphere, hydrosphere, 
cryosphere, and biosphere as a single connected system. This request 
includes additional funding for the Global Precipitation Measurement 
(GPM) mission in response to the high priority placed on GPM in the 
National Research Council (NRC) Decadal Survey. As the follow-on to the 
highly successful Tropical Rainfall Measuring Mission, GPM's Core 
satellite is planned for launch no later than 2013, followed by a 
Constellation spacecraft the following year. Other satellites in the 
GPM constellation will be provided by NASA's international partners or 
domestic operational partners. The Earth Science budget also includes 
increased funding for the Landsat Data Continuity Mission and for the 
Glory mission, and provides funds for the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Preparatory Project 
(NPP) to reflect instrument availability and launch delays. Funds are 
requested for continued development and implementation of the Ocean 
Surface Topography Mission to launch in 2008, the Aquarius mission to 
measure the ocean's surface salinity to launch in 2009, and the 
Orbiting Carbon Observatory mission planned for launch in 2008. NASA 
will continue to be the largest contributor to the Administration's 
Climate Change Science Program by collecting global data sets and 
improving predictive capabilities that will enable advanced assessments 
of the nature, causes, and consequences of global climate change. Over 
the coming months, NASA will evaluate strategies for implementing the 
recommendations of the National Research Council's Earth Science 
Decadal Survey and responding to challenges to the continuity of 
climate measurements resulting from the Nunn-McCurdy recertification of 
the NPOESS program. By working together, NASA and NOAA have already 
been able to initiate the restoration of one of the de-manifested 
sensors to (the Ozone Mapping and Profiling Suite limb instrument) to 
the NPP satellite, which will help continue the record of high vertical 
resolution ozone profile measurements into the next decade. I am 
personally committed to continuing and continually improving the 
working relationship between NASA and NOAA, and met with NOAA 
executives on my first week in office to transmit this message.

Looking Forward

    With that overview of the FY 2008 budget request as a backdrop, I 
turn now to addressing the specific questions raised in the letter of 
invitation to this hearing. The Subcommittee's first question concerns 
my goals for SMD over the next five years.
    I view my role as the Associate Administrator for SMD as being an 
agent for change, to make SMD work better and more efficiently, and to 
turn heads by producing landmark scientific accomplishments. With that 
in mind, as outlined earlier in my testimony, I have three goals for 
the organization that I want to share with you today. The first is to 
make strong progress advancing all four decadal surveys, which we will 
attack as vigorously as possible, for example by increasing our 
international collaboration efforts. The second is to get more science 
accomplished from our budget. I believe that by looking for ways to 
increase efficiency within our organization, and within the way we 
manage missions, we can make new funding available within the 
President's budget that will enable us to do significantly more. My 
third objective is to help ensure that the Vision for Space Exploration 
is successful by increasing the scientific yield it will produce. There 
are many ways that SMD and the scientific community will help support 
the Vision, such as through a robust lunar science research program. By 
providing increased opportunities to conduct lunar science, I believe 
that we can grow a strong lunar community, just as the Mars community 
increased once regular flight opportunities were made available in the 
mid-1990s.
    The Subcommittee's second question concerns SMD's top three 
programmatic risks. The first is the rising cost of launches to space. 
The Delta-II launch vehicle has been the reliable workhorse for 
launching science missions to Earth orbit or in the inner planets 
neighborhood across SMD disciplines. However, the supplier of that 
launcher is getting out of the Delta-II business in favor of larger and 
more expensive Evolved Expendable Launch Vehicles (EELVs). NASA's Space 
Operations Mission Directorate (SOMD) acquires launch services for SMD, 
and we are working with SOMD on their assessment of options for the 
future. These options include: design of the future medium-class 
mission set to fit either larger or smaller ELVs; planning to co-
manifest more missions to optimize the use of larger ELVs, and working 
with SOMD to qualify new and as yet unproven alternate launch vehicles 
to be offered by new entrants into the market. A second risk area is 
cost and schedule growth as SMD pursues its challenging flight 
missions. At both the Agency and SMD level, we are putting in place 
better cost-estimating tools and capturing lessons learned from recent 
missions. We are also carefully examining the readiness of new 
technologies before we confirm missions that use them, and we are 
introducing new experience-based standards for the selection of 
Principal Investigators. This ties into the third risk, which is 
uncertainty in mission development risk. SMD will work harder to 
understand and reduce risks, rather than waiting for problems to appear 
when missions are deep in development when cost impacts are most 
severe. I note that these kinds of emphasis on good management will be 
key to getting more from our budget so that future missions are not 
delayed or canceled to pay for problems on existing mission 
developments.
    The Subcommittee's third question concerns prioritization and 
balance. NASA's approach to setting the balance of investment among 
science areas is based on the following considerations: science value, 
mission affordability, mission risk, and mission readiness. The SMD 
makes a commitment to progress on each of the four SMD-assigned science 
objectives in the 2006 NASA Strategic Plan and each of the four decadal 
surveys produced for us by the National Academy. Long-term outcomes are 
science-based, not solely mission-based; thus sub-orbital and research 
and analysis (R&A) programs are also part of this. We assess progress 
against community roadmaps laid out for each science area. The pace of 
progress can be influenced by ties to other NASA and Federal programs, 
e.g., the U.S. Climate Change Science Program and NPOESS in the case of 
Earth Science, and human exploration time lines in the case of the Mars 
Exploration Program. Many science objectives can be accomplished using 
a mix of small, medium and large missions, international collaboration, 
and innovative missions of opportunity; others require large missions 
that are more difficult to initiate. NASA begins in each science area 
with the priorities defined in decadal surveys of the NRC, then 
generally sponsors science community-led teams to develop `roadmaps' to 
plan implementation of survey research and mission priorities. We then 
pass these through the filter of budget availability to set final 
priorities that are affordable and at an appropriate stage of 
technological readiness and risk reduction. Within each science area, 
the challenge is to find the proper balance among large, medium and 
small missions, research and analysis in all its forms, data analysis, 
and technology development. At the Directorate level, as I previously 
highlighted, I have charted an Office of the Chief Scientist and 
appointed Dr. John Mather to lead that office in making recommendations 
for the best way to balance priorities with in and among each of our 
four portfolio areas.
    The Subcommittee's fourth question concerns strategic investments 
in space and Earth science I would like to make as the Associate 
Administrator. I must preface by noting that my analysis of the SMD 
portfolio is not yet complete and that there are many areas that likely 
warrant attention or refocus; I address a few here. I believe that, 
within the SMD five-year budget profile put forward in the President's 
FY 2008 request, SMD can make modest investments in three key areas 
that will yield profound and lasting improvements to our bottom line 
that will increase in our understanding of the Earth, the Sun, the 
solar system, and the Universe. The first area in which I would invest 
is Research and Analysis (R&A). This investment would, in part, focus 
on process improvements to make scientists more efficient and 
productive; it would also seek new research funding initiatives offered 
to members of the scientific community. I have appointed a Senior 
Advisor for R&A, Dr. Yvonne Pendleton, to oversee SMD's efforts in this 
area and to make recommendations for ways we can improve R&A processes 
and program content. Dr. Pendleton will work closely with Dr. Mather 
and the office of Chief Scientist in this regard. The second investment 
I hope to make is in mission data analysis, so that the taxpayer gets 
the best value for the investment we make in science missions. Too 
often, data analysis efforts are curtailed as a result of rising 
mission development and operations costs. This problem will be 
addressed beginning this year. The third area in which I would invest 
is our Sub-orbital programs. Sub-orbital flight using rockets and 
balloons, as well as aircraft, provide opportunities to train new space 
scientists in the art of space flight, to bridge the 2010 to 2012 gap 
in orbital and planetary mission launches, and to produce some exciting 
science as well. I would also like to see sub-orbital opportunities 
expanded. Again, I believe it is possible to make progress within the 
SMD five-year budget profile put forward in the FY 2008 President's 
request.

Conclusion

    In summary, let me say that the President's FY 2008 budget request 
funds an exciting, productive, and balanced portfolio of Space and 
Earth science missions, and presents a program that will yield even 
better results than formerly anticipated though increased efficiencies. 
This exciting program of research is described in the Science Plan for 
NASA's Science Mission Directorate (2007-2016), recently submitted to 
this Subcommittee as directed in the NASA Authorization Act of 2005 
(P.L. 109-155). I look forward to working with this Subcommittee to 
implement this Plan, as well as my plans to help shape SMD for the 
years to come. I would be happy to respond to any questions the 
Subcommittee may have regarding SMD, SMD's portfolio, and the exciting 
scientific results NASA Is achieving.

                      Biography for S. Alan Stern
    Dr. S. Alan Stern is the Associate Administrator for NASA's Science 
Mission Directorate.
    He directs a wide variety of research and scientific exploration 
programs for Earth studies, space weather, the solar system and the 
universe beyond. In addition, he manages a broad spectrum of grant-
based research programs and spacecraft projects to study Earth and the 
universe.
    Stern is a planetary scientist and an author who has published more 
than 175 technical papers and 40 popular articles. His research has 
focused on studies of our solar system's Kuiper belt and Oort cloud, 
comets, satellites of the outer planets, Pluto and the search for 
evidence of solar systems around other stars. He has worked on 
spacecraft rendezvous theory, terrestrial polar mesospheric clouds, 
galactic astrophysics and studies of tenuous satellite atmospheres, 
including the atmosphere of the Moon.
    Stern has had a long association with NASA, serving on the NASA 
Advisory Council and as the principal investigator on a number of 
planetary and lunar missions, including the New Horizons Pluto-Kuiper 
Belt mission. He was the principal investigator of the Southwest 
Ultraviolet Imaging System, which flew on two Space Shuttle missions, 
STS85 in 1997 and STS-93 in 1999.
    He has been a guest observer on numerous NASA satellite 
observatories, including the International Ultraviolet Explorer, the 
Hubble Space Telescope, the International Infrared Observer and the 
Extreme Ultraviolet Observer.
    Stern joined NASA in April 2007 from the Southwest Research 
Institute's Space Science and Engineering Division, Boulder, Colo., 
where he had served as Executive Director of the Space Science and 
Engineering Division.
    He holds Bachelor's degrees in physics and astronomy and Master's 
degrees in aerospace engineering and planetary atmospheres from the 
University of Texas, Austin. In 1989, Stern earned a doctorate in 
astrophysics and planetary science from the University of Colorado at 
Boulder.
    He is an instrument-rated commercial pilot and flight instructor, 
with both powered and sailplane ratings. Stern and his wife have three 
children.

    Chairman Udall. Thank you, Dr. Stern.
    Dr. Fisk.

 STATEMENT OF DR. LENNARD A. FISK, CHAIR, SPACE STUDIES BOARD, 
                   NATIONAL RESEARCH COUNCIL

    Dr. Fisk. Thank you very much, Mr. Chairman and Members of 
the Subcommittee. Thank you for inviting me here to testify.
    I was asked to testify on the top three goals for NASA's 
Space Science Mission Directorate, SMD, top three programmatic 
risks, the top three investments that should be made, and also 
to comment on the balance among the various science themes 
within SMD.
    As you well know, within the last few years, there has been 
dramatic changes in the funding that has been provided to SMD. 
Some $3 billion to $4 billion was removed from the run out 
budget, primarily to pay for the cost of the return-to-flight 
of the Shuttle and the completion of the International Space 
Station. There is, as was noted in opening statements, there is 
no way to remove that much money from the budget without 
causing disruptions in ongoing programs and distortion to the 
balance among programs, and this is the context in which these 
strategic goals and risks and investments required for SMD 
should be evaluated.
    The first strategic goal for SMD might be stated get back 
the money that was lost. A more constructive way to make that 
statement would be to note, as again was made in the opening 
statements, how inadequate NASA as an agency is currently 
funded. It is being asked to do too much with too little, and 
as a result, all components of the Agency, including science, 
are sub-optimally funded. We should all make it a strategic 
goal to provide NASA with the funding that is required.
    The risk to SMD for inadequate funding is simply that it 
can't perform its assigned tasks. The charge to SMD is to 
explore the universe, lay down the foundation of knowledge 
required for the human expansion into space. It is to determine 
the future of the Earth so that we can make sound policy 
decisions, and it is to contribute to the capability of the 
United States to compete in the world, whether it is through 
knowledge, new technology or new workforce. The funding for SMD 
is currently inadequate to perform these tasks.
    The investment required is the same investment the Nation 
is prepared to make in the American Competitiveness Initiative. 
It is difficult, in fact, it is impossible in my judgment to 
distinguish between the fundamental science being conducted by 
the NSF and the DOE Office of Science, and the fundamental 
science that is being conducted by SMD. Those agencies, of 
course, saw increases--major increases in support through ACI.
    The first strategic goal--excuse me, the second strategic 
goal for SMD is to make more cost effective use of the funds 
that have been provided to it. There is a disturbing upward 
trend in the cost of flight missions, particularly--and I would 
like to focus on the moderate and small flight missions. The 
cost of launch vehicles has increased, the cost of management 
oversight has increased. Whatever the reason, it should be a 
strategic goal to get the maximum science for the minimum 
funding. There will be investments required to achieve this 
goal, whether it is in new launch vehicles, new technology, or 
new management practices.
    Finally, if the funds for SMD can be provided, if the 
missions can be executed more cost effectively, or preferably 
both, the third strategic goal should be to use these funds to 
rebalance the program. When the funding for the out years in 
SMD was reduced, the large flight programs under development 
were protected. It is the future that has been sacrificed. 
Missions still in technology development were halted. The 
pipeline that is essential to the development of technology of 
human capital, the research and analysis program, the sounding 
rocket program, small flight missions, they are the ones that 
were seriously disrupted. The portfolio of activities in SMD 
needs to be rebalanced so that we can compete--complete what we 
have begun while at the same time recognizing that the 
investments that we need make now, whether it is in people or 
it is in technology in the planning of future flight missions, 
will determine the vibrancy and the success of the scientific 
exploration utilization of space in the decades ahead.
    The final question that was asked was the balance among 
science disciplines at SMD, and I included all four in 
answering these questions, astrophysics, planetary science, 
heliophysics, and Earth science. Each has an important task to 
perform and each has need of more funding, more cost effective 
use of its funding, a rebalance program, and the investments 
required to achieve these goals as we talk.
    In the case of Earth science, however, no amount of 
efficiencies, no internal rebalance within the discipline, no 
modest investment will provide the resources necessary. There 
is not adequate funding in Earth science in NASA to accomplish 
the goals that have been assigned to it, which is to use the 
global vantage point of space to provide information on the 
immediate future of Earth.
    This is not a rebalancing question. It is in the sense that 
Earth science should grow at the expense of other science 
disciplines, nor should it grow at the expense of other 
programs within NASA. All of NASA's programs are currently 
inadequately funded and all have a role to play in the national 
priorities. Rather, it is time for a new initiative to pursue a 
vigorous Earth science program.
    Thank you.
    [The prepared statement of Dr. Fisk follows:]
                 Prepared Statement of Lennard A. Fisk
    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me here to testify today. My name is Lennard Fisk and I am the Thomas 
M. Donahue Distinguished University Professor of Space Science at the 
University of Michigan. I also served from 1987 to 1993 as the NASA 
Associate Administrator for Space Science and Applications. I appear 
here today in my capacity as the Chair of the National Research Council 
(NRC) Space Studies Board. The views I share with you today, however, 
are my own and not necessarily those of the NRC.
    You have asked me to testify on the top three goals for NASA's 
Science Mission Directorate (SMD); the top three programmatic risks 
facing SMD; the top three strategic investments that should be made in 
SMD; and also to comment on the balance among the various science 
themes within SMD. The first three items are of course interrelated. 
The goals in part should be to eliminate the major risks, and identify 
the strategic investments needed to do so. I will thus answer these 
three questions as an interrelated set. I will then comment on the 
balance among NASA's space science disciplines.
    Before considering the questions, I would like to comment on the 
recent history of SMD, since this context determines the goals, the 
risks, and the investments required. Throughout much of the history of 
the space program, space and Earth science in NASA was considered to be 
a fixed fraction of the NASA budget. In the mid-1990s, however, that 
rule was discarded, and the budget for space and Earth science was 
allowed to grow at the same rate as non-defense discretionary spending. 
Human space flight was not permitted this growth, and so the budget for 
space and Earth science became an increasingly larger fraction of the 
overall NASA budget. Whether deliberate or accidental, the result was 
that science in NASA was considered to be part of the Nation's 
investments in science, not simply as a fixed part of the investments 
in space. This rapid growth in science, however, was not uniform. The 
traditional space science disciplines--astrophysics, planetary 
sciences, and heliophysics--did very well. However, even in these times 
of growth in science funding, Earth science was kept at a constant 
budget, and then in FY2000 it began a steep decline in funding.
    With the advent of the Vision for Exploration in FY 2005, to extend 
human presence first to the Moon and then beyond, dramatic changes have 
occurred in the funding for SMD. Initially, the overall funding for 
space and Earth science, taken together, was projected to do well. Some 
disciplines, favored in the Vision, did very well, in some cases at the 
expense of other disciplines; but summed together, the funding for 
space and Earth science continued to increase. However, it became 
increasingly obvious that NASA was not being provided with the funds 
required to execute the Vision; return the Shuttle to flight, and 
complete and use the International Space Station; maintain a healthy 
science program; and support its other missions such as aeronautics 
research. And so the squeeze was on. One by one, the funding for the 
various missions that NASA is responsible for have been reduced to a 
sub-optimum and, in some cases, critically inadequate funding level.
    In the case of the funding for SMD, some $3 billion was removed 
from the runout budget primarily to pay for the cost of the return to 
flight of the Shuttle and the completion of the International Space 
Station. There is no way to remove that much money from a budget 
without causing disruptions in ongoing programs and distortions in the 
balance among programs. Ongoing major flight programs, well into 
development, have priority; new flight programs--the future of the 
program--are seriously delayed or in effect canceled. Small flight 
missions and basic research support--for technology development, the 
training of students, theory, data analysis, and new mission planning--
all become vulnerable when there is a sudden and unanticipated change 
in the expected growth in funding.
    To understand the inadequacies in the SMD budget, we need to 
consider how science is conducted. Science is about making 
discoveries--they can be profound discoveries that alter the concepts 
we hold of our place in the cosmos, or they can be minor discoveries 
that reveal some new aspect of a previously studied process. 
Discoveries lead to insight, insight to knowledge, and in some cases 
knowledge yields immediate applications that benefit society. Knowledge 
almost always benefits society in the long run.
    A measure, then, of the health of a science discipline is the pace 
at which discoveries are being made. Similarly, the prospects for the 
future of a science discipline can be measured by whether there are any 
factors that limit the pace of discovery.
    Space and Earth science is primarily an observational science. Our 
discoveries thus come from observations. In each of the disciplines in 
space and Earth science there are, in fact, extraordinary opportunities 
to make discoveries. Technology is advancing to where more detailed and 
revealing observations can be made. And our understanding of prior 
observations has improved to where we can search intelligently for new 
knowledge.
    Given that abundant discoveries await us, if we are only bold 
enough to make the observations, the primary determinant of a bright 
future for space and Earth science is the rate at which we make new 
observations; that is, the rate of new space missions. And here the 
trends are very disturbing. For each of the disciplines in SMD there is 
a sobering downward trend in missions and thus opportunities for 
discovery. In the mid-1990s there was an average of seven launches per 
year for missions in space and Earth science. In the last few years, 
the rate is more like five per year. In 2010-2012, the rate is 
projected to be under two per year.
    There are some disciplines for which the downward trend in 
opportunities for discovery is clearly unacceptable. In Earth science, 
society is demanding to know the consequences of global climate change 
in order to plan our future. In the other disciplines of space science, 
it is a grating waste of the Nation's capabilities to reduce our pace 
of discovery. We have painstakingly built the infrastructure to make 
the Nation foremost in the scientific exploration of space. To allow it 
to atrophy borders on neglect.
    There is another consequence of the inadequacies of the SMD budget, 
and that is the vitality of our disciplines. The issue for space and 
Earth science is how do we ensure the infusion of new and better 
observing techniques, new minds, new ideas that challenge the 
established concepts? It is in fact very difficult to ensure the 
infusion of revolutionary technologies and concepts in budgets that are 
not growing. Rather, there needs to be new investments.
    There is a need to maintain or, better yet, optimize the pace of 
discovery. There is a need to maintain the quality and vibrancy of the 
NASA science program through the introduction of revolutionary 
technologies and concepts. Both requirements demand a budget for space 
and Earth science that is growing. I remind you that the projected 
budget for space and Earth science in NASA grows at only one percent 
per year, which is a declining budget when inflation is included. There 
needs instead to be real growth.

Strategic Goals, Risks, and Investments for the Science Mission 
                    Directorate

    The first strategic goal of the Science Mission Directorate (SMD) 
might well be stated--get back the money that was lost. A more 
constructive way to make this statement would be to note how 
inadequately NASA as an agency is currently funded. The Agency is being 
asked to do too much with too little, and as a result all components of 
the Agency, including science, are sub-optimally funded. We all need to 
recognize that without major relief to the total funding for NASA this 
nation does not have a viable space program capable of meeting the 
broad national needs that have been assigned to it. And we should all 
make it a strategic goal to provide NASA with the funding that is 
required.
    The risk to SMD from inadequate funding is that it cannot perform 
its assigned tasks. The charge to the space and Earth science program 
in NASA is to explore the universe and lay down the foundational 
knowledge for the human expansion into space. It is to determine the 
future of the Earth, so sound policy decisions can be made to protect 
the future of our civilization. It is to contribute to the capability 
of the United States to compete in the world, whether it is through new 
knowledge, new technology, or a new workforce. The funding for space 
and Earth science in NASA, particularly the growth in funding in the 
years ahead is inadequate to perform this job, and failure to address 
this problem is a fundamental risk to the success of SMD in being able 
to fulfill its obligations to the scientific excellence of the Nation.
    The investment required in SMD is the same investment that the 
Nation is prepared to make in the American Competitiveness Initiative. 
ACI has resulted in increases in funding for programs in fundamental 
science in, e.g., the National Science Foundation and the Office of 
Science in the Department of Energy. These programs were among only a 
few that saw increases beyond their FY 2006 budget level in the enacted 
FY 2007 budget. It is difficult, in fact, impossible, to distinguish 
between the fundamental science conducted by NASA in SMD and the 
fundamental science conducted by the NSF or the DOE Office of Science. 
It is interesting to note that had the funding for SMD been allowed to 
increase in the same proportion as the NSF it would have followed the 
pattern of growth it had enjoyed in the late 1990s and the early 2000s, 
and would have provided funding that was better able to support the 
needs of the space and Earth science program.
    The second strategic goal is for SMD to make more cost-effective 
use of the funds that have been provided to it. There is a disturbing 
upward trend in the cost of flight missions. The problem seems to be 
most egregious in the case of moderate and small flight missions. We 
seem unable to execute a mission of comparable complexity today for 
anywhere near the cost that was required in the previous decade. The 
cost of launch vehicles has increased. The cost of management oversight 
is increasing. We take actions that are perceived to reduce risk, but 
may not be cost effective. Whatever the reason, it should be a 
strategic goal to get the maximum science for the minimum funding, and, 
in my judgment, the most likely place to realize cost savings is in the 
execution of moderate and small flight missions.
    There is a risk to SMD should it fail to improve the cost-
effectiveness with which it executes moderate and small flight 
missions. Under any circumstance, funding will be limited. We need to 
get the maximum science for the minimum available funding, if for no 
other reason than to introduce flexibility into the SMD budget to fund 
new missions and needed investments.
    Investments are required to achieve the strategic goal of improving 
the cost-effectiveness of small and moderate missions. Investments may 
be required in new launch vehicles so that the cost of access to space 
is reduced, particularly with the planned retirement of the Delta-II 
launch vehicle. Investments will be required in innovative management 
procedures and new technologies. There needs to be a concerted effort 
made to make full use of the best of the Nation's vast infrastructure 
to conduct cost-effective space missions. We have great talent in this 
country for space hardware. We need to ensure that we are using this 
talent properly; that our processes ensure good engineering solutions 
and not simply someone's perceived reduction in risk.
    If new funds for SMD can be provided, if missions can be executed 
more cost-effectively, or preferably both, the third strategic goal 
should be to use the funds realized to rebalance the program. When the 
funding in the out-years for SMD was reduced, the large flight programs 
under development were protected. It is the future that has been 
sacrificed. Missions still in technology development were halted. The 
pipeline that is essential to the development of technology and human 
capital--the Research and Analysis programs, sounding rockets, small 
flight missions--have been seriously disrupted. The portfolio of 
activities in SMD needs to be rebalanced so that we complete what we 
have begun, while at the same time we recognize that the scientific 
exploration and utilization of space is a long-term effort that will 
extend into the indefinite future. The investments that we make now, in 
people, in technology, in balloons and sounding rockets, in small 
flight missions, in the planning for future flight missions, will 
determine the vibrancy and the success of the scientific exploration 
and utilization of space in the decades ahead.
    The risk of failing to meet the strategic goal of rebalancing the 
SMD program is, in my judgment, the most serious risk. The pipeline of 
human capital and technology has been disrupted, and the future of the 
space and Earth science program is at risk. Consider a case in point. 
Almost every experimental space scientist currently practicing learned 
his/her trade in the sounding rocket or balloon programs. Yet with 
recent budget cuts, these programs are unable to perform this task. 
Small flight missions are the next step in the natural evolution of 
experimental capabilities, whether it is the development of new 
technology or the development of experienced scientists and engineers. 
And yet with recent budget cuts, the flight rate of small missions has 
been diminished compared to its previous rate.
    It follows, then, given the importance of rebalancing the SMD 
program to protect the future of space and Earth science, that an 
investment that ensures a proper pipeline in human capital and 
technology will have the highest return. Research & Analysis funding, 
sounding rockets and balloons, and small flight missions all need to be 
restored to their proper place in the SMD program.

The Balance Among the Science Disciplines in the Science Mission 
                    Directorate

    Each of the science disciplines in SMD--astrophysics, planetary 
sciences, heliophysics, and Earth science--has important tasks to 
perform, ranging from providing fundamental knowledge of the universe, 
to, in the case of Earth science, providing knowledge that is a direct 
and immediate benefit to society. Each of the disciplines has need of 
more funding, more cost-effective use of its funding, a rebalanced 
program, and the investments required to achieve these goals, as we 
discussed above.
    In the case of Earth science, however, no amount of efficiencies, 
no internal rebalance within the discipline, no modest investment will 
provide the resources necessary. There is not adequate funding for 
Earth science in NASA to accomplish the mission that it has been 
assigned--to use the global vantage point of space to provide 
information on the immediate future of Earth, on which we can base 
sound policy decisions to protect our future. This deficiency is the 
result of a downward trend in the funding for Earth science that has 
persisted for a decade, and which has been in serious decline since FY 
2000. The recent NRC decadal survey for Earth science outlined the 
measurements and flight missions that NASA needs to accomplish, to 
provide society with the knowledge that is required. And the survey 
pointed out that these measurements can be made only if the Earth 
science budget, over the next several years, is increased back to at 
least the level of funding that was available in FY 2000, an 
approximately $500 million increase over the current budget.
    This is not a rebalancing question, in the sense that Earth science 
should grow at the expense of other science disciplines. Nor should it 
grow at the expense of other programs within NASA. All of NASA's 
programs are currently inadequately funded. And all have a role to play 
in the national priorities. Rather, it is time for a new initiative, a 
specific directed task to NASA, with requisite funding provided, to 
pursue a vigorous Earth science program, in which the required 
measurements on the future of Earth are all made.
    We need to consider NASA as an agency with many important tasks to 
perform. It is not just the Agency that is to return us to the Moon, 
and all else is a secondary priority. Space is integral to the fabric 
of our society. We depend on it in our daily lives; we protect our 
nation through our space assets; we use space to learn about our 
future; we enrich our society with knowledge of our place in the 
cosmos; we are moving our civilization into space; we expect the next 
generation of scientists and engineers to be versatile in the 
utilization and exploration of space. NASA has an essential role to 
play in each and every one of these national pursuits, and its role in 
each pursuit needs to be properly funded.
    Thank you very much.

                     Biography for Lennard A. Fisk
    Lennard A. Fisk is the Thomas M. Donahue Distinguished University 
Professor of Space Science at the University of Michigan, where from 
1993-2003 he was Chair of the Department of Atmospheric, Oceanic, and 
Space Sciences. Prior to joining the University in July 1993, Dr. Fisk 
was the Associate Administrator for Space Science and Applications of 
the National Aeronautics and Space Administration. In this position he 
was responsible for the planning and direction of all NASA programs 
concerned with space science and applications and for the institutional 
management of the Goddard Space Flight Center in Greenbelt, Maryland 
and the Jet Propulsion Laboratory in Pasadena, California.
    Prior to becoming Associate Administrator in April 1987, Dr. Fisk 
served as Vice President for Research and Financial Affairs and 
Professor of Physics at the University of New Hampshire. In his 
administrative position, he was responsible for overseeing the 
University's research activities and was the chief financial officer of 
the University. Dr. Fisk joined the faculty of the Department of 
Physics at the University of New Hampshire in 1977, and founded the 
Solar-Terrestrial Theory Group in 1980. He was an astrophysicist at the 
NASA Goddard Space Flight Center from 1971 to 1977, and a National 
Academy of Sciences Postdoctoral Research Fellow at Goddard from 1969 
to 1971.
    Dr. Fisk is the author of more than 185 publications on energetic 
particle and plasma phenomena in space. He is a Member of the National 
Academy of Sciences (NAS) and the International Academy of Astronautics 
(IAA); he is a Foreign Member of Academia Europaea and a Fellow of the 
American Geophysical Union. He currently serves as Chair of the NAS 
Space Studies Board; he is a co-founder of the Michigan Aerospace 
Corporation and a Director of the Orbital Sciences Corporation. He is 
the recipient of the NASA Distinguished Service Medal in 1992, the AIAA 
Space Science Award in 1994, and the IAA Basic Science Award in 1997.
    He is a graduate of Cornell University. In 1969, he received his 
doctorate degree in Applied Physics from the University of California, 
San Diego.

    Chairman Udall. Thank you, Dr. Fisk.
    Dr. Illingworth.

  STATEMENT OF DR. GARTH D. ILLINGWORTH, CHAIR, ASTRONOMY AND 
             ASTROPHYSICS ADVISORY COMMITTEE (AAAC)

    Dr. Illingworth. Thank you, Chairman Udall, Ranking Member 
Calvert, Members of the Committee and Subcommittee. Thank you 
for the opportunity to testify today on NASA's astrophysics 
program.
    I am the Chair of the Congressionally chartered committee, 
the Astronomy and Astrophysics Advisory Committee. This 
committee was established to assess and make recommendations 
regarding the coordination of the astronomy and astrophysics 
programs of NSF, NASA, and DOE, and to assess progress on the 
National Academy's Decadal Survey on Astronomy and 
Astrophysics. While we deal extensively with all three 
agencies, NASA has been a particular focus of our attention 
recently because of the contrast with NSF and DOE science. The 
decreasing budget in real terms for NASA science contrasts very 
substantially with ACI led growth in the other agencies, and 
this is very unfortunate, given that NASA's science missions 
play such a central role in scientific advances in the last two 
decades. NASA missions have dramatically changed our 
understanding of the universe, of our own solar system, and of 
our planet Earth. And so, NASA's science program has been an 
extraordinarily successful enterprise.
    As we look at the suite of missions that are now available 
to the science community, as Alan emphasized, we have a wide 
array of capabilities. For astrophysics, Hubble, Chandra, 
Spitzer are all returning remarkable data, while several 
medium-sized missions, GLAST, Kepler, WISE, will be launched 
over the next few years.
    Yet, this leadership in the scientific and technological 
arena with the visibility that it brings to our nation's 
technological and scientific achievements is clearly at risk in 
the coming years. The rate at which new missions are being 
launched drops dramatically in 2009, and continues at a low 
level for many years well into the foreseeable future.
    Furthermore, during the first part of the decade, the 
number of operating astrophysics missions, of course, will 
decease, such as current missions near the end of their life. 
The three great observatories will be replaced by one. JWST, of 
course, will be a remarkably powerful observatory, but it 
cannot encompass the full breadth of science areas that three 
great observatories do now, Chandra, Hubble, and Spitzer.
    SOFIA will become operational, and a possible small 
Explorer. These are the only new capabilities in the first part 
of the next decade. Furthermore, the decline in the 
astrophysics budget in real terms, by 25 percent starting 2009 
and throughout for several years after that, greatly reduces 
the opportunities for new missions following the next Decadal 
Survey report, which will be released in 2010.
    Though NASA has had extraordinary successes over its last 
decade from its challenging, ambitious science missions, it 
produced stunning science return. In 10 to 15 years, as we 
stand and look back, will we be able to make the same 
statement? I am concerned that we are on a track that will make 
it very difficult and will maybe preclude such a positive 
outlook at that time.
    The next question is how do we recover from this? More 
resources are clearly needed, but I would like to emphasize it 
is my view that it is neither wise nor productive to expect 
that they will come from NASA's human space flight program. No 
discussion of the budget challenges of the science of NASA can 
take place without acknowledging the challenges that face the 
Agency overall. It has become widely recognized that NASA is 
significantly underfunded to the mandate that it has been given 
to implement the Vision for Space Exploration. The lack of 
growth in the NASA budget is stressing all of the Agency's 
activities.
    AAAC is deeply concerned about the growing impact on the 
space and Earth science program, and strongly endorses efforts 
to increase NASA's budget to allow it to undertake the 
transformation and vision without imparting serious damage to 
the science program.
    The issues faced by NASA are so challenging that they 
really require broad consensus between the Administration and 
Congress on the Nation's goals for its space endeavors. I hope 
that some form of higher level discussion forum such as 
recently been proposed both in the House and the Senate does 
come to fruition and provides clear guidance for NASA and 
enhancement of its budgetary framework.
    I would like to comment, though, that in all conscience I 
cannot ask for additional resources for the science programs 
without commenting on the undercosting that has occurred over 
the last decades, in fact, in our programs. The cost growth in 
missions both moderate and large has been substantial and 
clearly indicates the need for better cost estimates for each 
of the project phases by both NASA and the Decadal Survey. We 
need to work together on this, and the need to use life cycle 
costs for planning and roadmapping instead of just construction 
costs.
    What counts, of course, is what we are going to be spending 
on a mission over the 10- to 20-year lifetime of that program, 
and not just what it takes to build a mission. When mentioning 
cost growth, JWST is the immediate program that comes to mind, 
but SIM and SOFIA are comparable examples. All of these 
programs have suffered huge growth with their budget over the 
numbers that were given in our Decadal Surveys. SIM and SOFIA 
were both $250 million missions in 1990. Both are now $3 
billion programs. JWST went from $1 billion to $4.5 billion. 
But this is not new. Chandra, the current mission we are flying 
in x-ray astronomy, was a $500 million mission in 1980 and when 
re-costed in current dollars, it is $3.4 billion. So we clearly 
do need to understand much more carefully and fully the 
programs that we are putting forward.
    So it is really clear that we need to develop reliable and 
robust life cycle cost estimates. I think it is to the credit 
of both NASA and the community that there is recognition of 
this and much more open discussion of these issues, and it is 
my view that we will do better, but it will take significant 
effort.
    I would just like to note on a couple of the questions that 
came from the Chairman, since I am running out of time on this, 
was that I would like to note the three risks that were 
mentioned in the question, and they, in my view, are the lack 
of small and medium missions beyond 2009; the inability to 
respond to the 2010 Decadal Survey, I think we will do a very 
serious effort of putting forward an incredibly vibrant science 
program that is much more realistically costed, but it would be 
tragic if we, in fact, were not in a position to respond to 
that; and the current lack of technology development and 
mission development funding is a serious concern as well, 
because this obviously impacts mission cost and readiness. And 
the three strategic investments that I would make would be R&A 
funding--I think there is unity on the importance of this 
across the community and probably amongst the speakers here; 
technology development for missions; and the importance of 
competed cost-capped missions at the small and medium level as 
well.
    So in closing, I would like to emphasize the remarkable 
productivity of the current program, but the dramatic changes--
and not for the better, unfortunately, lie ahead if we continue 
with the budget of this declining substantially in real terms.
    Thank you again for the opportunity to testify. I am happy 
to respond further.
    [The prepared statement of Dr. Illingworth follows:]
               Prepared Statement of Garth D. Illingworth
    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me to testify. I am a Professor and Astronomer at the University of 
California, Santa Cruz and the University of California Observatories/
Lick Observatory. I am the Chair of the Congressionally-chartered FACA 
committee, the Astronomy and Astrophysics Advisory Committee (AAAC). 
This committee was established to assess and make recommendations 
regarding the coordination of astronomy and astrophysics programs of 
NSF, NASA and DOE and progress on the National Academy National 
Research Council's (NRC) Astronomy and Astrophysics Decadal reports. As 
required by the enabling legislation, the AAAC generates an Annual 
Report in March of each year (the 2007 AAAC report is at http://
www.nsf.gov/mps/ast/aaac.jsp). As Chair of the AAAC, the 
recommendations of that committee underpin this testimony.
    In addition to responding to the questions from the Chairman, I 
would also like to highlight some issues that were a concern of the 
AAAC and will increasingly impact science at NASA unless rectified. 
Arguably science is the crown jewel of NASA. The science missions give 
NASA great return through their frequent and exciting results that 
capture the imagination of the public. They are equally a frequent 
demonstration of our nation's scientific and technical capabilities. 
However, that jewel is becoming tarnished by the effective reductions 
in the NASA Science Mission Directorate (SMD) budget.

SCIENCE AT NASA AND THE CURRENT NASA BUDGET PROJECTIONS

    Science at NASA: NASA's science program has been an extraordinarily 
successful enterprise. The scientific productivity of its diverse suite 
of science missions has made many of them household names. Missions 
like the Hubble Space Telescope (HST), the Mars Rovers, the very 
successful Explorer missions like the Wilkinson Microwave Anisotropy 
Probe (WMAP), the remarkable outer planet images in our Solar System 
from Cassini-Huygens and Galileo, along with numerous other remarkable 
missions and projects, are a demonstration of U.S. technological 
leadership. NASA has shown time and time again that novel technology, 
driven by great science goals, can dramatically expand our horizons and 
bring exploration of the cosmos beyond our Earth within the reach of 
all. NASA's missions have dramatically changed our understanding of the 
universe--its origin, evolution and structure, the existence of massive 
black holes, when and how galaxies formed, and the birthplaces of star 
and planets--our solar system, and our home planet Earth. The value of 
these science missions is widely recognized for generating enthusiasm 
for science and engineering and for stimulating the interest of the 
Nation's youth.
    Yet this leadership in the scientific and technological arena--with 
the visibility that it brings to U.S. technological and scientific 
achievements--is clearly at risk in the coming years. The breadth and 
balance within NASA's science program is a major factor in this 
visibility. The substantial budget changes envisaged for the coming 
five years are already having a major impact on the future science 
program. The resulting major restructuring of the long-term science 
program is a great concern to the science community and will, over 
time, significantly change NASA's perceived value to the Nation. NASA 
has had extraordinary successes over the last decade from its 
challenging, ambitious science missions, combined with continuing, 
broadly-based research support that produces stunning science return 
from a diverse portfolio of programs. In ten years as we look back, 
will we be able to make the same statement? There will be highlights, 
but will we feel that NASA's science program has had its golden era? I 
feel very strongly that we all do not want that to be the case, but if 
we are to explore our universe and our Earth through the unique 
capabilities that NASA brings, then we must step up to the plate and 
commit the resources needed.
    The problems that are visible in SMD flow not just from NASA trying 
to implement the Vision for Space Exploration, but also from the 
recovery from the loss of Columbia and major impacts such as Katrina. 
Science at NASA suffered a major hit when $3B was removed from SMD in 
the FY07 five-year projected budget request. The SMD budget is now down 
seven percent in inflation-adjusted FY06 dollars by 2012 in the FY08 
request, instead of growing as in the FY06 request. The reduced SMD 
budget stems from the overall problems of the NASA budget and it's 
disconnect with its current mandate. This is discussed further below, 
after the discussion of the role of NASA science in the American 
Competitiveness Initiative (ACI).

    Innovation, Competitiveness, ACI and NASA: Research is essential to 
innovative activities and underpins a technologically-competitive 
society, as enunciated in the NRC report, Rising Above the Gathering 
Storm. The inclusion of ACI increases in the FY07 budget request for 
NSF, DOE Science and NIST was a very strong response to the challenges 
faced by the Nation in staying at the forefront of scientific and 
technological development. The continuation of the ACI in the FY08 
budget request demonstrated the Administration's commitment to building 
a robust R&D base in the physical sciences. Congressional support for 
NSF research and DOE science in the FY07 appropriation through the 
Joint Funding Resolution was a further key step in strengthening 
science and technology through the Congressional Innovation and 
Competitiveness effort. However, the exclusion of NASA science from the 
ACI contrasts with the inclusion of DOE science. There is no question 
that NASA is at the cutting-edge of science and technology research. 
This exciting and highly visible research contributes to the vitality 
of the national skill set and has encouraged young people to move into 
science and engineering. The Congressional interest in Innovation and 
Competitiveness enables a fresh opportunity for enhancing NASA science. 
The AAAC in its Annual Report strongly encourages Congress to consider 
enhancing the support for science at NASA explicitly to improve 
innovation and competitiveness, as has been done for NSF and DOE 
science.

    Funding for NASA for the Vision for Exploration: Before discussing 
the science program further I would like to comment on the overall 
context in which the NASA science budget is developed. It has become 
widely recognized that NASA is significantly underfunded for the 
mandate that it has been given to implement the Vision for Space 
Exploration. No discussion of the budget challenges for science at NASA 
can take place without acknowledgement of the challenges that face the 
Agency overall. The challenges of transitioning within the current NASA 
budget to a new generation of space capabilities in the framework of 
the Exploration Vision, with no new funding, are obvious. NASA's 
overall budget has remained essentially unchanged through the last 
three budget requests. Yet in that timeframe the real costs of the 
transition to a new human space flight structure have been recognized. 
As a result, the balance among the needs of Space Shuttle (STS) 
operations and ramp-down, International Space Station (ISS) completion 
and operation, Exploration Systems development and a robust Space and 
Earth Science program has come under great strain. I recognize the 
support that the Administrator has to transition the Agency from being 
driven by the vestiges of its past program--one that was devised in the 
1970s--into a new, forward-looking set of objectives. Broadly I support 
the goals of transitioning the human space flight program into a new 
set of capabilities. A nation as technically-advanced as ours, with 
such human, technological and fiscal resources, should be able to 
explore beyond the Earth. Furthermore, these new capabilities will 
benefit science missions and scientific ``exploration.'' But to ask 
NASA to transition and develop these new capabilities, while 
undercutting its most innovative and productive component, its science 
program, is unwise. NASA needs more resources if it is to explore in a 
``feet on the ground'' sense through a human space flight program, and 
to explore our universe by unearthing its secrets through a vibrant 
science program.
    The AAAC hopes that Congress can work to rectify this problem, 
since the recent fiscal year requests have not provided the resources 
to enable NASA to carry out its mandate in the Vision. Adequate funding 
is critical over the next few years when NASA is trying to support 
Shuttle operations and ramp-down, completing the ISS, initiating new 
launch and transportation capability, and carrying out a comprehensive 
science program. Long-term impacts to both science and human space 
flight will accrue if the funding is not adequate during this period. 
The AAAC recognized the issues with its highest-priority recommendation 
in its Annual Report in the discussion re NASA: ``The lack of growth in 
the NASA budget to respond to the Exploration Vision is stressing all 
the Agency's activities. The AAAC is deeply concerned about the growing 
impact on the space and Earth science program.'' The AAAC was also 
concerned about the potential out-year impact of the reduced funding 
for NASA overall in the FY07 appropriation if this funding is used as a 
base for the FY08 appropriation. The science community appreciated that 
the FY07 Joint Resolution budget for NASA explicitly designated and 
made statutory only a small cut (1.5 percent) to science compared to 
the FY07 budget request level, but remains concerned that further cuts 
may arise if the FY07 base is used. The AAAC noted: ``The AAAC is 
concerned that the appropriation for FY08 and beyond may lead to a 
further cut by using the FY07 appropriation as the base for future 
budgets, and recommends that the FY08 request be the base to preclude 
added impacts on science at NASA.''
    The issues faced by NASA are so challenging that they really 
require broad consensus between the Administration and Congress on the 
Nation's goals for its space endeavors. I hope that some form of high 
level discussion forum, such as has been recently proposed both in the 
House and Senate comes to fruition, and provides clear guidance for 
NASA and enhancement of its budgetary framework.

    Astrophysics--an overview: If one takes a near-term view, and looks 
forward with a horizon around 2009-2010, the mission mix in 
Astrophysics looks fairly good. Over the next 5 or so years 
Astrophysics will have a reasonably well-balanced program, i.e., one 
with a mix of small, medium and large missions in operation covering a 
diverse range of scientific areas. The launch of a mid-size mission, 
the Gamma Ray Large Area Space Telescope (GLAST--in late 2007), a 
Discovery mission Kepler (in 2008), an Explorer mission, the Wide-Field 
Infrared Survey Explorer (WISE--in 2009), and participation in two 
powerful European Space Agency (ESA) missions Herschel and Planck 
(2008-9) strengthens the program. Astrophysics is operating three Great 
Observatories, Chandra, Hubble and Spitzer, and providing significant 
funding for data analysis for those missions. The next Hubble Servicing 
Mission (SM4) and the instrument upgrades will rejuvenate Hubble. The 
Stratospheric Observatory for Far-Infrared Astronomy (SOFIA) is moving 
towards its first science demonstration in 2010 and full science 
operation in 2013. NASA is progressing on an extremely powerful Great 
Observatory-class mission, the James Webb Space Telescope (JWST). NASA 
is also planning for a possible Beyond Einstein mission that would 
begin to be funded for development in the same time frame (though its 
launch would not be until the middle of the decade or beyond). These 
elements of the program are consistent with community-developed 
strategic plans such as the National Academy Astronomy and Astrophysics 
Decadal Survey.
    So why is the astronomy and astrophysics community so concerned? 
And why is this concern reflected so strongly in the AAAC annual 
reports, and the reports and discussions of the NASA Advisory Council 
(NAC) Astrophysics Science Subcommittee, and the NRC committees (Space 
Studies Board--SSB; Board on Physics and Astronomy--BPA, Committee on 
Astronomy and Astrophysics--CAA)? First, the cuts that have occurred in 
the Research and Analysis (R&A) funds are a very serious issue for the 
community. R&A funds support theory and modeling, training of students 
and postdocs, and development of new technologies, and so are of great 
future value to NASA as well as the community. Second, it is when we 
look up from the immediate future and look down the road that we see 
that the new mission pipeline is strikingly empty beyond 2009. This is 
a major issue. This can be seen in the Figure below. The next few years 
look good because we are benefiting from the achievements of the past 
decade, or even longer. The missions from the 1990s and early 2000s are 
operating or coming to fruition--but the dearth of new small and medium 
missions initiated in the last few years is reflected in the next 
decade. SOFIA does not come into full science operations until 2013. 
JWST, when it launches in 2013, will be an amazing observatory, as 
dramatic in its way as Hubble was in 1993 (when its optics were 
corrected), or when the Hubble Advanced Camera was installed in 2002. 
In contrast to these major programs there is nothing else in the years 
2010-2014, except for a possible Small Explorer (SMEX) in Astrophysics 
in 2014 (from the recent SMEX announcement of opportunity--AO).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    How limited the options are for Astrophysics can be seen in the 
Table below. In real terms the Astrophysics Division suffers a 
precipitous decline in FY09 (down by 23 percent in constant dollars 
relative to 2006) that worsens in the outyears. Even though a number of 
important and productive missions will be operating into the next 
decade, the long lag between inception and launch will lead to a period 
with far fewer operating missions by the middle of the next decade, 
unless this budget trend is reversed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Need for better cost estimates and the use of ``life cycle'' 
costing: I have emphasized the impact of the projected budget decreases 
for the science program at NASA, with particular emphasis on the 
situation in Astrophysics. But I think we all recognize that there is 
another aspect that has impacted our ability to plan ahead--and that is 
the unrealistic and incomplete costs estimates that have been used in 
the past for science projects by NASA and the community. The AAAC has 
strongly encouraged the adoption of a consistent and common approach to 
mission costing by the community and NASA, and advocated that the 
baseline be ``life cycle'' costs (from conceptual development through 
the end of operations--from pre-Phase A through Phase E). Doing so 
would eliminate some of the uncertainty that has surrounded cost 
numbers in community discussions and lead to more realistic costs. In 
addition, better cost estimation is needed for the Phases, utilizing 
independent cost estimates as a cross-check. The transition to full-
cost accounting at the NASA Centers also is resulting in more realistic 
cost estimates for missions.
    The Decadal Survey recommendations are typically implemented over 
10-15 years. This is therefore the timeframe over which we should be 
costing our missions if we are to match our recommended mission suite 
to likely budgets. The full costs of JWST, the Space Interferometry 
Mission (SIM), and SOFIA over that 10-15 year timeframe were not 
appreciated because the costs used for planning in the Decadal Survey 
and elsewhere were typically construction or Phase C/D costs (and also 
were not subject to an independent cost study). This ``undercosting'' 
(to use the NASA Administrator's very appropriate word) has led to a 
gap between what we wanted to do and what we can do. Fortunately, both 
NASA and the astronomy community have recognized the problem that this 
approach has caused. We do not want to repeat this mistake and so ways 
to improve the mission and project budgets are under serious discussion 
for the next Decadal Survey.
    One important step in being more realistic about mission costs is 
to ensure that we understand the ``life cycle'' costs of our currently 
operating missions. These estimates have significant uncertainty, given 
the very different situations under which the missions were developed. 
Nonetheless, they will allow us all to compare new, current and old 
missions in a more uniform way. Some examples are (for life cycle costs 
in current dollars in a full-cost accounting environment, including 
design and technology, construction, launch and operations): HST: 
$7.5-9B (including SM4 plus five years of added operations); Chandra: 
$3.4B (15 years of operations); Spitzer: $1.3B (with operations 
through 2011); Cassini-Huygens: $3B (including ESA and DOE 
contributions); JWST: $4.5B (assuming 2013 launch and 10 years of 
operations); SIM: $3B (uncertain since launch date unclear--12 years 
of operations); SOFIA: $3.4B (with 20 years of operations).
    The Decadal Survey numbers were traditionally ``construction'' 
costs. These were typically under-estimated and this, in combination 
with the change to life cycle costs, led to some dramatic increases. 
JWST (2000 survey as NGST) has gone from $1B to $4.5B, but such cost 
growth is not rare. Chandra (1980 survey as AXAF) went from $500M to 
$3.4B. SOFIA (1990 survey) went from $230M to $3.4B. SIM (1990 survey 
as AIM) grew similarly $250M to $3B. Correcting for inflation changes 
the factors a little, but the growth is still very large. The examples 
of SIM and SOFIA, both of which were moderate-size $250M missions in 
the 1990 Survey, but which grew to be $3B programs life cycle, have 
made us aware of the challenges. JWST was a major surprise when it grew 
to $4.5B life cycle, but given that we now understand that, in current 
dollars, with full-cost accounting, Chandra is a $3.4B program and HST 
is over double that, the life cycle cost of JWST, while high, is not 
extraordinary compared to other major programs.
    The discrepancies clearly indicate the need for better cost 
estimates for each of the project Phases by both NASA and the Decadal 
Survey, and the use of life cycle costs for planning. Great cost detail 
is not necessary (nor is it possible), but knowing that JWST would be 
an $4B program life cycle instead of a $1B program, or that SIM and 
SOFIA would be $3B life cycle instead of $0.25B, would certainly help 
the development of a more robust Decadal Survey, and subsequent 
planning and roadmapping. It is already clear that developing reliable 
life cycle mission cost estimates is considered to be very important 
for the next Decadal Survey--both NASA and the community are learning 
from our previous mistakes.

Summary

    The key points from this discussion are:

        <bullet>  NASA's science program has been an extraordinarily 
        successful enterprise. NASA has shown time and time again that 
        novel technology, driven by great science goals, can 
        dramatically expand our horizons and bring exploration of the 
        cosmos beyond our Earth within the reach of all.

        <bullet>  The exclusion of NASA science from the ACI contrasts 
        with the inclusion of DOE science; the AAAC encourages Congress 
        to consider enhancing the support for science at NASA 
        explicitly to encourage innovation and competitiveness, as has 
        been done for NSF and DOE science.

        <bullet>  The lack of growth in the NASA budget to respond to 
        the mandate of the Exploration Vision is stressing all the 
        Agency's activities. The AAAC is deeply concerned about the 
        growing impact on the space and earth science program and 
        strongly endorses efforts to increase NASA's budget to allow it 
        to undertake the transformation envisaged in the Vision, 
        without imparting serious damage to the science program.

        <bullet>  The decline in the Astrophysics budget in real terms 
        by 25 percent (from 2009) greatly reduces the opportunities 
        for new missions following the next Decadal Survey in 2010. 
        Even though a number of important and productive missions will 
        be operating into the next decade, the long lag between 
        inception and launch will lead to a period with far fewer 
        operating missions, with scientific and productivity impacts, 
        by the middle of the next decade, unless this budget trend is 
        reversed.

        <bullet>  The cost growth in missions, both moderate and large, 
        clearly indicates the need for better cost estimates for each 
        of the project Phases by both NASA and the Decadal Survey, and 
        the need to use life cycle costs for planning and roadmapping. 
        It is already clear that developing reliable and robust life 
        cycle mission cost estimates is considered to be very important 
        for the next Decadal Survey--both NASA and the community are 
        learning from our previous mistakes.

    I would also like to add that the changes in SMD under the new 
Associate Administrator Alan Stern are being viewed very positively. 
His efforts to add to the many very experienced people in SMD with new 
people to strengthen the scientific focus of the Directorate is being 
well received in the community.

RESPONSES TO THE QUESTIONS FROM THE CHAIRMAN

1.  What are the AAAC's concerns and recommendations with respect to 
NASA's astrophysics program?

    The AAAC noted a number of concerns in its report. The broadest 
issues concerning the NASA budget (``too small for the mandate it has 
been given'') and ACI (``NASA science is equally as important for the 
Nation as DOE, NSF, and NIST science'') were discussed above. The AAAC 
is very concerned that the NASA science program has been seriously 
impacted and that further stresses lie ahead for a science program that 
has been such an effective demonstration of U.S. science and technology 
leadership. These broad concerns led directly to two of the AAAC's 2007 
recommendations: ``NASA's science funding outlook should be restored. 
Doing so would be entirely consistent with the commitment to innovation 
and competitiveness already demonstrated by the Administration and 
Congress for the NSF and the DOE Office of Science'' and ``The AAAC 
strongly encourages Congress to consider enhancing the support for 
science at NASA explicitly to improve innovation and competitiveness, 
as has been done for NSF and DOE science.''
    Beyond the budget question (but obviously related) the central 
issue is the trend in the mission mix in Astrophysics. It is clear that 
Astrophysics at NASA is living off the past and the mission pipeline 
will, with the exception of JWST, largely run dry post-2009. JWST will 
be a remarkably powerful observatory, as dramatic in its impact as 
Hubble was in the 1990s, but astronomy and astrophysics encompasses 
much more than the science enabled by JWST. The only other new 
opportunities are SOFIA, a possible SMEX by 2014 and a possible Beyond 
Einstein mission by the middle of the decade. Serious problems with 
cost growth, both from underestimates and from not using life cycle 
costs, have occurred in a wide range of programs from Explorers through 
Discovery to large missions like SIM, SOFIA, JWST and HST SM4. The cost 
growth has combined with the budget changes to leave the future looking 
bleak.
    Other areas of concern and recommendations in the AAAC 2007 Annual 
Report are summarized here (and discussed in more detail in the 2006-
2007 AAAC report at http://www.nsf.gov/mps/ast/aaac.jsp):

    Research and Analysis (R&A) funding. The widespread concerns in the 
community about the cuts and trends in R&A funding were reflected in 
the report. R&A encourages creative extension of archived data, 
theoretical studies that can cross traditional disciplinary boundaries, 
laboratory studies that provide fundamental measurements, and new 
instrumentation and sensor technologies that pave the way for new 
science initiatives. With its strong academic emphasis R&A is a key 
factor in the scientific training and development of younger members of 
the community--reductions will certainly impact their involvement and 
run counter to the overall goals of ACI. The R&A program is broader 
than mission-specific data analysis, and has significant direct value 
to NASA for science planning and future flight opportunities. A strong 
R&A program will result in greater productivity from the mission 
investment at NASA.
    The AAAC would very much like to see recovery (and enhancement) of 
the very valuable R&A program. However, we recognized the great strains 
on the Astrophysics budget in the near-term due to SOFIA reinstatement, 
HST SM4 delays, preparing for GLAST, Kepler and WISE launches and 
ensuring JWST stays on track, so we were reluctant to recommend an 
``unfundable activity.'' In the end we recommended that R&A be given 
high priority if any additional funds became available in the near-
term, and if not, that R&A be considered for recovery in the 2009-2010 
timeframe as part of the ``wedge'' that opens up as HST servicing 
mission activities are ramped down and as JWST construction funding 
ramps down. We recognize that incrementing R&A competes with the 
``Beyond Einstein'' and the ``Decadal Survey'' wedges, but that 
exemplifies the very serious problems faced by Astrophysics.

    Competed, cost-capped missions. The Explorer and Discovery mission 
lines have been very productive. The AAAC believes that a similar 
program of larger cost-capped missions, the Einstein/Origins Probes 
(analogous to the Planetary Division's New Frontiers line), would be 
particularly valuable for Astrophysics. Several concepts for Probes are 
being discussed, including the Joint Dark Energy Mission (JDEM). The 
AAAC felt that development of this concept and discussion with the 
Decadal Survey about their potential broad value to Astrophysics would 
be a valuable step and recommended that the Probes be discussed as a 
mission line for Astrophysics.

    Current major programs in Astrophysics. The AAAC discussed a number 
of the major activities in its report because of their importance to 
the Astrophysics program.

        <bullet>  The AAAC was very encouraged by the results of the 
        JWST Technology Non-Advocate Review. Technically, JWST appears 
        to be in excellent shape, with all major technologies at TRL-6 
        (flight readiness). The added contingency provides a better 
        buffer too. JWST is a major, cutting-edge project and we are 
        not naive enough to expect a completely smooth progression to 
        launch, but the committee, like the community at large, hopes 
        that its cost-growth problems are now in the past.

        <bullet>  The committee is very supportive of HST SM4, even 
        more so now that the ACS has failed. A modern camera is needed 
        to restore Hubble's imaging capability. Accommodating the costs 
        of servicing remains a major challenge, especially budgeting 
        for the four-month launch delay in 2008. This further reduces 
        the flexibility within the Astrophysics program.

        <bullet>  The Navigator program is under stress, with two large 
        missions, TPF and SIM, given the recognition that SIM is in 
        reality a $3B program. Guidance from the ExoPTF and the 
        Decadal Survey is needed on how to move forward on the study of 
        other planetary systems.

    Major mission technology and conceptual development. It is crucial 
that programs under consideration for implementation by the Decadal 
Survey process reach a level of maturity that is characterized by a 
well-defined architecture with well-vetted costs. The AAAC has 
emphasized that consistent support, roughly at the $10M level, would 
make a significant difference in the robustness of the mission 
selections in the next Decadal Survey. The AAAC recommended that early 
phase development funds for the major missions in Beyond Einstein 
(Constellation-X; Con-X and the Laser Interferometer Space Antenna; 
LISA) and in Navigator (Terrestrial Planet Finder; TPF) should be 
continued if possible until the Decadal Survey reevaluates the mission 
suite in the Astrophysics arena.

    SOFIA. The SOFIA program underwent dramatic changes in the last 
year: the project was first reduced to $0 and effectively terminated. 
SOFIA then underwent a recovery and is now part of the Astrophysics 
budget. SOFIA has had a troubled and costly development history and 
will not reach full operations until 2013, more than 15 years after the 
project began. SOFIA has a distinctly different operational model, akin 
to ground-based telescopes, in that its instruments can be developed to 
take advantage of ongoing technological developments. Because of this 
the science opportunities can be high. SOFIA is a major mission, with a 
full life cycle cost for 20 years of operations that is $3.4B (FY08 
budget request). From FY09 its yearly cost is estimated to be $90M, 
including Institutional costs, broadly comparable to Hubble (excluding 
servicing costs) and JWST. When fully operational, SOFIA is estimated 
to provide 900 hours of on-target time per year for science 
observations--space missions average significantly more (HST 2500 
hrs.; JWST 6000 hrs.). The cost-per-hour of on-target operation is 
comparable to Hubble and several times JWST, and so the AAAC considers 
that it is crucial that SOFIA operates as efficiently as possible and 
fully involves the science community to provide high science returns.

    Advisory structure. The AAAC expressed great concern last year in 
our 2006 report about the lack of an advisory process at NASA, and were 
very encouraged when the new NASA advisory committees were established. 
The new structure has, however, lost a valuable role that was once 
provided by the Space Science Advisory Committee (SScAC). That 
structure encouraged dialogue, on wide-ranging issues that cut across 
the SMD divisions, between SMD and a broadly-representative group from 
the science community. While the AAAC welcomed the re-establishment of 
the advisory structure at NASA, we noted our concern that dialogue 
between SMD and a broadly-representative group from the science 
community is missing in the new structure. The AAAC (and the community 
more broadly) would welcome an evolution of the current advisory 
structure that would provide more dialogue with SMD through a more 
scientifically-diverse group, even as formal recommendations are 
channeled through the NAC to the Administrator.

    Task forces. The agencies have responded very supportively to the 
AAAC's requests for community-based task forces to advise the agencies 
on implementation approaches for key scientific areas. NASA's recent 
support for two interagency activities, the Dark Energy Task Force and 
the ExoPlanet Task Force was appreciated (in addition to its earlier 
support for the Task Force on the Cosmic Microwave Background). With 
the substantial advances on the ground and the recognition of the 
challenges and cost of major space missions for planet search projects 
like SIM and TPF, the AAAC recommended last year that NSF and NASA 
constitute a Task Force to develop a strategic framework for how to 
move forward on the detection and characterization of planets around 
other stars. The AAAC greatly appreciates that the agencies responded 
positively and quickly; the ExoPlanet Task Force (ExoPTF) has been 
formed and has begun its deliberations. Its report is expected late in 
2007. The AAAC also welcomed the decision by SMD last year to ask the 
NRC to carry out a study to determine which Beyond Einstein mission 
should go forward if funding became available in a possible FY09/10 
funding ``wedge'' as HST SM4 is completed and JWST passes the peak of 
its spending curve. The selection of three JDEM mission concept studies 
for conceptual development by NASA Astrophysics, and the joint support 
of the NRC Beyond Einstein Program Assessment Committee (BEPAC) study 
by DOE were also highly welcomed by the AAAC.

    National Virtual Observatory (NVO). While this is a very small 
program, it was considered to be of particular importance in the 2000 
Decadal Survey. It is a joint NASA-NSF activity. The agreement on a 
joint NASA-NSF solicitation for management of the NVO operation has 
been moving forward at a very slow pace, and the AAAC would like to see 
this come to closure to minimize the disruption to a small but 
important activity.

2.  What are your perspectives on the balance of the NASA astrophysics 
program in terms of the mix of mission sizes, R&A, theory, modeling and 
technology development? What if any adjustments are needed in your 
view?

    A balanced program within Astrophysics has been a consistent goal 
of the astronomy community. Such a program provides the most cost-
effective way to address the great science issues of our time. Some can 
be addressed through smaller missions like COBE and WMAP (the cosmic 
microwave background), others require medium missions like Kepler 
(planet searches), GLAST (the gamma-ray universe) and JDEM (dark 
energy), while the largest missions (the Great Observatories like 
Hubble, Chandra, Spitzer and JWST) can address some of the most 
challenging scientific questions that cannot be answered any other way. 
The versatility of such Observatories also allows them to be used for 
follow-up of discoveries with very little time lag. However, where the 
Observatory capabilities cannot address a particular high-priority 
science objective the relatively rapid response with small missions 
provides a means of doing so. The last three astronomy and astrophysics 
Decadal Surveys have all emphasized the importance of a balanced 
program of small, medium and large missions, and have given particular 
emphasis to the Explorer program and to a healthy program of research 
support (Data Analysis--DA, and Research and Analysis--R&A).
    In the near-term, over the next few years, as noted above, 
Astrophysics will have a range of missions including an Explorer 
(WISE), a Discovery mission (Kepler) and a medium class mission 
(GLAST). Data Analysis (DA) funds from the ongoing Great Observatories 
are supporting a very wide variety of science objectives. The biggest 
immediate concern is the cut in R&A, which, while modest, had great 
impact because cuts in a multi-year program are immediately felt by the 
new or renewing investigators. Another concern that is also vitally 
important for the future of the Astrophysics program is the current low 
level of technology development funding. This gets less attention, but 
it is the ``seed corn'' for future missions.
    However, the clouds on the horizon portend a more dismal future. 
The future program is dominated by JWST and SOFIA, both of which are 
large programs (in $ terms). As can be seen in the Figure above, the 
dearth of small and medium missions post-2009 is a great concern for 
the vitality of the field in the next decade. The continuing effective 
reductions in the R&A budget (in the FY08 budget and by inflation) will 
further impact the community, unless the trend is reversed. As Spitzer, 
Hubble and Chandra approach the end of their lives the community will 
also see reductions in data analysis funds. The DA and R&A funds and 
smaller-scale missions serve a critical role in supporting the broad 
fabric of research needed for realizing the science from future 
missions and in enabling the development of the necessary personnel and 
skills.
    The program is clearly unbalanced in the future beyond 2009. There 
are no small-medium Astrophysics missions for many years after 2009. 
The first mission might be a Small Explorer (SMEX) in 2014. The 
unbalance across Astrophysics is but one aspect. There is a need for 
balance within the very broad areas encompassed by Astrophysics--a 
single large program in one broad science area and only small missions 
in another also indicates unbalance. For example, searches for and 
research on exoplanets will benefit from an ensemble of small-to-large 
missions complemented by ground-based facilities. A broad, systematic 
cost-effective approach is needed. The same could be said of a broad 
science program to explore our universe from its earliest moments to 
the present day (Origins), and the Beyond Einstein program. Both have 
very broad goals that together encompass most of the ``great 
questions'' within astronomy and astrophysics, and need a suite of 
missions of different scales to address those fundamental questions.
    As much as possible it would be good to not have all our eggs in 
one basket--especially for space missions. Whole areas of science could 
be drastically undercut if problems occur. Realistically, there are 
high priority science objectives where there is no other way than by 
doing a large space mission, as with JWST's search for the earliest 
galaxies in the early days of the universe. However, as much as 
possible, we should try to accommodate a diverse range of mission and 
project scales (and to give particular attention to complementing 
ground-based studies, and collaborations both with other agencies and 
internationally).
    R&A funding needs to improve since it is essential for providing 
the research base and the development of skills on which future return 
from missions will depend. Funds for technology development are needed 
to ensure that optimal choices are made when selecting missions and 
that the mission options available are broad. There is a crucial need 
to encourage and support technology development in the science 
community, as well as at NASA Centers. Core capabilities are required 
in the NASA Centers, but the Centers might be encouraged to involve the 
academic community more routinely and directly, possibly through R&D 
funding that supports more technology development.
    I would give particular focus on strengthening the theory and 
modeling program in R&A. This is remarkably inexpensive for its value 
to the scientific enterprise. I am not a supporter of acquiring reams 
of data without concurrent theoretical development. Results drive 
theoretical efforts and give them relevance, but it is a synergistic 
and two-way effort, where theoretical developments also help focus 
observational efforts. It is crucial to have the challenge that comes 
from having theory observations confront each other, and challenge and 
test each other.
    In summary, in my view adjustments are needed to provide a more 
balanced mission suit across the whole program and also within broad 
scientific areas, along with support for technology development, and 
increased support for R&A, particularly for theory.

3.  Does the program, in your view, reflect the priorities of the 
National Academy of Sciences' decadal survey for astronomy and 
astrophysics? If not, where does the program diverge from the decadal 
survey?

    As discussed above, the Astrophysics program in the near-term, does 
have a number of launches and a suite of operating missions, and so 
looks fairly balanced and productive. There are very real concerns, 
however, about R&A funding, the frequency of small missions (Explorers) 
and the very limited funds for technology development. The concern 
grows substantially as one looks further into the future. Moreover, as 
one takes a longer-term view the program increasingly moves away from 
the goals of the Decadal survey. The mission mix becomes very 
unbalanced. JWST will be a remarkably powerful mission, but the mission 
suite is devoid of other space missions. SOFIA should be operating on 
the ground, and hopefully a Beyond Einstein program will be under 
development early in the decade, but launch would be many years away 
(5-7?). An Astrophysics Small Explorer (SMEX) may be operational by 
2014, but other launch opportunities may not arise for years. This is 
not a balanced program, either scientifically or by mission scale 
(small-medium-large), and will become increasingly unbalanced as the 
current Great Observatories begin to end their useful life. This 
unbalance will be accentuated as the missions launched in 2007, 2008 
and 2009 start to approach their end of life towards the early-middle 
of the decade. The lack of scientific breadth and limited numbers of 
operating missions will be a serious departure from the breadth of the 
program envisaged in the Decadal Survey. This will be compounded if the 
problems with R&A funding and technology development continue.

4.  What do you regard as the top three risks facing NASA's 
astrophysics program over the next five years and how should those 
risks be addressed?

    The challenge of dealing with a reduction and a dramatic change of 
slope in the Astrophysics budget, combined with recognition of the 
costs of the current mission suite have resulted in great concern about 
future opportunities in Astrophysics. I am assuming that we will 
develop processes that ensure that we have more realistic cost 
estimates and that we will use life cycle costs for programs for 
planning and roadmapping. I then see the top risks from a scientific 
perspective as:

1) The lack of small and medium missions beyond 2009. The dramatic drop 
in the small-medium launch rate beyond 2009 is a major concern. The 
recently announced Small Explorer SMEX call for proposals later this 
year could lead to an opportunity for Astrophysics, but the earliest 
likely launch date would be around 2014. The contrast with the next few 
years, and with the early part of this decade (when many small and 
medium Explorers were launched) is dramatic. SOFIA will not reach full 
operations until 2013. JWST will be a superb scientific mission with 
wide-ranging capabilities but it alone cannot encompass the science 
goals of the astronomy and astrophysics community. This becomes 
especially so since Spitzer, Chandra and Hubble will all be nearing or 
past their end of life (Spitzer will lose a lot of its science 
capability by mid-2009 as its cryogen is exhausted). The risk is of 
greatly reduced scientific returns in the coming decade. An associated 
risk is that of launch vehicle availability at reasonable cost. This is 
a serious issue for mission frequency if a substantial fraction of the 
cost of an Explorer or SMEX is the launch vehicle cost.

2) Inability to respond to the 2010 Astronomy and Astrophysics Decadal 
Survey. The funding for Astrophysics drops by 25 percent in real terms 
around the time when the new Decadal Survey is released and so the 
opportunities for ramping-up on the recommended missions will be quite 
limited. The Decadal Survey will be discussing and making 
recommendations on many high priority programs that have been under 
development or discussion for some time. For example, Con-X, LISA, SIM, 
TPF and SAFIR will all be discussed, as well as a variety of Einstein 
Probe missions that are being considered in the current BEPAC study. 
The AAAC ExoPlanet Task Force will likely identify additional areas for 
development and missions. Some hard choices face the community in the 
upcoming Decadal Survey. The natural outcome of the more realistic 
costing that will be part of the next Decadal Survey will be a reduced 
program, better matched to the available funding. However, the lack of 
a significant funding opportunity will limit the ability to initiate a 
strong effort following the survey. This translates to a risk of 
significantly diminished scientific returns on the highest-priority 
science questions of the decade. The next generation of missions will 
also be at risk if technology development cannot be initiated because 
of the same funding problems.

3) The current lack of technology development and mission development 
funding and its impact on mission costs and readiness. The very limited 
funding available in recent times has severely limited the technology 
development efforts for both current missions in early development 
(like Con-X and LISA, and now TPF), and also more innovative and 
speculative technologies for future opportunities. This will have far-
reaching implications for mission opportunities in the next decade and 
is significant risk to future astrophysics missions and competed 
opportunities. It also increases the risks of cost growth if conceptual 
development and technology development have been unable to progress 
steadily.
    These areas are identified as risk areas because of two problems. 
The first is the dramatic change in the budget situation for 
Astrophysics over the next few years, particularly the cuts in FY09 and 
beyond. Second, the poor cost estimates in the past have exacerbated 
our current problems. The agency and community together did not deal 
very well with the cost estimates and budgets of the missions and 
programs that we jointly developed. However, it is my view that this 
situation has changed dramatically with the much more realistic and 
open approach of the new Administrator and with a more sophisticated 
and realistic view of project costs and the costs over the life cycle 
of missions by the community and the Agency. While I think we are now 
working to deal collectively with the undercosting problem, a solution 
to the budget problem for science is a more challenging concern for the 
future. If we are to have a strong, productive and broadly-based 
science program, additional funding is needed. Recognition is needed 
that NASA science plays a role as important as that of DOE science, NSF 
and NIST in the Nation's science enterprise.

5.  If you could make three strategic investments that could benefit 
the astrophysics program over the long-term, what would those 
investments be?

    Strategic investments are key to positioning the Astrophysics 
Division, the astronomy and astrophysics community, the NASA Centers 
and industry partners to be able to extend the limits of scientific 
endeavor and scientific understanding. To meet the science goals of the 
community, NASA and the community need to be able to move forward on a 
variety of missions from large Flagship missions to medium and smaller 
scale missions, while returning cutting-edge science results from the 
current missions. I think the following three areas would be excellent 
strategic investments to position the Agency and the community for a 
cost-effective program of science missions. The first two are 
relatively low cost (though still very difficult to fund in the current 
budget environment), while even the third could be carried out in an 
Astrophysics budget that is constant at the FY06 dollar level.

1) R&A funding is a strategic investment. This is particularly so for 
theory, modeling and cutting-edge technology development to complement 
mission specific data analysis. Clearly R&A and mission-specific DA 
maximizes the science return from current programs and also maximizes 
the ``return on investment'' in space science. Support for such 
activities is also a strategic investment from NASA's perspective. A 
key aspect of an implementable long-range plan is knowing what are key 
science questions, why they are important, and whether answering them 
is doable. Exploiting current data, along with theory allows us to set 
science priorities. Furthermore, exploring novel technologies and 
strengthening the technological base amongst graduate students and 
postdoctoral researchers is an investment for the future.

2) Technology development for missions. Astrophysics missions utilize 
state-of-art technology, and it is essential that that technology be 
developed and demonstrated to flight readiness levels before a mission 
enters construction. Retiring technological risk early helps to 
minimize the likelihood of cost growth. There is another aspect as 
well. The science community must make strategic choices on how to spend 
limited funds as wisely and effectively as possible. For this to happen 
we must understand the level of risks and costs at the time we 
undertake our Decadal Surveys. We cannot afford to have moderate scale 
missions at the few hundred million dollar level grow into multi-
billion dollar programs. Modest (by comparison with the final costs) 
expenditures on technology development and on establishing a strong 
science and management team early in the planning and development 
process would be money very well spent.

3) Competed, cost-capped missions. These missions, at the medium scale 
(Einstein and Origins Probes--like New Frontiers), along with the 
smaller Explorers and Discovery-class missions have a valuable role. 
Having been a strong proponent of large ``Flagship'' missions (through 
personally spending a great deal of my career working to make Hubble a 
success and NGST--now JWST--a reality in its early years) I do not want 
to downplay the central role that large missions play in the 
Astrophysics science enterprise. Flagships, however, are rare and it is 
essential for the vitality of the field for frequent launch 
opportunities at the medium and small scale. Cost-capped, competed 
missions have many attractive features (e.g., focused science 
opportunities, community involvement, responsive to more current 
science goals, controls on cost-growth). However, heavy reliance on 
such quick response, ``bottom-up'' missions may undercut the benefits 
of strategic planning through the Decadal Survey. This can be rectified 
if the Decadal Survey gives guidance on broad areas that the community 
sees as important and ready for investigation (e.g., searches for 
planets around other stars--exoplanets; the early universe; dark matter 
and dark energy). A additional major concern for such missions could be 
the cost of launch vehicles with the demise of the Delta 2 launchers. 
This has the potential to be a serious issue for the small-medium scale 
missions.

    As noted, an Astrophysics budget that is constant in FY06 dollars, 
with the FY06 base, could accommodate all these recommendations. Any 
growth as part of the legislative Innovation and Competitiveness agency 
would enable, for example, a new large Flagship mission in the next 
decade as well.

                   Biography for Garth D. Illingworth

POSITIONS HELD

1988-  Astronomer, University of California Observatories/Lick 
        Observatory

1988-  Professor, Department of Astronomy and Astrophysics, University 
        of California, Santa Cruz

1985-1987  Research Professor, Department of Physics and Astronomy, 
        Johns Hopkins University

1984-1987  Deputy Director, Space Telescope Science Institute

1978-1984  Astronomer, Kitt Peak National Observatory

1976-1977  Miller Fellow, Department of Astronomy, University of 
        California, Berkeley

1974-1975  Postdoctoral Fellow, Kitt Peak National Observatory

MAJOR ACTIVITIES/ACHIEVEMENTS (LAST SIX YEARS)

1.  Major ongoing programs on galaxy evolution in clusters at z1, and 
galaxy formation and evolution at high redshift (from z27 and 
beyond): four graduate students and postdocs plus a number of major 
HST, Spitzer, Keck, VLT and Magellan collaborations. Many talks at 
international workshops on high redshift galaxies in the first 1-2 
billion years.

2.  Chair, Astronomy and Astrophysics Advisory Committee. Editor, AAAC 
Annual Report to NSF, NASA and DOE, and to Congress and OSTP.

3.  Deputy PI, HST Advanced Camera (ACS): Successful completion and 
launch of most powerful instrument yet on the Hubble Space Telescope. 
Improved HST's performance by 10 times.

4.  Co-organizer major workshop (``Hubble's Science Legacy'') on 
science issues and technical challenges for a large space telescope 
successor to HST.

5.  Chair, for four years, of Space Telescope Institute Council, STIC.

6.  Search for planets using space coronagraph/nuller. Member TPF-C 
STDT committee.

7.  HST Key Project, ``Determining the Hubble Constant to 10 percent.'' 
Achieved 10 percent goal.

ACADEMIC HISTORY

1965-1968  B.Sc. (Honors) 1st Class (Physics), University of Western 
        Australia

1969-1973  Ph.D. (Astrophysics) Australian National University, Mount 
        Stromlo and Siding Spring Observatory

2007  Invited Speaker, EU ASTRONET Worshop--Status of U.S. Astronomy 
        Program

2006  Invited Plenury Speaker, SPIE, ``Large Telescopes'' Meeting--
        Astronomy and the Decadal Survey

2005-  Editor, with AAAC committee, AAAC Annual Report for Congress and 
        Agencies

2004-  Chair, AAAC, Astronomy and Astrophysics Advisory Committee

2004-2006  TPF-C Science Technology Definition Team

2004  Chair, Spitzer TAC (GO Time Assignment Committee)

2004-2007  Nominating Committee, Aspen Center for Physics

2003  Elected General Member, Aspen Center for Physics

2003  PI, Visions proposal for >20-m UVOIR Telescope

2002-2005  SScAC, NASA Space Science Advisory Committee

2002-2003  NAAAC, National Astronomy and Astrophysics Advisory 
        Committee

2000-2007  AURA Board of Directors

1999  NGST Instrument Study Team

1999-2000  HST Second Decade Study Committee

1998-2002  Chair, Space Telescope Institute Council

1997-2003  Member Representative, AURA (University of California 
        Representative)

1996-2002  Space Telescope Institute Council

1995-1996  AURA Board of Directors (University of California 
        Representative)

1995  NRC SSB ``Task Group on BMDO New Technology Orbital Telescope''

1995-  Deputy PI, HST Advanced Camera

1994-1995  NASA HQ UVMOWG

1993-1999  Co-Chair, Keck Telescope Science Steering Committee

1992  HST Second Generation Instrument Review Team

1991-1993  JPL special review panel for HST camera, WFPC-2, chair 
        Charles Townes

1991-1999  Member, Keck Telescope Science Steering Committee

1990-1991  Co-chair, Keck Telescope Science Steering Committee

1990-1992  Chair, NGST SEWG (Next Generation Space Telescope Science-
        Engineering Working Group) to oversee technology development 
        program for future large space telescope

1989-1990  Chair, ``UV-Optical In Space'' Panel of Astronomy and 
        Astrophysics Survey Committee

1988-1989  Chair, Scientific Organizing Committee for Workshop on ``The 
        Next Generation: A Successor to Hubble Space Telescope'' 
        sponsored by NASA HQ and STScI

1987-1990  Keck Telescope Science Steering Committee

1987-1990  Chair, Keck Telescope Segment Acceptance Committee

1987-1989  NASA HQ UV-Visible-Relativity Management Operations Working 
        Group

1987  Executive Committee, HST Maintenance and Refurbishment Workshop, 
        Goddard Space Flight Center, Greenbelt, Maryland

1986-1987  Co-Chair, HST Science Certification Review

PUBLICATIONS (recent selections from 295 papers total)

196.  ``Spectroscopic Confirmation of a Substantial Population of 
Luminous Red Galaxies at Red shifts z >2,'' P.G. van Dokkum, N.M. 
Forster Schreiber, M. Franx, E. Daddi, G.D. Illingworth, I. Labbe, A. 
Moorwood, H.-W. Rix, H. Rottgering, G. Rudnick, A. van der Wel, P. van 
der Werf and L. van Starkenburg. ApJL, 587, L83-L87, 2003.

202.  ``Hubble's Science Legacy: Future Optical/Ultraviolet Astronomy 
from Space,'' K.R. Sembach, J.C. Blades, G.D. Illingworth and R.C. 
Kennicutt, Jr. In: ASP Conf. Ser. 291: Hubble's Science Legacy: Future 
Optical/Ultraviolet Astronomy from Space, held 2-5 April 2002 at 
University of Chicago, Chicago, Illinois, USA, eds. K.R. Sembach, J.C. 
Blades, G.D. Illingworth and R.C. Kennicutt, Jr., 335-338, 2003.

208.  ``Requirements for an optical 8-m space telescope with a MEMs 
deformable mirror to detect Earth-like planets around nearby stars,'' 
H.C. Ford, M. Clampin, G.D. Illingworth, J.E. Krist, S.S. Olivier, L. 
Petro and G.E. Sommagren. SPIE, 4854, 554-557, 2003.

222.  ``Star Formation at z 6: The Hubble Ultra Deep Parallel 
Fields,'' R.J. Bouwens, G.D. Illingworth, R.I. Thompson, J.P. 
Blakeslee, M.E. Dickinson, T.J. Broadhurst, D.J. Eisenstein, X. Fan, M. 
Franx, G. Meurer and P. van Dokkum. ApJL, 606, L25-L28, 2004.

224.  ``Stellar Populations and Kinematics of Red Galaxies at z >2: 
Implications for the Formation of Massive Galaxies,'' P.G. van Dokkum, 
M. Franx, N.M. Forster Schreiber, G.D. Illingworth, E. Daddi, K.K. 
Knudsen, I. Labbe, A. Moorwood, H.-W. Rix, H. Rottgering, G. Rudnick, 
I. Trujillo, P. van der Werf, A. van der Wel, L. van Starkenburg and S. 
Wuyts. ApJ, 611, 703-724, 2004.

228.  ``Galaxies at z 7-8: z<INF>850</INF>-Dropouts in the Hubble 
Ultra Deep Field,'' R.J. Bouwens, R.I. Thompson, G.D. Illingworth, M. 
Franx, P.G. van Dokkum, X. Fan, M.E. Dickinson, D.J. Eisenstein and 
M.J. Rieke. ApJL, 616, L79-L82, 2004.

235.  ``Infall, the Butcher-Oemler Effect, and the Descendants of Blue 
Cluster Galaxies at z 0.6,'' K.-V.H. Tran, P. van Dokkum, G.D. 
Illingworth, D. Kelson, A. Gonzalez and M. Franx. ApJ, 619, 134-146, 
2005.

238.  ``The Fundamental Plane of Cluster Elliptical Galaxies at z = 
1.25,'' B.P. Holden, A. van der Wel, M. Franx, G.D. Illingworth, J.P. 
Blakeslee, P. van Dokkum, H. Ford, D. Magee, M. Postman, H.-W. Rix and 
P. Rosati. ApJL, 620, L83-L86, 2005.

244.  ``Constraints on z  10 Galaxies from the Deepest Hubble Space 
Telescope NICMOS Fields,'' R.J. Bouwens, G.D. Illingworth, R.I. 
Thompson and M. Franx. ApJL, 624, L5-L8, 2005.

253.  ``Spectroscopic Confirmation of Multiple Red Galaxy-Galaxy 
Mergers in MS 1054-03 (z = 0.83)1,'' K.-V.H. Tran, P. van Dokkum, M. 
Franx, G.D. Illingworth, D.D. Kelson and N.M.F. Schreiber. ApJL, 627, 
L25-L28, 2005.

256.  ``Mass-to-Light Ratios of Field Early-Type Galaxies at z 1 from 
Ultradeep Spectroscopy: Evidence for Mass-dependent Evolution,'' A. van 
der Wel, M. Franx, P.G. van Dokkum, H.-W. Rix, G.D. Illingworth and P. 
Rosati. ApJ, 631, 145-162, 2005.

261.  ``The Photometric Performance and Calibration of the Hubble Space 
Telescope Advanced Camera for Surveys,'' M. Sirianni, M.J. Jee, N. 
Benitez, J.P. Blakeslee, A.R. Martel, G. Meurer, M. Clampin, G. De 
Marchi, H.C. Ford, R. Gilliland, G.F. Hartig, G.D. Illingworth, J. Mack 
and W.J. McCann. PASP, 117, 1049-1112, 2005.

271.  ``Weak-lensing Detection at z 1.3: Measurement of the Two Lynx 
Clusters with the Advanced Camera for Surveys,'' M.J. Jee, R.L. White, 
H.C. Ford, G.D. Illingworth, J.P. Blakeslee, B. Holden and S. Mei. ApJ, 
642, 720-733, 2006.

272.  ``The Possible z = 0.83 Precursors of z = 0, M* Early-Type 
Cluster Galaxies,'' B.P. Holden, M. Franx, G.D. Illingworth, M. 
Postman, J.P. Blakeslee, N. Homeier, R. Demarco, H.C. Ford, P. Rosati, 
D.D. Kelson and K.-V.H. Tran. ApJL, 642, L123-L126, 2006.

279.  ``Rapid evolution of the most luminous galaxies during the first 
900 million years,'' R.J. Bouwens and G.D. Illingworth. Nature, 443, 
189-192, 2006.

280.  ``Galaxies at z 6: The UV Luminosity Function and Luminosity 
Density from 506 HUDF, HUDF Parallel ACS Field, and GOODS i-Dropouts,'' 
R.J. Bouwens, G.D. Illingworth, J.P. Blakeslee and M. Franx. ApJ, 653, 
53-85, 2006.

286.  ``Galaxies at z >6: Evidence for Substantial Changes in Luminous 
Galaxies in the 200 Myrs from z 7 to z 6,'' G.D. Illingworth and R.J. 
Bouwens. IAU Symposium, 235, 58, 2006.

287.  ``Line Strengths in Early-Type Cluster Galaxies at z = 0.33: 
Implications for alpha/Fe, Nitrogen, and the Histories of E/SOs,'' D.D. 
Kelson, G.D. Illingworth, M. Franx and P.G. van Dokkum. ApJ, 653, 159-
183, 2006.

288.  ``Spectroscopic Identification of Massive Galaxies at z 2.3 with 
Strongly Suppressed Star Formation,'' M. Kriek, P.G. van Dokkum, M. 
Franx, R. Quadri, E. Gawiser, D. Herrera, G.D. Illingworth, I. Labbe, 
P. Lira, D. Marchesini, H.-W. Rix, G. Rudnick, E.N. Taylor, S. Toft, 
C.M. Urry and S. Wuyts. ApJL, 649, L71-L74, 2006.

290.  ``Spitzer IRAC Confirmation of z<INF>850</INF>-Dropout Galaxies 
in the Hubble Ultra Deep Field: Stellar Masses and Ages at z 7,'' I. 
Labbe, R. Bouwens, G.D. Illingworth and M. Franx. ApJL, 649, L67-L70, 
2006.

292.  ``Clustering of i<INF>775</INF> Dropout Galaxies at z 6 in GOODS 
and the UDF,'' R.A. Overzier, R.J. Bouwens, G.D. Illingworth and M. 
Franx. ApJL, 648, L5-L8, 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Udall. Thank you, Doctor.
    Dr. Baker.

  STATEMENT OF DR. DANIEL N. BAKER, DIRECTOR, LABORATORY FOR 
 ATMOSPHERIC AND SPACE PHYSICS, UNIVERSITY OF COLORADO, BOULDER

    Dr. Baker. Mr. Chairman, Ranking Minority Member, and 
Members of the Committee, I want to thank you for the 
opportunity to address the impacts of the proposed fiscal year 
2008 budget on the NASA program and heliophysics.
    In addition to my roles at the University of Colorado, I am 
also the Chair of the National Research Council's Committee on 
Solar and Space Physics, and a member of its parent body, the 
RC Space Studies Board.
    Part of the views I express today are my own.
    Let me begin by thanking you for your continuing and 
substantial support for NASA science. We in the science 
community sincerely appreciate the support, and fully recognize 
the difficulty of funding NASA science in a constrained budget 
environment.
    Heliophysics division at NASA has a number of exciting 
missions that have been launched recently. Stereo, NODI and 
DEMES are already providing remarkable new measurements. 
Because of our large role in the program, we at LASP are very 
excited and proud of the successful launch just last week for 
the upper atmospheric AIM spacecraft as part of the Explorer 
program.
    However, beginning with the fiscal year 2005 NASA budget 
plan, and continuing through the fiscal year 2008 budget in its 
five year run out, the future heliophysics program has been 
significantly compromised. For example, the solar terrestrial 
probes, or STP line, has had over half of its budget content 
removed, resulting in at least a six year gap in STP launches. 
A highly successful Explorer mission line has had over $1 
billion of budget authority removed in the run out from the 
fiscal year 2005 budget onward.
    As shown in the figure here, the Explorer budget in the 
fiscal year 2008 plan is about half of what would have been 
expected, based on the fiscal year 2004 budget, which greatly 
reduces our ability to respond effectively to new science and 
technology advances. Noted by others, the sounding rocket 
program, and indeed the entire sub-orbital program is also at a 
dangerously low bare bones resource level.
    In the fiscal year 2008 budget plan, the space weather 
oriented living with the STAR program also sees its funding 
stretched out so that it substantially--missions have been 
reduced, and the radiation belt storm probes and atmosphere/
thermosphere probes have--no longer have simultaneity. 
Alarmingly, and rather inexplicably, the previously budgeted 
funding for the RBSP missions of opportunity is eliminated in 
the fiscal year 2008 plan.
    In response to your questions about my perspectives on the 
balance of the NASA heliophysics program and its mix of program 
elements, I must say that considerable anxiety exists in the 
science community due to anticipated reductions in the smaller 
missions and sustaining research programs that perform the 
support for much of the community based research.
    I am delighted that Dr. Stern is taking actions now to 
remedy the sub-orbital situation. I am also encouraged by the 
fact that a new announcement of opportunity for small explorers 
will be released, thanks to Dr. Stern and his team, by October 
2007. There is widespread recognition as well that R&A cuts are 
harmful and will inevitably reduce the number of new students 
who enter university programs. This definitely needs to be 
addressed.
    As for how the heliophysics program reflects the priorities 
of the decadal survey in solar and space physics, NASA is 
attempting to implement some of the highest priority programs 
from the 2003 survey, but the pace and balance of activity 
seems highly unlikely to achieve the decadal goals. It now 
appears that with mission cost growth and reduced heliophysics 
funding it is very unlikely that most survey missions will be 
completed within the decadal window.
    The three top risks facing the heliophysics program over 
the next five years, in my opinion, are first, fear of failure. 
There is a proper level of redundancy, scrutiny and oversight 
that matches the risk of a robotic mission failure, and 
balances that with the program's scale. To do more than this 
due diligence drives costs for even small end missions out to 
extraordinary heights. I fear this is paralyzing the space 
science program at present, this fear of failure.
    Lack of affordable access to space is the second. 
Unfortunately, the cost of launching missions into space has 
grown out of all proportion to the cost of small scientific 
payloads and satellites. This imbalance is destroying the 
ability of the heliophysics to develop and maintain a regular 
and frequent launch of all class submissions.
    The third risk is the erosion of trained work force. The 
NRC has recently issued a report on the NASA work force, and it 
confirms my view that NASA needs to invest in space science 
programs that allow universities to attract and engage 
undergraduate and graduate students in all aspects of mission 
development and deployment.
    Finally, the top three investments that could be made to 
benefit the heliophysics program over the long-term are, first, 
I would say, lower costs and frequent access to space. Congress 
and other stakeholders should work together to make sure that 
every avenue for launching space hardware is made readily 
available to research teams.
    In this category of access to space I would also place 
missions of opportunity. Launching NASA instruments or payload 
suites on commercial or foreign spacecraft can provide 
tremendous bang for the buck.
    Secondly, would be a regular cadence and more frequent 
small end missions. This echoes what other speakers have said. 
The key to a healthy, robust heliophysics program is to have 
more and better opportunities for small explorer, university 
class explorer and sub-orbital missions.
    Investment necessary to achieve the desired outcome in this 
arena could be readily accomplished, I believe, by restoring 
the Explorer mission line to the budgetary level that existed 
in the fiscal year 2004 budget plan. It was about $350 million 
per year.
    Finally, and I can't stress this strongly enough, is 
improved management of mission costs. I believe that 
heliophysics should invest time and money now into developing 
an approach to mission management that uses prudent levels of 
reviews and much wiser risk mitigation strategies.
    Thank you very much for your attention. I look forward to 
answering questions.
    [The prepared statement of Dr. Baker follows:]
                 Prepared Statement of Daniel N. Baker

Introduction

    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee, I want to thank you for the opportunity today to address key 
issues that face the NASA science enterprise. I want specifically to 
address the impacts of the proposed FY 2008 budget on the NASA 
Heliophysics program. My name is Daniel Baker and I am a Professor of 
astrophysical and planetary sciences at the University of Colorado. I 
am also the Director of the Laboratory for Atmospheric and Space 
Physics at CU-Boulder. The Laboratory is a research institute that has 
over 60 teaching and research faculty in the several disciplines of 
space and Earth sciences. My institute, which we call LASP for short, 
receives some $50-$60 million per year to support experimental, 
theoretical, and data analysis programs in the Space and Earth 
Sciences. The vast majority of these resources come from NASA. Other 
strong support comes from NSF, NOAA, and other federal agencies. LASP 
presently supports some 120 engineers, dozens of highly skilled 
technicians, and over 20 key support personnel. We are very proud, as 
well, that LASP has over 60 graduate students and another 60 
undergraduate students who are pursuing education and training goals in 
space science and engineering.
    I myself am a space plasma physicist and I have served as a 
principal investigator on several scientific programs of NASA. I am now 
a lead investigator in the upcoming Radiation Belt Storm Probe (RBSP) 
mission that is part of NASA's Living With a Star program. I am also an 
investigator on NASA's Cluster, Polar, MESSENGER, and Magnetospheric 
Multi-Scale (MMS) missions. Presently, I serve as Chair of the National 
Research Council's Committee on Solar and Space Physics. By virtue of 
that position, I also am a member of the Space Studies Board, chaired 
by my colleague, Dr. Len Fisk. The views I am presenting here are my 
own, however.
    First, and foremost, I would like to begin by commending the 
American people, and you as their representatives, for the significant 
investment made in NASA science. The scientific community is well aware 
of how difficult it has become to find funding for the many worthy 
programs that you must consider. We sincerely appreciate continued 
support from Congress and from the American public. It is a major and 
lasting achievement of our nation that it finds the means and the will 
to look beyond the pressure of present-day concerns, to focus on 
questions about humanity's place in the universe, our relationship to 
our Sun and the nearby planets, how the Earth and its environment have 
functioned in the past, and how they may change in the future. I 
believe--as do you, I suspect--that the United States has benefited 
greatly from investment in space research. Not only is the 
technological base of our country strengthened by NASA innovations, but 
our prestige and competitiveness in the world and our educational 
investment in the future technical workforce are greatly enhanced by 
NASA science leadership.

Overview of FY 2008 Budget Impacts to the Heliophysics Program

    The National Research Council's (NRC's) 2003 Solar and Space 
Physics (SSP) Decadal Survey, The Sun to the Earth--and Beyond: A 
Decadal Strategy for Solar and Space Physics, laid out a clear, 
prudent, and effective program of basic and applied research. The 
envisioned program would address key science objectives such as: 
understanding magnetic reconnection--the physical process underlying 
much of space physics; discovering the mechanisms that drive the Sun's 
activity and produce energetic particle storms in the heliosphere; 
determining the physical interactions of the Earth's ionosphere with 
the atmosphere and magnetosphere; as well as addressing a host of other 
questions that are essential to understanding our local space 
environment. The Decadal Plan would also have allowed an end-to-end 
view of the connected Sun-Earth system through NASA's Living With a 
Star (LWS) program, thereby enhancing greatly the ability to provide 
realistic specification and forecasts of space weather. Through both 
its basic research component and its applied component, the 
Heliophysics Program would therefore contribute substantially and 
directly to national needs and to the Vision for Space Exploration.
    At present, the Heliophysics Division (HPD) of NASA has a number of 
exciting projects that have been launched or are ready for launch. The 
dual-spacecraft STEREO mission is being commissioned and is returning 
amazing new three-dimensional views of the Heliosphere. Detailed images 
of the Sun are also being provided by the newly-launched Hinode 
mission, a joint Japan-U.S. venture. The five-spacecraft THEMIS mission 
was successfully launched in February 2007 and is already providing 
remarkable multi-point measurements in Earth's magnetosphere. Because 
of our large role in the program, we at LASP are very excited about the 
successful launch just last week of the upper atmospheric AIM 
spacecraft as part of the Explorer program. The first LWS mission, 
Solar Dynamics Observatory (SDO), is well into development preparing 
for launch in 2008. Thus, the HPD program has several highly capable 
new space assets that are joining the Heliophysics Great Observatory 
constellation of operating spacecraft.
    Beyond this good news, however, there are significant concerns. 
Beginning with the FY 2005 NASA budget plan, and continuing through the 
FY 2008 budget and its five-year run-out, the future Heliophysics 
program has been significantly compromised. The Solar-Terrestrial 
Probes (STP) line of missions has had over half of its budget content 
removed, resulting in at least a six-year gap in STP launches. Within 
the current NASA budget horizon extending to 2015, the STP line is now 
down to a single mission launch, the Magnetospheric Multi-Scale (MMS) 
mission. The venerable and highly successful Explorer mission line 
(managed by HPD for all of NASA) has had over $1 billion of budget 
authority removed in the run-out from FY 2005 onward. As shown in the 
figure below, the Explorer budgets in the FY 2008 and its run-out are 
about half of what they would have been expected to be based on the FY 
2004 budget and its run-out.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As Principal Investigator (PI)-led missions with a rapid 
development time, Explorers have proven invaluable for investigating 
the broad range of Heliophysics science. The drastic funding reduction 
in this line has greatly reduced HPD's ability to respond effectively 
to new science/technology advances. The sounding rocket program (and, 
indeed, the entire sub-orbital program) is at a dangerously low, bare-
bones resource level. The Research and Analysis (R&A) program was 
deeply cut last year and no funding restorations seem likely at 
present. The impact of these cuts will be felt for many years since 
R&A, Explorers, and Sub-orbital programs are key elements in 
capitalizing on the investments that have already been made and for 
attracting and training the next generation of space scientists and 
engineers. Moreover, the high priority ``Flagship'' mission for 
Heliophysics, the Solar Probe Mission, is not presently contained in 
NASA's plan.\1\
---------------------------------------------------------------------------
    \1\ The Solar Probe mission was the highest priority large-class 
mission in the NRC solar and space physics decadal survey. An early 
start of Solar Probe would have required resources beyond those 
anticipated at the time the survey was completed; however, the 
anticipated budgets supported a start in FY 2010. Long a priority of 
the heliophysics community, the Solar Probe mission promises to 
revolutionize our knowledge of the physics of the origin and evolution 
of the solar wind. Moreover, by making the only direct, in-situ 
measurements of the region where some of the deadliest solar energetic 
particles are energized, Solar Probe would make unique and fundamental 
contributions to our ability to characterize and forecast the radiation 
environment in which future space explorers will work and live.
---------------------------------------------------------------------------
    The other major component of the Heliophysics program is Living 
with a Star (LWS). The funding profile for LWS as defined by the FY 
2005 and FY 2006 budgets allowed for a robust program. In the FY 2008 
budget plans, however, LWS funding is stretched out so that 
simultaneity between missions such as Radiation Belt Storm Probes 
(RBSP) and Ionosphere-Thermosphere Storm Probes is lost. Alarmingly, 
and rather inexplicably, the previously-budgeted funding for the RBSP 
Missions of Opportunity is eliminated from the FY 2008 plan. Such 
reductions to LWS are threatening the success of the immediate program 
as well as the timely implementation of missions such as Sentinels, 
which are necessary to fulfill the President's 2004 Vision for Space 
Exploration. These reductions are impeding progress in understanding 
the origins of the severe space weather events that have the potential 
to disrupt civil and military satellite communications, applications 
that rely on the Global Positioning System (GPS), and power generation 
and transmission systems. Given the large investments that NASA will 
make to fulfill the Vision for Space Exploration and the investments 
that the Nation, as a whole, is increasingly making in space-based 
technology, it seems ill-considered to decrease support for LWS, the 
NASA program that is most closely directed toward protecting those 
investments.\2\
---------------------------------------------------------------------------
    \2\ For example, in 2004, it was reported the economic benefits of 
providing reliable warnings of geomagnetic storms to the electric power 
industry alone were approximately $450 million over three years. See, 
``Solar Storms Cause Significant Economic and other Impacts on Earth,'' 
and references therein, in NOAA Magazine, available on the Internet at: 
<http://www.magazine.noaa.gov/stories/mag131.htm>.
---------------------------------------------------------------------------
    To be sure, some of the fiscal problems in Heliophysics and 
elsewhere are related to mission cost growth. Much of this problem, 
however, lies in non-technical issues that the science community and 
the Decadal Survey could not have anticipated, including substantial 
increases in launch vehicle costs, the effects of full-cost accounting, 
and mandates for additional layers of oversight and review. As noted 
above, the problems with the Heliophysics program started well before 
the FY 2008 budget plan, but the trends have been perpetuated in the FY 
2008 budget and its five-year run-out.

Specific Questions Concerning Heliophysics

    I present here my detailed answers to the questions addressed to me 
by the Chairman in his letter of 11 April 2007:

1.  Perspective on the balance of the NASA Heliophysics program and its 
mix of program elements.

    Considerable anxiety is being caused in the science community due 
to the anticipated and extraordinary reductions in the smaller mission 
opportunities and sustaining research programs that form the support 
for much of the university-based research (in which students and early-
career scientist are involved). Small missions, such as those in the 
Explorer and Earth System Science Pathfinders programs, provide 
projects in which new concepts are tested for a modest investment and 
where students first learn the space science and engineering trade. 
This particularly applies to sounding rockets, balloons, and aircraft 
flights that provide opportunities on a time scale that falls within 
the educational horizon of a graduate student. Since 2000, the 
historical sounding rocket launch rate has dropped more than half (from 
about 30 to 10 missions per year), with anticipated further reductions 
as a result of the FY 2008 budget. The present run-out budget places 
even the regular launch facilities, such as those at Poker Flat in 
Alaska, in danger by 2008. Staff reductions may be necessary at the 
Wallops Island Flight Facility in a matter of months if additional 
funds are not forthcoming to the sounding rocket program. I am 
delighted that Dr. Alan Stern, the new Science Mission Directorate 
(SMD) Associate Administrator, is taking actions now to remedy the sub-
orbital situation.
    The Explorer program is another prime example of the severe impacts 
in the Heliophysics program. Explorers are the original science 
missions of NASA, dating back to the very first U.S. satellite, 
Explorer I. They are universally recognized as the most successful 
science projects at NASA, providing insights into both the most remote 
parts of our universe and the detailed dynamics of our local space 
environment. The Advanced Composition Explorer (ACE) now stands as our 
sentinel to measure, in-situ, large mass ejections from the Sun and the 
energetic particles that are a danger to humans in space. Two 
relatively recent Explorers, TRACE and RHESSI, study the dynamics of 
the solar corona where large solar storms originate, storms that often 
threaten satellites and other technological assets on which we depend. 
The recently launched THEMIS constellation and the AIM mission were 
both done under the Explorer program aegis. Explorers are among the 
most competitive solicitations in NASA science, and offer opportunities 
for all researchers to propose new and exciting ideas that are selected 
on the basis of science content, relation to overall NASA strategic 
goals, and feasibility of execution. As noted in the figure above, the 
FY 2008 proposed run-out for Explorers will mean a program that is 
reduced by over half from its proposed FY 2004 guidelines. I am again 
encouraged by the fact that a new Announcement of Opportunity for Small 
Explorers will be released, thanks to Dr. Stern, by October 2007.
    A specific continuing concern to university-based scientists is the 
impact on the sustaining Research and Analysis (R&A) budgets. The R&A 
program initiates many of the new, small scientific efforts that 
eventually lead to the major missions that NASA pursues. R&A grants are 
highly competitive, maximize the science investment of on-going 
missions by allowing all scientists to use available data, and are 
heavily geared toward student and young faculty participation. These 
are moderate-duration efforts, usually lasting three to four years, 
where new hardware and theoretical approaches are explored. NASA was 
forced last year by budget realities to propose an across-the-board 
reduction of 15 percent in these programs. This may not appear 
catastrophic at first sight, but a sudden reduction in such a long-term 
program can have huge effects. If the budget were allowed to grow once 
again, the R&A program would slowly recover over the next few years. 
However, with the present budget prospects, there is skepticism about 
such future restoration. There is widespread recognition that these 
realities will inevitably reduce the number of new students who enter 
university programs such as mine.

2.  Does the Heliophysics program reflect the priorities of the NRC 
Decadal Survey in solar and space physics?

    Whereas NASA is attempting to implement some of the highest 
priority programs from the NRC's 2003 Decadal Survey, the pace and 
balance of activities seems highly unlikely to achieve the Decadal 
goals. In 2004, an NRC committee was tasked to assess the role of solar 
and space physics in the Vision for Space Exploration--Solar and Space 
Physics and Its Role in Space Exploration. This committee stated that:

         NASA's Heliophysics program depends upon a balanced portfolio 
        of space flight missions and of supporting programs and 
        infrastructure. There are two strategic mission lines--Living 
        With a Star (LWS) and Solar-Terrestrial Probes (STP)--and a 
        coordinated set of supporting programs. LWS missions focus on 
        observing the solar activity, from short-term dynamics to long-
        term evolution, that can affect the Earth, as well as 
        astronauts working and living in a near-Earth space 
        environment. Solar-Terrestrial Probes are focused on exploring 
        the fundamental physical processes of plasma interactions in 
        the solar system.

    Solar and Space Physics and Its Role in Exploration examined the 
2003 Decadal Survey and made the following three recommendations:

        1.  To achieve the goals of the exploration vision there must 
        be a robust program, including both the LWS and the STP mission 
        lines, that studies the heliospheric system as a whole and that 
        incorporates a balance of applied and basic science.

        2.  The programs that underpin the LWS and STP mission lines--
        MO&DA [Mission Operations and Data Analysis], Explorers, the 
        sub-orbital program, and SR&T [Supporting Research and 
        Technology]--should continue at a pace and level that will 
        ensure that they can fill their vital roles in Heliophysics 
        research.

        3.  The near-term priority and sequence of solar, heliospheric, 
        and geospace missions should be maintained as recommended in 
        the Decadal Survey report both for scientific reasons and for 
        the purposes of the exploration vision.

    These recommendations remain valid today and the mission priorities 
within the basic (STP) and applied (LWS) science mission lines as 
listed in the original Decadal Survey are basically reflected in the 
Heliophysics budgets for these two mission lines. Where NASA has 
deviated from the Decadal Survey is in putting greater weight on Living 
With a Star missions and losing the balance between applied and basic 
science. Such a priority of emphasizing short-term capability of 
predicting space weather over the long-term goal of understanding the 
underlying physical principles may have some practical expedience. A 
more critical issue, however, is the fact that small missions and 
supporting research have not kept pace. If these budgets are allowed to 
decline greatly, Heliophysics will quickly cease to be a robust, viable 
discipline. It now appears that with mission cost growth and reduced 
Heliophysics funding, it is very unlikely that most Decadal Survey 
missions will be completed within the decadal window.
    The Sun to the Earth--and Beyond was the first Decadal Survey 
conducted by the solar and space physics community. The Decadal Survey 
involved hundreds of scientists in discussions that spanned nearly two 
years. The scientific priorities set out in the survey remain valid 
today and there is no community movement to change them. But Decadal 
Surveys are not just a list of science priorities. To design a coherent 
program across a decade it is essential to have a realistic budget 
profile as well as reasonably accurate estimates of both technical 
readiness and costs of each mission. The Decadal Survey committee 
worked hard with engineers and NASA management to develop realistic 
mission costs and a program architecture that fit within budget 
profiles anticipated in the FY 2003 budget. But changes to the budget 
profile beginning in FY 2005 necessitated a substantial stretching of 
the mission schedule. Furthermore, under-costing of just a few missions 
wreak havoc with even the best-laid plans. The scientific community 
needs to work with NASA to find ways to cost missions accurately, 
particularly large missions (for example, by applying lessons learned 
from management of smaller, PI-led missions as appropriate, and 
insisting upon greater accountability).

3.  What are the three top risks facing the Heliophysics program over 
the next five years?

    Heliophysics, like most of the NASA science enterprise, is 
significantly affected by some very basic, systemic issues. These 
issues spread throughout all programs, projects, and missions. A 
continued forward propagation of these problems ultimately represents a 
huge level of risk for the sub-disciplines of the SMD and for the 
Agency as a whole:

<bullet> Prudent Management of Risk. Getting into space, working in 
space (either for humans or for machines), and returning appropriate 
data from space is an inherently ``risky'' business. Despite highly 
competent people exercising all sensible and prudent care, there can be 
failures of space missions. For those programs involving humans and 
human life, truly heroic measures must be employed and extraordinary 
efforts must be extended to assure that missions do not fail: In the 
human space flight realm, failure is not an option.
    In the robotic exploration realm, there are a wide range of mission 
sizes and costs. Very large, high-profile missions of great complexity, 
international prominence, and resource investment may have to be 
safeguarded by many levels of review and hardware redundancy. Such 
approaches tend to drive up program costs tremendously. However, for 
smaller missions, there is a proper level of redundancy, scrutiny, and 
oversight that matches the program scale. To do more than this ``due 
diligence'' drives costs for even small-end missions to extraordinary 
levels. Such fear of failure, or undue ``risk aversion'' is having very 
detrimental effects on Heliophysics missions.
    What we really need to focus on is the management of risk. Since 
the first Explorer, almost 50 years ago, NASA science projects have 
been extraordinarily successful. But over the years, the management 
procedures and quality assurance burden for robotic science projects 
has grown to an almost unsustainable level--commensurate with human 
space flight missions--without any quantifiable impact on improving the 
ultimate reliability of science missions (as far as many scientists can 
discern). In my view, the American people accept the idea that the 
space business is risky, especially during launch and re-entry. Given 
launch risks, it makes no sense to spend hundreds of millions of 
dollars on procedures that might improve the reliability of payloads 
far beyond, say, the 98 percent or 99 percent reliability level.
    There is considerable debate whether present reliability approaches 
are actually achieving more assurance than this. We have all learned 
that unnecessary risk in human space flight programs has tragic 
consequences and clearly more must be done to minimize that risk. It is 
equally true that not taking risks in leading-edge robotic science 
projects has undesirable results. Not only must science continue to 
push the technological envelope where failure is a risk that 
accompanies new ideas, but these projects provide opportunities for 
training staff and students in an environment where failure is not 
life-threatening, and where a student can gain hands-on experience in 
the real work of building state-of-the art instrumentation. Having 
gained this expertise, these students can go on to form the workforce 
of future operational robotic science missions and human space flight 
missions.

<bullet> Lack of affordable access to space. A major hallmark of the 
past science program of NASA has been the regular, frequent launches of 
a balanced portfolio of small, medium, and large missions to address 
key science questions and to test new enabling technologies. 
``Balance'' in this context does not mean equal dollars in all mission 
categories, but rather it means appropriate investment in small-end 
missions targeted toward specific science questions and toward 
workforce development, as well as investments in major flagship 
programs. In my view, there should be heavy emphasis on smaller 
spacecraft and sub-orbital missions. (This idea has been endorsed by 
last year's NRC report An Assessment of Balance in NASA's Science 
Programs).
    Unfortunately, the cost of launching missions into space has grown 
out of all proportion to the cost of small scientific satellites and 
payloads. This imbalance between payloads and launch costs is 
destroying the ability of the Heliophysics Division to develop and 
maintain its regular, frequent launches of Small Explorers, University-
Class Explorers, and even Solar-Terrestrial Probe missions. The risks 
associated with increasing costs of access to space, in my view, are 
threatening to sink the entire carefully-laid plans for Heliophysics 
science.
    There are some disturbing recent signs in the access to space 
arena. One of the longest-serving launch vehicles for NASA missions, 
the Boeing Delta II vehicle, is being eliminated as an option for 
future science programs. Much of the NASA medium-lift needs for Earth-
orbiting and planetary missions was carried out using the Delta II. 
Losing the ``sweet spot'' around which so many NASA launches were 
planned will, I fear, propagate in highly detrimental ways throughout 
the space science enterprise.
    I have also mentioned above the removal of funding for the RBSP 
Missions of Opportunity. It is hard to imagine a more cost-effective 
investment that NASA can make than to launch instruments on commercial 
or partner-nation spacecraft. For a relatively small NASA investment, 
the science enterprise gains access to a highly leveraged program and 
can often provide a complementary science capability that lends a 
robustness and insurance that could not be afforded any other way. I am 
very encouraged that Dr. Stern has voiced strong public support for 
MoOs.

<bullet> Erosion of trained workforce. A key to the success of NASA as 
a whole, and Heliophysics in particular, is the availability of 
hardware-educated scientists and ``hands-on'' trained engineers. Nearly 
all space projects require a great deal of technical competence, and a 
correspondingly competent workforce. There has been a steady erosion of 
that workforce, not only at NASA but across the entire country, and 
this fact has been decried from many quarters. The NRC report, ``Rising 
Above the Gathering Storm,'' makes this case most emphatically. Other 
technical industries have been able to compensate somewhat by tapping 
the pool of highly-trained immigrants and foreign students, and they 
often outsource work abroad. But spacecraft are ITAR sensitive items, 
so this pool is not available to NASA or to its outside space-
enterprise partners, even to universities, because of the constraints 
of the law. All the space programs at NASA, DOE, NOAA, and the DOD feel 
this shortage acutely. And the situation will probably just get worse 
unless something is done.
    NASA commissioned the NRC to study how the workforce necessary to 
carry out the Vision for Space Exploration can be maintained given the 
impending retirement of much technical talent. The report, released 
earlier this week, cites the need for more highly skilled program and 
project managers and systems engineers who have acquired substantial 
experience in space systems development, and identifies limited 
opportunities for junior specialists to obtain hands-on space project 
experience as one of the impediments to NASA's ability to execute the 
Vision. The report recommends that NASA place a high priority on 
recruiting, training and retaining skilled program and project managers 
and systems engineers, and that it provide hands-on training and 
development opportunities for younger and junior personnel (Building a 
Better NASA Workforce: Meeting the Workforce Needs for the National 
Vision for Space Exploration, p. 7).
    It is clear that there is a shortage of engineers and scientists 
who have actually built space hardware, and know how that hardware can 
be integrated and function within larger, more complex systems. NASA 
science programs are a critical source of this needed native talent, 
whether they remain in NASA science programs or move out into the 
larger industrial base. Education at its very best is a process of 
discovery and of trial-and-error: the efficacy of learning-by-doing has 
been proven over many years.
    NASA needs to maintain its investment in space science programs 
that allow universities to attract and engage undergraduate and 
graduate students in all aspects of mission development and 
deployment--from proof of concept studies, to proposal submittal, to 
prototype development, to launch, data analysis, and publication. 
Whether these programs have short or long time horizons, there are ways 
to allow the next generation of space scientists to participate in all 
aspects of an exciting NASA mission.

4.  What would be the top three investments that could be made to 
benefit the Heliophysics program over the long-term?

    The Heliophysics Division would benefit substantially in the long-
term from several immediate investments. These include not only 
dollars, but ``intellectual capital'' and renewed commitments to a 
properly balanced experimental, theoretical, and modeling program.

<bullet> Lower cost and frequent access to space. In my view, the 
single greatest impediment to a healthy and vigorous Heliophysics 
program is the uncertainty and cost of getting spacecraft and sub-
orbital missions launched. Obviously, the Heliophysics Division cannot, 
and should not, pay for developing new launch vehicles. But HPD, NASA 
in general, the Congress, and other stakeholders should work together 
to make sure that every avenue for launching space hardware is made 
readily available to research teams. This should include less expensive 
domestic launch vehicles, ``military'' launchers (such as the Minotaur 
rocket), secondary launch capabilities on commercial and U.S. military 
vehicles, and unfettered access to non-U.S. launch vehicles. In the 
latter category are launches on European, Indian, Japanese, and other 
launch systems that can offer very attractive prices for access to 
space. A secondary launch on an Ariane 5 vehicle, for example, could be 
obtained for as little as $1 million or so.
    In this category of access to space, I would also place Missions of 
Opportunity (MoOs). Launching NASA instruments or payload suites on 
commercial or military vehicles, or on-board foreign spacecraft, can 
provide tremendous ``bang for the buck.'' I know from public statements 
by Dr. Stern that he recognizes the power and benefits of MoOs and I 
hope this avenue to space can be pursued aggressively. The MoO 
component should certainly be restored explicitly to the Radiation Belt 
Storm Probe program.

<bullet> Regular cadence and more frequent small-end missions. As 
pointed out above, the key to a healthy, robust Heliophysics program is 
to have more and better opportunities for Small Explorer (SMEX), 
University-Class Explorer (UNEX), and sub-orbital missions. This 
emphasis is wholly consistent with the Decadal Survey recommendations 
and it fulfills a wide variety of programmatic, educational, and 
workforce training goals that I have alluded to above. The investment 
necessary to achieve the desired outcome in this arena could be readily 
accomplished (I believe) by restoring the Explorer mission line to the 
budgetary level that existed in the FY 2004 budget plan (?$350 million 
per year). The combination of sound management approaches, reasonable 
launch costs, sensible numbers of reviews, and appropriate levels of 
risk tolerance would, I maintain, allow a very vigorous small-mission 
capability within Heliophysics for a very modest amount of new 
budgetary authority.

<bullet> Improve management of mission costs. As has been alluded to 
above, the Heliophysics missions--as with most of NASA programs--have 
increased in cost to well above the levels planned in the 2003 Decadal 
Survey. Much of this has been due to factors touched on earlier: access 
to space has become prohibitively expensive and ``risk aversion'' has 
increased mission development costs to extraordinary heights. I believe 
that Heliophysics should invest time and money now into developing an 
approach to mission management that uses prudent levels of reviews and 
much wiser risk mitigation strategies. Some years ago--perhaps a decade 
or so--``best practices'' were developed for PI-led missions and I 
firmly believe those practices could and should still serve as the 
basis for managing essentially all Heliophysics instrument and 
spacecraft programs. A small investment now in improved management 
approaches both at NASA Headquarters and NASA Centers would pay 
tremendous future dividends.

Summary

    Fortunately, smaller-end programs such as R&A, sounding rockets, 
and the Explorer mission line could be restored to the levels 
anticipated in the FY 2004 budget by infusions of modest amounts of 
budget authority. For the larger Heliophysics programs (Solar-
Terrestrial Probes and Flagship missions), comparatively higher levels 
of resources are required. Better management of programs and 
containment of cost growth is clearly necessary to stretch available 
dollars. However, absent a restoration of more balanced budgets to 
levels planned as recently as FY 2004, it will not be possible to have 
a robust program that is capable of meeting high priority national 
needs.
    Thank you very much for your attention.

                     Biography for Daniel N. Baker
    Dr. Daniel Baker is Director of the Laboratory for Atmospheric and 
Space Physics at the University of Colorado-Boulder and is Professor of 
Astrophysical and Planetary Sciences there. His primary research 
interest is the study of plasma physical and energetic particle 
phenomena in planetary magnetospheres and in the Earth's vicinity. He 
conducts research in space instrument design, space physics data 
analysis, and magnetospheric modeling.
    Dr. Baker obtained his Ph.D. degree with James A. Van Allen at the 
University of Iowa. Following postdoctoral work at the California 
Institute of Technology with Edward C. Stone, he joined the physics 
research staff at the Los Alamos National Laboratory, and became Leader 
of the Space Plasma Physics Group at LANL in 1981. From 1987 to 1994, 
he was the Chief of the Laboratory for Extraterrestrial Physics at 
NASA's Goddard Space Flight Center. From 1994 to present he has been at 
the University of Colorado.
    Dr. Baker has published over 700 papers in the refereed literature 
and has edited five books on topics in space physics. He is a Fellow of 
the American Geophysical Union, the International Academy of 
Astronautics, and the American Association for the Advancement of 
Science (AAAS).
    He currently is an investigator on several NASA space missions 
including the MESSENGER mission to Mercury, the Magnetospheric Multi-
Scale (MMS) mission, the Radiation Belt Storm Probes (RBSP) mission, 
and the Canadian ORBITALS mission. He has won numerous awards for his 
research efforts and for his management activities including 
recognition by the Institute for Scientific Information as being 
``Highly Cited'' in space science (2002), being awarded the Mindlin 
Foundation Lectureship at the University of Washington (2003) and being 
selected as a National Associate of the National Academy of Sciences 
(2004). Dr. Baker has been chosen as a 2007 winner of the University of 
Colorado's Robert L. Stearns Award for outstanding research, service, 
and teaching. Dr. Baker presently serves on several national and 
international scientific committees including the Chairmanship of the 
National Research Council Committee on Solar and Space Physics and 
membership on the Space Studies Board. Dr. Baker recently served as 
President of the Space Physics and Aeronomy section of the American 
Geophysical Union (2002-2004) and he presently serves on advisory 
panels of the U.S. Air Force and the National Science Foundation. He 
was a member of the NRC's 2003 Decadal Survey Panel for solar and space 
physics and he was a member of the 2006 Decadal Review of the U.S. 
National Space Weather Program.

    Chairman Udall. Thank you, Dr. Baker.
    Dr. Burns.

STATEMENT OF DR. JOSEPH A. BURNS, IRVING P. CHURCH PROFESSOR OF 
ENGINEERING AND ASTRONOMY; VICE PROVOST, PHYSICAL SCIENCES AND 
                ENGINEERING, CORNELL UNIVERSITY

    Dr. Burns. Chairman Udall, Ranking Member----
    Chairman Udall. Dr. Burns, if you would turn your 
microphone on.
    Dr. Burns. That works much better. Let me try that again.
    Chairman Udall, Ranking Member Calvert, and Representative 
Johnson, I sincerely appreciate this opportunity to testify to 
you today.
    Since Sputnik's launch 50 years ago this October, all 
Earth's peoples have been privileged to participate as our 
planetary environs have been explored, discovered, and 
understood, to invoke NASA's mantra.
    This continues today. We have two twin Mars rovers that 
are--carried back the story that there--Mars was once wet. We 
have a remarkable spacecraft in orbit around Saturn, the 
Cassini spacecraft. We also have Alan's New Horizons. It has 
just slipped past Jupiter a few months back.
    So this is a--America's planetary exploration program today 
is indeed doing extremely well, but its future is quite 
uncertain. I submit that an appropriate analogy might be that 
today's planetary program is a powerful ship that appears to be 
staunchly cruising along, but our vessel is sailing so smoothly 
nowadays principally because of yesterday's investments. 
Without continued investment and attention, the ship's momentum 
will inexorably drain away.
    Today's craft is running low on fuel. Some of its machines 
are not being properly maintained. Upgraded, improved 
replacement instruments are unavailable, and sadly, to me, the 
boat's crew is aging.
    Fortunately, to deal with these treacherous times, we have 
a new Admiral, Alan, and a new Captain to our ship, Jim Green. 
These are excellent choices, and we are very pleased to be able 
to work with them.
    I would like to move to your question--the questions that 
you asked me. The first concern, mission mix. Missions are, of 
course, the engineering marvels that provide us the capability 
to explore, as NASA's slogan states. So how do the various 
missions and their mix fare in the fiscal year 2008 budget and 
beyond?
    The pace of the future Discovery missions seem about on 
track right now, after several years of delayed selections. The 
New Frontiers line, the middle line, seems also on track, 
roughly. I am sorry, has fallen to half of the plan grade. The 
next selection should be made in the next year to get this 
program back on track.
    Once again, there are no new flagship missions in the 
planetary area, and the fact no funds are available in the 
foreseeable future to actually build and fly any flagship, if 
one were to be selected. Mars flight missions have been reduced 
from a nominal two launches per opportunity to just one every 
two years.
    So the reigning in of the aspirations of the planetary 
program is a direct consequence of fewer dollars being 
available. The Agency budget has not grown to accommodate the 
President's exploration vision, and NASA has covered its 
shortfall by draining three or $4 billion from the science 
program, much of that coming from solar system exploration, 
especially the Mars program.
    I am especially perplexed that NASA should--would choose to 
lessen robotic solar system studies, especially investigations 
of Mars, given the ultimate destination for the President's 
vision.
    Much of the slowdown in America's exploration of the solar 
system is not presently apparent, because most of the pain has 
been deferred to past 2010. Planetary missions require 
technological development, an educated work force, an excited 
work force, advanced planning, especially if we are to 
collaborate with international partners.
    What about research and analysis funds? Research and 
analysis funds have dropped by one-quarter since fiscal year 
2005. The budget that you are considering today recommends that 
this line continue to slip further behind the inflation rate, 
in clear contradiction to the decadal report.
    Yet, it is only through these studies that the American 
population will understand the data that is being Mars, Saturn 
and our other outposts. We can only plan for the future wisely 
if we have sufficient R&A funds.
    Similarly, if we are to discover things, that whole process 
becomes problematic if there are only limited opportunities 
exist to analyze the mission results. Funding for data analysis 
should increase in proportion to the growing data volume and 
the diversity of targets that we are visiting.
    What are the top risks for the next five years? The future 
U.S. space enterprise is jeopardized by the loss of its core 
competencies, both in technology development and personnel, and 
this is a consequence of inadequate base program resources. 
Furthermore, the rapid growth in mission costs limits the 
nature and number of flights that we can fly. And finally, the 
lack of a long lived power sources will prevent any missions to 
the outer solar system.
    What are especially beneficial strategic investments? I 
believe investments in core technologies, science instruments 
and infrastructures, such as the Deep Space Network, will be 
most fruitful for the long-term health of the planetary 
exploration program.
    The overall budget for solar system exploration should be 
reinstated so as to allow a continuing reasonable rate of 
Discovery and New Frontier flights, but also a new flagship 
mission, since all classes of mission size play important roles 
in any balanced plan. A sharp increase in R&A funds are 
essential to a healthy program.
    In conclusion, these are exciting times for the planetary 
program. Unfortunately, budgetary constraints are jeopardizing 
the future of this program. If the United States is to explore, 
discover and understand Earth's surroundings, as NASA claims it 
wishes to do, more attention and additional fundings are--
funding are required.
    Mr. Chairman and Members of the Committee, I thank you for 
your attention today, but most of all for your continuing 
support of the planetary exploration program.
    [The prepared statement of Dr. Burns follows:]
                 Prepared Statement of Joseph A. Burns
Mr. Chairman and Members of the Committee:

    I appreciate having this opportunity to testify before you today. 
For most of my professional life, I have been an active planetary 
scientist and an unabashed enthusiast for space exploration. I chaired 
the 1994 National Research Council (NRC) strategy for solar system 
exploration, and more recently I was a member of the NRC's 2003 decadal 
panel on planetary sciences. I also served as a panel member on the 
NRC's 2001 decadal report for astronomy and astrophysics.
    We meet at a time when, once again, NASA's planetary missions are 
returning truly remarkable results. For the last three years, the twin 
Mars Rovers have marched systematically across Mars's arid surface, 
poking their instruments into assorted rocks. These measurements and 
observations by several superb orbiting spacecraft have revolutionized 
our perception of the Red Planet, revealing it to have previously been 
episodically much wetter and perhaps even hospitable to life. Cassini, 
the most recent planetary flagship mission, is orbiting Saturn, where 
its broad instrument suite has been surveying this ringed beauty for 
nearly three years, finding that a disparate pair of Saturnian 
satellites--Titan and Enceladus--are potentially habitable islands in 
this frigid world. Stardust's capsule has returned samples of comet 
Wild-2's dust back to Earth and this material has testified about the 
turbulent nature of the gas/dust cloud that gave birth to our local 
planetary system. New Horizons peeked at Jupiter as it streaked past on 
its voyage to Pluto. And just last week, a Swiss team spied the 229th 
extra-solar planet, and a most special one: the first known so far, but 
for Earth, to reside in its star's habitable zone, where water--life's 
requisite ingredient--remains fluid. The early 21st century is truly a 
time of extraordinary discovery in planetary and other space sciences. 
The continuing generous and unwavering support of Congress and the 
American people has made these accomplishments possible.
    Starting with Sputnik's launch fifty years ago this October, all 
Earth's peoples--including you and I--have been privileged to 
participate as our planetary environs have been ``explored, discovered 
and understood'', to invoke NASA's mantra. Scientists believe that this 
exploration program addresses profound questions about our origins and 
that it provides unique insights into how our Earth functions as a 
planet. At the same time the public finds this investigation of Earth's 
surroundings to be inspiring and meaningful. January's issue of the 
popular magazine Discover listed its top-ranked one hundred findings 
across all scientific disciplines during 2006. Of these, fully one-
seventh came from astronomy, with half concerning solar system objects 
or extra-solar planets. So what could be better? The reason why we 
aren't all celebrating is, because, while America's planetary 
exploration program is indeed doing well currently, its future is quite 
uncertain.
    I submit to you that an appropriate analogy might be that today's 
planetary program is like a powerful ship that appears to be staunchly 
cruising along, making good progress as its crew explores and probes a 
rich, ever-surprising shoreline. But our vessel is sailing so smoothly 
nowadays principally because of yesterday's investments. Without 
continued attention, the ship's momentum will inexorably be drained 
away. In fact, today's craft is running low on fuel, some of its 
machines are not being properly maintained and upgraded, improved 
replacement instruments are unavailable, and sadly the boat's crew is 
aging. Surprisingly, this ship is from the Nation that has always led 
in exploration of the cosmos. Maybe other nations instead will guide 
humankind's search of the next shoreline, just as four centuries ago 
England replaced the Portuguese and the Spanish, partway through the 
exploration and subsequent development of the New World. Only if we are 
vigilant today will our ship's journey be secure, with it re-supplied, 
its instruments revitalized and its crew replaced.
    To carry our nautical analogy one step further, fortunately during 
these treacherous times NASA's Science Mission Directorate has a new 
admiral--Alan Stern--and the Planetary Science Division has a new 
captain--Jim Green. These are excellent choices--enthusiastic, 
knowledgeable and creative scientists who happily are also experienced 
and successful managers. They will be energetic advocates for--and 
tireless workers toward--a productive, healthy and effective planetary 
program.
    I now respond to the topics that you have asked me to address. 
Please note that my ordering is a little different than yours and that 
many of these items are linked so that my answers to one may overlap 
with another topic.

Mission mix

    Here I will restrict my comments to a consideration of missions; 
these engineering marvels provide us the capability to ``explore'' as 
NASA's slogan states. Technology development and research funding will 
be discussed in later sections.
    Planetary science's 2003 decadal survey recommends a finely tuned 
mix of mission sizes, each with its own programmatic purpose, cost cap 
and launch rate. Discovery missions (e.g., Deep Impact that slammed 
into comet Tempel-1 on July 4, 2005) permit rapid response to 
discoveries across a range of topics; such missions should launch every 
eighteen months or so. New Frontiers spacecraft (e.g., the New Horizons 
mission en route to Pluto and beyond) allow thorough study of pressing 
scientific questions, with a selection every two or three years. 
Flagship missions (e.g., the Cassini spacecraft presently observing the 
Saturn system)--comprehensive investigations of extraordinary high-
priority targets--should be flown at the rate of about one per decade. 
The separate Mars program has a comparable breakdown of mission classes 
into large, medium and small (Mars Scout) categories.
    How do the various missions and their mix fare in the FY08 budget 
and beyond? The pace of future Discovery missions seems about on track, 
after several years of delayed selections. The New Frontiers line has 
fallen to half the planned rate; the next selection should be made in 
the next year to get this program back on track.
    Once again, no new Flagships have been started. The Europa 
Geophysical Orbiter has been indefinitely deferred; it was THE Flagship 
mission recommended for this decade by the decadal study. In fact, at 
present, no planetary flagship mission is in development, an 
unprecedented situation that has not happened since the start of the 
American planetary program. Hence, in view of the necessary 
preparations and required budget, no major mission will be launched 
until 2017, and even that schedule will require a significant 
augmentation to the budget. I am somewhat encouraged that NASA has 
recently initiated $1M studies of four potential very capable missions 
to satellites of Jupiter and Saturn; three of these spacecraft would 
reconnoiter their targets for their suitability to sustain life. 
Nonetheless it should be recognized that no funds are available in the 
foreseeable future to actually build and fly any Flagship, if one were 
to be selected.
    Mars flight missions have been reduced from a nominal two launches 
per opportunity to just one every two years. To accommodate this 
change, the number of medium-class missions to the Red Planet is 
lowered, and two Mars Scouts are eliminated. In terms of Flagships, 
during the FY 2006 budget-rebalancing exercise, Mars Sample Return, a 
crucial mission to understand the Martian mineralogy and to develop a 
Martian chronology, was delayed from ``early in the next decade'' until 
at least 2024.
    The reining-in of the aspirations of the planetary program is a 
direct consequence of fewer dollars being available. The agency budget 
has not grown to accommodate the President's exploration vision, and so 
NASA has covered its shortfall by draining $3 B from the science 
program, 97 percent of that coming from solar system exploration, 
especially Mars. Thus the planetary program has become a source of 
funds to support other demands for NASA's needs. I am puzzled that NASA 
would chose to lessen robotic solar system studies, especially 
investigations of Mars, given the ultimate destination for the 
President's vision. The NRC's Space Studies Board has been steady in 
its belief that robotic exploration and human exploration are 
complementary ventures to understand and exploit Earth's neighbors.
    At the time when the American solar system exploration program is 
slowing down, our international partners (and competitors) are 
expanding theirs. The European Space Agency has very capable spacecraft 
orbiting each of Earth's planetary neighbors, as well as another well-
instrumented craft on its way to land on a comet. And soon yet more 
European spacecraft will be exploring the Moon, where it will join 
scientific missions from Japan, China and India. Now, when other 
nations have improved capabilities, we should be pursuing increased 
interactions with them. However, ITAR regulations hamper international 
cooperation on existing and planned space missions.
    Much of the slowdown in America's exploration of the solar system 
is not presently apparent because most of pain has been deferred to 
beyond 2011. . .to the next administration. But planetary missions 
require extended advanced planning, especially if we are to collaborate 
with international partners. For example, the Cassini-Huygens mission 
to Saturn, on which I am a member, started planning in the early 
1980's, selection of payload instruments and team members took place in 
1990, launch in 1997, arrival in 2004. Scientific results were not 
returned until more than twenty years after the mission was initially 
devised.
    The reduced run-out budget for the planetary division, coupled with 
growth in the cost to mount each of these mission classes, means that 
the planetary survey's plan is not attainable. New flight projects, 
especially for outer planet (see below) and Mars exploration, will not 
be started. The reduction in missions can be painlessly accommodated in 
the short term because the affected missions occur beyond 2011. 
However, if the workforce drifts away to other areas and if technology 
development lags, the loss to the U.S. planetary program will become 
increasingly irreversible. Analysts suggest that a minimum of at least 
$200 M more annually would be needed in the PSD budget in order to 
bring it in line with the strategic plans of the decadal survey.

Research and analysis funds

    Now I will address the support for research and analysis (R&A) and 
technology development. The 2003 planetary survey recommended ``an 
increase over the decade in the funding for fundamental research and 
analysis programs at a rate above inflation. . .[till it reaches] 
closer to 25 percent of the overall flight-mission budget.'' Instead 
R&A funding has fallen one-quarter from its FY05 level. The budget that 
you are considering today recommends that this budget line continue to 
slip further behind the inflation rate, in clear contradiction to the 
decadal report. Yet it is only through these studies that the American 
populace ``understands'' the data being returned from Mars, Saturn and 
other scientific stations.
    This continuing decline in R&A funding is troubling for several 
reasons. Improved understanding and answers motivate our visits to 
other solar system bodies; to accomplish these goals requires follow-up 
studies. When funds for supporting research are tight, scientists who 
are early in their careers are most affected. I know several young 
scientists who are contemplating career changes because they perceive 
bleak prospects with space missions. Moreover, any shortfall in the 
science and engineering workforce will damage the long-term technical 
and scientific capabilities that underpin the solar system exploration 
program. Finally, with few academic posts as yet in this emerging 
discipline and with limited interest to date from the defense/
commercial sectors, a higher fraction of the planetary community is 
supported by soft money than in other astronomical disciplines. Taking 
a bigger view, I am surprised that NASA's science program has not been 
considered part of the America's Competitive Initiative, for this 
program has drawn many to engineering and science as careers.
    NASA's goal to ``discover'' becomes somewhat problematic if only 
limited opportunities exist to analyze mission results. Funding for 
data analysis should increase in proportion to the growing data volume 
and the diversity of targets, now including solar wind samples, comet 
dust, remote-sensing data obtained by dedicated missions at terrestrial 
and giant planets and measurements taken at academic laboratories.

Top risks for next five years

    The future U.S. space enterprise is jeopardized by the loss of core 
competencies (both technology development and personnel) as a 
consequence of inadequate base-program resources. Furthermore, the 
rapid growth in mission costs limits the nature and number of flights 
that can be flown. Finally the lack of long-lived power sources will 
prevent missions to the outer solar system.
    Monies for technology development are limited. Nonetheless the 
American planetary program needs more capable instruments to perform 
more effectively in more difficult environs. For example, dollars could 
be saved and mission opportunities expanded if in-space advanced 
propulsion and more efficient radioisotope power systems were 
available. Future missions will require that samples be returned from 
inhospitable places and/or that on-site analytical tools be accessible. 
A healthy funding level would support new instrument development 
through space flight qualification. A limited budget causes a chicken-
and-egg problem: present-day funds cannot support both capable missions 
and the technology that makes those missions as worthwhile as they 
might be.
    Mission costs are rising quickly for several reasons. For some 
years NASA has been risk-averse and, in today's litigious society, this 
tendency has only increased. This leads to unnecessary oversight and 
documentation, with attendant costs, both financial and programmatic. 
The absence of an adequate technology development program requires 
either the costly ab initio development of new instruments or flying 
last year's technology. ITAR, which considers satellite technology to 
automatically be munitions under State Department rules, hamstrings 
spacecraft operations and complicates international space programs. 
Expendable launch vehicle costs are growing faster than inflation, 
because of the limited market. Discovery has a separate problem: the 
imminent phase-out of the Delta-II expendable launch vehicle, which 
will require future flights to be flown aboard the more-expensive and 
too-capable EELV (evolved extended launch vehicle) fleet, namely Delta-
IVs and Atlas-Vs. Given Discovery's fixed cost cap, substantial 
increases in launch-vehicle costs erode the science that these missions 
can achieve.
    The usual power supply for missions beyond Jupiter--RTGs containing 
plutonium-238--is increasingly scarce, meaning that new starts to outer 
solar system are no longer feasible. Unless this issue can be resolved 
to provide power on distant flights, the solar system no longer extends 
to comet belt, but rather it stops at Jupiter, something similar to 
halting Henry Hudson at the Azores. This is especially troubling as 
many of the discipline's highest priority targets--Jovian and Saturnian 
satellites plus Neptune/Triton--are very distant. These power 
generators are also preferred for energy-intensive explorations of 
Mars.

Especially beneficial strategic investments

    Investments in core technologies, science instruments and 
infrastructure will be most fruitful for the long-term health of the 
planetary exploration program. Such investments are likely to also 
benefit other parts of NASA, additional federal agencies that have 
space platforms and the commercial sector.
    The overall budget for solar system exploration should be 
reinstated so as to allow a continuing reasonable rate of Discovery and 
New Frontier flights, but also a new Flagship mission, since all 
classes play important roles in any balanced plan. A sharp increase in 
R&A funds is essential to a healthy program.
    The Human Exploration program needs to be stabilized in order to 
minimize its potentially adverse impact on science programs. The 
Shuttle should be retired by 2011 to obviate serious concerns about its 
safety. Moreover, the operational costs of the Shuttle are eating 
NASA's lunch (and dinner!).

Place of NASA's proposed lunar science initiative

    In spite of the current drought in new mission starts, humankind's 
exploration of the Moon is reasonably robust, thanks in part to 
significant international involvement. At the Moon, or soon to be 
launched, are six lunar missions: four from other nations (Europe, 
China, Japan and India) as well as a U.S. Lunar Reconnaissance Orbiter 
and a U.S. Lunar Crater Observation and Sensing Satellite. With this 
expansion of information about the Moon, it may be time to reassess the 
adequacy of the current lunar research budget line to benefit fully 
from the returned results about the surface and interior of Earth's 
natural satellite.
    In addition to these more focused missions, one of the decadal 
study's recommended New Frontiers was to return samples from a deep 
lunar crater, partly to learn what the lunar interior can tell about 
the Moon's origin, but also to develop technology that may be deployed 
at Mars and Venus as well as on comet nuclei. This mission has not yet 
been selected, but it undoubtedly will be a candidate in the next 
round. In the more distant future, we have the prospect of human 
exploration of the Moon beginning as early as 2020. All told, these 
programs form a sustainable initiative of lunar science exploration.

Concluding Remarks

    These are exciting times for the planetary program. Unfortunately 
budgetary constraints are jeopardizing the future of this program. If 
the United States is to ``explore, discover, understand'' Earth's 
surroundings, as NASA claims it wishes to do, more attention and 
additional funding seem to be required. The planetary science community 
believes that, with Congressional support, and new very capable leaders 
at the helm of our ship of discovery, our nation's exploration of the 
solar system will continue to make great progress in understanding our 
neighboring worlds.
    Mr. Chairman and Members of the Committee, I thank you for your 
attention today, but most of all for your continuing support to NASA's 
planetary exploration program.

Outline of Joseph A. Burns's remarks to the U.S. House Science 
                    Committee 5/2/07

    The U.S. planetary program is producing extraordinary scientific 
results across the solar system as a result of long-term support from 
Congress. However, the proposed FY08 budget i) is insufficient to allow 
the mix and pace of flight missions that was recommended by the 2003 
planetary decadal survey; ii) should be augmented to support more data 
analysis; and iii) falls far short of the funds that would adequately 
strengthen the necessary associated Research and Analysis. The top 
risks faced by NASA's Planetary Science Division are inadequate funding 
of technology development, lessened availability of suitable flight and 
power systems, rising mission costs and the dwindling supply of 
plutonium to allow missions to the outer solar system. Additional 
strategic investments in infrastructure, core technologies and 
scientific personnel would prove especially valuable for the long-term 
vitality of the U.S. solar system exploration program. The lunar 
exploration program is reasonably sound, principally because of 
international missions. Without augmented funding, it is questionable 
whether NASA will be able to fulfill its stated goal of ``explore, 
discover, understand.''

                     Biography for Joseph A. Burns
    Joseph A. Burns is the Vice Provost for Physical Sciences and 
Engineering, the Irving Porter Church Professor of Engineering and 
Professor of Astronomy at Cornell University. Joe received a B.S. from 
Webb Institute of Naval Architecture in 1962; Cornell awarded his Ph.D. 
in space mechanics in 1966. In addition to his activities in Ithaca, 
Burns has held year-long appointments at two NASA facilities (Goddard 
Space Flight Center and Ames Research Center), at UC-Berkeley and at 
the University of Arizona. Burns has also spent extended leaves in 
Moscow, Prague, and Paris. He is a member of the imaging teams for the 
Cassini (Saturn) and Rosetta (European comet) missions, and was an 
associate of the Galileo imaging team.
    Burns has written more than two hundred papers--both original 
research and extensive review articles--in the refereed literature. His 
current research concerns the orbital and rotational evolution of solar 
system bodies, especially planetary rings and the small bodies of the 
solar system (dust, satellites, comets and asteroids). Using ground-
based telescopes and spacecraft, his students and he have discovered 
dozens of irregular satellites and several planetary rings.
    Burns edited Icarus, the principal journal of planetary science, 
between 1979-1997. He edited two books, Planetary Satellites (1977) and 
Satellites (1986). He currently sits on the editorial boards of 
Science, Icarus and Celestial Mechanics & Dynamical Astronomy. Joe has 
served on many NASA scientific advisory groups and two terms on the 
Space Studies Board of the National Research Council (NRC), chairing 
its Committee on Planetary and Lunar Exploration; the latter wrote the 
NRC's first planetary exploration strategy in 1994. He also sat on the 
executive committee for the 2003 planetary decadal report and was a 
panel member for the astronomy community's 2001 decadal strategy. He 
has been Vice President of the American Astronomical Society; earlier 
he led its Divisions for Planetary Science (DPS) and on Dynamical 
Astronomy (DDA). He chairs the International Astronomical Union's 
Commission on celestial mechanics and dynamical astronomy. Burns is a 
fellow of the American Geophysical Union and of the AAAS, a member of 
the International Academy of Astronautics, and a foreign member of the 
Russian Academy of Sciences. He has received the DPS's Masursky Prize, 
the USSR's Schmidt medal and several NASA awards for research 
achievements.
    Funding. Professor Burns's current personal research support comes 
solely from NASA. He has held a Planetary Geology and Geophysics grant 
for theoretical and dynamical modeling for many years. He is funded as 
an imaging team member of the Cassini mission at Saturn by the Jet 
Propulsion Laboratory. These grants pay for two post-doctoral 
associates and a graduate student, and part of Burns's summer salary. 
His work as an imaging team member on the European Rosetta comet 
mission is unfunded. Burns has previously received grants from the NY 
Council on the Arts, NATO, the National Research Council' Soviet 
Exchange Program and the NSF. As Vice Provost for Physical Sciences and 
Engineering, Burns is Cornell's cognizant administrator over about a 
dozen interdisciplinary research centers, most of whose primary grants 
are from the NSF.

                               Discussion

    Chairman Udall. Thank you, Dr. Burns. I want to thank the 
panel in general. We will move now to the period where we will 
ask a series of questions. I think we are going to at least 
have a couple of rounds, and perhaps a third round, depending 
on what is happening on the Floor. And Dr. Stern, I am going to 
start with the rest of the panel, but I want you to know that 
we will come back to you. And since we have the panel here, I 
would like to ask each of the witnesses, you heard Dr. Stern 
testify about his vision priorities. I would like ask each of 
you what, in your opinion, is the most important issue that Dr. 
Stern needs to address as head of the--Science Mission 
Director.
    I should say I am yielding myself the five minutes here, 
and we will move to Mr. Calvert. So we will start with Dr. Fisk 
and move across.

                      Most Important Issue for SMD

    Dr. Fisk. First of all, let me state that I have great 
faith that Alan's going to make really good decisions, and the 
reason is, I believe he understands from his experience, having 
been a working P.I. and having been from the community, 
understands the issues that we are facing in the community.
    In very simple terms, the issue is--and the one we have 
flagged throughout this--these statements, in fact, is the 
balance what we are doing at the moment and what we--and how to 
protect the future of this program. And the future of the 
program is in people, the future of the program is in new 
technologies. The future of the program is in new missions, and 
we have to create the right investments in that future in this 
current budget in order to make sure that the space program 
goes on and is productive for the decades to come.
    We are not ending this adventure. This adventure is only 
beginning, and the question is, how do we make sure that we are 
doing today protects, enhances and makes possible that future?
    Chairman Udall. Dr. Illingworth.
    Dr. Illingworth. Yes, thank you.
    I think all of us who have been involved in space missions 
recognize that there are very long lead times, often decades or 
more. I actually was involved in one of the first meetings that 
was organized for JWST in 1988. It would be 25 years before we 
launched that program, and this is not uncommon.
    And so, a lack of funding profile in the future, 
unfortunately, eats the seed corn for the future as well. That 
if we are at the position where we are not building a strong 
people base, a strong technological base, we are placing our 
future program at risk in ways that are not immediately 
obvious.
    Fortunately, I think Alan and his group, because of his 
recognition of this, having been a working P.I., is strongly 
concerned about this, and the statements that he has made over 
the last month, and moves that he has done in bringing in new 
people, I think have been very good. But it will be a 
challenge, because it also requires resources to do this. So it 
is recognition one, and then resources two. Thank you.
    Chairman Udall. Dr. Baker.
    Dr. Baker. I believe that the amount of money that is 
available for science in NASA, $5.4 billion or so, is a 
tremendous amount of money, and can be used more effectively 
than it is being used.
    I believe that number--the steps that Alan has outlined in 
his testimony and in his public statements, I think, has the 
potential for utilizing those resources very, very effectively.
    I think that taking steps at the smaller end of the 
spectrum requires less dollars, but has dramatic effects, the 
sub-orbital program, the research and analysis. Smaller 
missions such as Explorers or systems--science pathfinders, 
these are things that can be worked on, can be relatively 
readily remedied, compared to some of the larger, more 
challenging flagship missions in the--so I strongly support 
what my colleagues have said, and I believe that, from what I 
have seen, Alan is taking some very good initial steps in this 
direction.
    Chairman Udall. Thank you, Dr. Baker. Dr. Burns.
    Dr. Burns. I am going to say much the same. Mainly, we need 
to support the core infrastructure, especially R&A, research 
and analysis funds. Making those funds difficult to obtain 
affects, especially people who are early in their careers, and 
so we are seeing youth drift away.
    And that is something--the, you know, if the work force 
drifts away to other areas, and if technology development lags, 
the loss to the program will become increasingly irreversible.
    Chairman Udall. Thank you, panelists. I am going to, at 
this point, yield five minutes to the Ranking Member, Mr. 
Calvert.

      Measures to Reduce Mission Costs, Specifically, Management, 
                      Oversight and Risk Reduction

    Mr. Calvert. Thank you, Mr. Chairman. One thing that we 
heard, I think, consistently through the panel was reducing 
mission costs.
    I think I will start with you, Dr. Stern. From the 
perspective of management and oversight and risk reduction, 
what measures can NASA take that would provide meaningful help 
to reduce mission costs? And maybe you can provide some 
management examples of, you know, is there too much risk 
reduction work, do you believe there is unnecessary paperwork, 
other costs that are imposed upon these programs that make the 
investment impractical? And after you answer the question, I 
will ask the panel to add to the answer.
    Dr. Stern. Yes, sir. Well, you and the panel members had 
pointed this whole problem out, had your finger on something 
very important. We would, in fact, despite how ambitious, with 
93 missions in development or flight, and our program is, we 
would, in fact, have more missions in development were we 
better able to control costs on the same budget. And so, I am 
setting out to do that.
    Really, our missions in the space science directorate fall 
in two categories. There are principal investigator led 
missions, and then those larger missions that are done 
strategically at the centers.
    With regard to the centers, Administrator Griffin has 
wisely put in place a new policy that our cost estimating will 
be done at the 70 percent confidence level, a much higher 
confidence level than in the past. This causes us to have a 
greater degree of realism as we budget for missions.
    We have to marry that with stronger controls so that we 
stay within that, but at least we are going to be able to begin 
now with a much more realistic view of what missions cost and 
don't have unrealistic expectations that are dashed.
    With regard to principal-investigator led missions, some of 
those have also run into problems. And we put in place a couple 
of things that I think will help.
    First, in this new Explorer announcement of opportunity 
that we have just called for, and which will be out later this 
year, we are calling for a minimum experience level for the 
principal investigators themselves. These are the project 
leaders, the scientist that runs the project.
    Previously, there was no minimum experience level, so a 
scientist who had not been involved in space flight could write 
a sufficiently good proposal and lead a team to a win, and 
sometimes that gets you in trouble. You know, you may wake up 
in the morning and want to do brain surgery, but it doesn't 
mean that you can do it. Space flight is an art, and I think 
this is an important new step that we are taking.
    Let me mention just one other--we are going to be willing, 
in the future, when missions get into trouble, and a principal 
investigator is not controlling the cost of their mission, to 
consider and then execute on changing the principal 
investigator.
    And this would be a very strong feedback loop, because to 
the principal investigator, and I speak as one myself, having 
been involved in 24 space flight missions, that the only 
incentive for the scientist leader of the project is to collect 
and analyze the data and make discoveries, not to carry out the 
project.
    And so, the control mechanism that we will put in place, 
where the principal investigators know that their job is on the 
line as the leader if they can't perform, if their view of a 
P.I. led mission is that the P.I. is led around, then they are 
at risk, and we will find somebody who can do it better, close 
and finish on schedule and on cost.
    Dr. Fisk. Just sort of a corollary statement, perhaps. It 
is kind of two different directions that you can go at when you 
think about what missions are going to cost. You can worry 
about what they are likely to cost in advance, you can cost 
improperly. We haven't done that very well in the past, and I 
think there are a lot of things in the works at the moment, 
even in the future decadals and so forth, which will do a 
better job on that.
    But then the question is, does it have to cost that much? 
Even if it is estimated correctly, did it have to cost that 
much? And the question is, were there things that we could have 
done in the management of the program, or the execution of it, 
not only to control the cost--we have an estimate, we try and 
reach the estimate cost.
    You say, was that a success? Well, it was a success. We 
reached the--we got the cost right. But perhaps there was a way 
to do the mission more efficiently, and that would be even a 
better victory. Not only did we come in on cost, but the cost 
that we thought it was going to be, we either executed it for 
less, or we found a way to manage this program in such a way 
that the cost was reduced. We got more science for our dollars.
    I think more emphasis on that latter point needs to be 
made, and it comes down, particularly in this area of small and 
moderate missions. The question is, are we doing things that 
actually do reduce risk, or are we, in fact, managing in such a 
way that we are comfortable? We have reviewed it, we have 
paperwork. We are sure that nothing will go wrong, but we 
wasted money in deciding that because it either didn't--it 
didn't add to our risk reduction.
    And I guess what the community is sort of asking of NASA, 
choose experienced P.I.s, that is a good thing. But if they are 
really experienced, let them do the program in such a way that 
they can produce this in the most cost effective way possible.
    And so, there is an issue, then, of sort of driving--
getting a partnership with NASA that we get the missions for 
the least cost, maximum security, minimum risk. Find the sweet 
spot.
    Mr. Calvert. Thank you, Doctor. My time has expired. I will 
come back for the second round.
    Chairman Udall. Thank you, Ranking Member Calvert. I would 
like to turn to Dr. Stern at this point. Doctor, in your 
testimony you talked with a lot of enthusiasm about being an 
advocate of human exploration, and then you went on to state 
that one of your three guiding principles for SMD is to help 
the Vision for Space Exploration succeed.

           Planned Changes in the Science Mission Directorate

    In specific terms, what changes do you plan to make to the 
goals, priorities and plans of the science mission directorate 
to help the vision for exploration succeed?
    Dr. Stern. Yes, sir. Well, I see two things that we should 
be doing. The first is supporting the Vision for Space 
Exploration by providing the knowledge necessary to return to 
the Moon and to Mars, particularly issues of astronaut safety.
    Whether it is in heliospheric studies, understanding the 
Sun, the radiation environment, for example, or understanding 
the properties of lunar--the size and density of the Moon, 
toxicity of Martian soils, whether Mars is biologically active 
and presents a threat to our astronauts, et cetera. That is one 
area.
    The other is we need to build a lunar science community. 
Really, there was a very strong lunar science community during 
Apollo. And--but when the Apollo program was terminated, the 
lunar science research and analysis funds that went with that, 
and the data analysis funds very quickly tapered off. And 
today, there is only a small remnant of that lunar science 
community.
    The Moon is a fascinating world. An in member silicate 
planet, it has a kind of tenuous surface boundary exosphere 
that is the most common type of atmosphere in the solar system. 
Its origin is intimately tied to the origin of the Earth, and 
the giant impact that we believe occurred to create the Moon. I 
could go on and on.
    This is a ripe scientific area, waiting for us to help it 
flower, in the same way that 15 years ago the decimated Mars 
science community from the 1970's was brought back by a series 
of a robotic Mars missions, beginning after the demise of the 
Mars Observer. And now, we have a very strong Mars science 
community. I want to do the same with lunar science.
    Chairman Udall. Any of the other witnesses care to comment? 
Doctor?
    Dr. Illingworth. Yes, thank you. At--maybe at some slight 
risk of disagreeing with the A.A., but I would like to comment 
on this.
    In the sense that, while I think there are opportunities 
with regard to lunar science, it is very important when 
opportunities come up, they are chosen for other reasons, that 
the science community think about that in the context of its 
broad goals.
    And so, this is obviously been something that has happened 
recently, as folks have started to think about missions on--
that we would put on the Moon versus elsewhere. But it does 
need to be done in the broad context. I don't think that we 
want to find that we are driven to do things on the Moon 
because we are there. It is not of the higher scientific 
priority.
    So, encompassing all solar system objectives, for example, 
discussing that and choosing the opportunities that arise from 
having access to the Moon is good, but in context. Thank you.
    Chairman Udall. Dr. Baker.
    Dr. Baker. I would like to just comment--I had the 
privilege of chairing a recent ad hoc committee for the NRC 
that was looking at the radiation risk for the human space 
exploration program. I just want to endorse what Dr. Stern 
said. I think that the heliophysics community in particular is 
excited, and I think quite capable of developing new predictive 
models, and I think would gladly undertake the effort to help 
provide information that would be very enabling for the Vision 
for Space Exploration.
    But as with all things, this has to be balanced against the 
other basic kind of understanding that we need, and the 
programs that we have talked about today, I think, can 
contribute some of that basic knowledge that can then be 
converted into very effective predictive models.
    Chairman Udall. Dr. Fisk.
    Dr. Fisk. I just have one comment on the scientific 
activities that are--that you--on the lunar science, and the 
exciting things that can be done there. The science mission 
director some time ago asked the NRC to do a study on science 
to be done on the Moon, or lunar science to be done in advance 
of and at the beginning of the human exploration of the Moon.
    That report will come out shortly. There was an interim 
report earlier, and if you--I haven't--I can't comment on the 
final report, but the interim report pointed out a number of 
very important scientific topics that involved the Moon that 
need to be pursued.
    Chairman Udall. Dr. Burns, do you have anything to add?
    Dr. Burns. Well, the science that can be done on the Moon 
is useful, certainly. I think, on the other hand, that there--
the--we need the background knowledge in order to have a 
successful human exploration program, and I think that if the 
purpose of being there is to get that knowledge, then probably 
those funds should come from the exploration program rather 
than from the science director.
    Chairman Udall. The Chair recognizes Mr. Calvert for five 
minutes. Thank you.

                        Understating True Costs

    Mr. Calvert. Thank you, Mr. Chairman. I am going to stick 
with the mission--for a little bit. Dr. Illingworth, obviously 
you commented about astrophysics is at risk because of the drop 
that we may experience down the road, but one of the things 
that I want you to comment about is the understating, 
sometimes, of true cost when we get in these large programs, 
and, specifically, the James Webb Space Telescope which now is, 
I believe, four times the cost that came up in the decadal 
survey, four times the cost.
    And obviously when we in Congress try to determine what 
dollars we are going to set aside for future missions, it makes 
it extremely difficult when we have to, basically, take all the 
money out of these various programs and fund what you obviously 
believe is a very important instrument that we are going to put 
up. Any comment about that? Because I think that is probably 
the most obvious one out there that is just out of whack right 
now.
    Dr. Illingworth. Yes, certainly. I think that cost 
estimation is critical to our credibility as a community, and 
to NASA's credibility. We work together on these activities, 
and NASA provides input to the decadal survey. I think the 
input that was given then was not optimal, and I think that we 
in the community and the folks in the survey didn't ask the 
right questions, or think in the right context.
    And as I mentioned, JWST was a very significant example, 
but there are others as well that we are dealing with that has 
led to major changes in the current program because of those 
collective cost growth.
    And though think the crucial thing here is, of course, 
getting independent estimates of the cost, thinking about the 
costs over the full life cycle, over the 10 to 15 years that 
the decadal survey is referring to, and not just construction 
costs. Asking questions of the proponents and trying to fully 
understand what it is they are proposing.
    I think if we understood the costs better as we are 
discussing the science missions, it would also help us frame 
the resulting priorities much better, that we would not bring 
forward a program that was so much larger than is likely to be 
doable in a given decade, with so many attendant problems that 
come from that.
    So there are, I think, ways that this can be done. I think 
just by asking the right questions, by thinking in the right 
way, and I get a very strong sense from all the folks who are 
thinking about the next decadal survey that we are all on the 
same wavelength here.
    We do not want to repeat what we have done in the last two 
or three Decadal Surveys. We want to get more accurate cost 
estimates. We want to test them independently. We want to have 
people involved who have recognition of mission cost 
development in the process, and we want to have NASA work with 
us on that and try and give us the best cost estimates based on 
their very extensive experience.

                 Status and Impact of Delta 2 Launcher

    Mr. Calvert. One of the things that we are going to 
experience here in the near future, obviously, is the 
discontinuation of the Delta 2 launcher, and what that will do 
to launch costs, how are we going to manifest payloads, and 
what are we going to put it on? I would like to hear some 
comments from you. Obviously, there are some folks out there 
trying to come up with less expensive ways to get to a low-
Earth orbit, but I want to hear from you.
    Maybe we will start with Dr. Stern about how are we going 
to do this here in the next decade?
    Dr. Stern. Yes, sir, it is a very important issue. Our 
Delta 2 inventory allows us to fly out all of the missions 
through 2012 that we planned to fly, and we do have some 
smaller launchers, for example Pegasus and Taurus. The Pegasus 
launched two small explorers this year, including the A mission 
that Dan Baker spoke about that just launched last week and is 
doing very well on orbit.
    We are additionally--I mean the Agency--looking at some 
alternatives to, or additions, to those possibilities to give 
us low-cost access to space again for small and moderate-sized 
missions. Those decisions have not been made, but I can assure 
you that it is important, not only to the science-mission 
directorate, but to the larger agency.
    Dr. Fisk. We are all encouraged that NASA has got this on 
their agenda to do because, I mean, there is a very simple 
problem here that the range of the Delta 2--this has been the 
workhorse of the science-mission directorate since the 
beginning of the space program, and so everything is sized for 
this, whether it is the size of your chambers that you build 
satellites for. And so the idea is, if you don't have that 
capability, there is a whole range of things that you will not 
be able to do, and there will be a whole range of things that 
you will have to make adaptations to your infrastructure to be 
able to do in the absence of that vehicle.
    So it needs to be a problem that is solved, and I--it has 
to be a robust solution, and I--you know, this is not something 
the Nation--and the Delta--it can't be simply, you know, keep 
the Delta 2 alive, because that will probably be too expensive 
of a solution. Someone needs to comes up with a less expensive 
solution, or at least comparably expensive solution, and the 
assurance needs to be there to have that happen.
    Dr. Baker. I would like to comment I support strongly the 
idea that the Delta 2 provides the sweet spot for many missions 
in planetary science and heliophysics. I also believe that if 
we lost that kind of capability, we are going to--this is going 
to propagate through the system in a number of ways.
    Going to larger launch vehicles immediately adds tens of 
millions of dollars to the mission cost, and by sort of taking 
the cap off of mass constraints and things like that, it can 
also allow for unexpected growth in mission that--just as I 
say, it compounds itself over and over again, and I think that 
we would be well advised to try to restore that capability or 
make sure that we have something that is very comparable to the 
Delta 2 to enable these missions.
    Dr. Burns. The same thing, especially for the low-cost 
mission like Discovery, this is a critical issue, because in 
percentage-basis, once you start increasing your launch costs 
by a few ten of missions of dollars, percentage-wise, that is 
just staggering, very damaging.
    Chairman Udall. I think if the panel is willing to do so we 
will engage in another round here. It is been very helpful. Dr. 
Stern, let us talk a little bit about New Horizons, if you 
would, and I would note for the record that of you many 
talents, you have also been considered for the astronaut corps, 
and I don't know whether that is still on the possible list of 
undertakings that you would pursue. I know you have got----
    Dr. Stern. Kind of a busy day job right now.
    Chairman Udall. Yes, you have got a day job, but we will 
see what we can do. I think there are some people in the 
country who would like to send Congressman Calvert and myself 
to Pluto, but that is another discussion topic.
    Dr. Stern. I would love to have you bring a sample back.

    Application of Space Research Experience to NASA Space Science 
                                Programs

    Chairman Udall. Are there any lessons that you have learned 
from your space-research experience that you want to apply to 
NASA space-science programs, and if you see some of those, 
would you outline them a little bit for us?
    Dr. Stern. Sure, absolutely. Well, it is been a privilege 
for my peers and for the Agency, when I was on the other side, 
on the so-called receiving end of the bureaucracy, to be given 
the responsibility to lead space missions and space 
instruments, and I found two things were absolutely required to 
do a good job: one was a complete commitment of time and 
resources, personal time and resources, on the part of the PI 
to the project; and to realize that when you have been 
entrusted with that kind of responsibility that other aspects 
of you professional career should be secondary to the very 
great responsibility of carrying out that mission. For example, 
I made a conscious and public decision to reduce the rate at 
which I was writing research papers while we were getting New 
Horizons built, and I think that PIs would be wise to do that 
in general and to keep their eyes on the ball, and to get 
commitments from their university or their institution to 
remove them from management or teaching responsibilities. After 
all, we are talking about entrusting those individuals with 
$100 million to $1 billion project. This is big science. It is 
a big enterprise by any standard.
    The second and other area I will speak to has to deal with 
being the adult in the room or being able to say no to control 
requirements, and not just the scientific requirements on a 
mission, but also the engineers who oftentimes or almost always 
want to please, and yet sometimes, I found, that we went a 
little overboard in that regard, and I was able to make a 
contribution to simplify what we were doing and that always 
paid off, because in the end, we were always short on money 
trying to finish, and some of those decisions made early on 
that were painful really paid off because in the end, what 
matters is that you get a successful mission out of it, and you 
know, the best gilded lily that is still a bird on the ground 
doesn't get you very far in terms of scientific return. I would 
offer those two things.
    Chairman Udall. Thank you. Those were very insightful, and 
you certainly come with a great deal of experience, and I think 
that is why you are the right person for the job at this 
particular job, given all of your experience as a PI.
    I turn back to the panel, and I think this may be slightly 
redundant, but we really want to drill into this. Over the next 
couple of months, we are going to be deciding on the '08 
appropriation for NASA, and I would like to ask each one of you 
what is the most important what NASA could do in the '08 NASA 
appropriation to strengthen the space-science programs?

       '08 Appropriations Priorities to Strengthen Space Science 
                                Programs

    Okay, we will start over here, Dr. Burns, and we will come 
back this way. How is that?
    Dr. Burns. I am going to say the same thing again. We have 
got a consistent message here, and it is we need funding for 
R&A support, and we need to keep our young people here, and we 
need to make use of the data that we are getting so that we can 
understand the places that we are visiting and so that we can 
better plan our future missions.
    Chairman Udall. Dr. Baker.
    Dr. Baker. Yes, I agree that the research and analysis and 
sub-orbital, as we have talked about. I feel very passionately 
about the Explorer program and like programs. I think that 
these offer so much. They return wonderful science. They give a 
chance for hands-on engineering, hands-on science education, 
and they give the kind of frequency and cadence of missions 
that really build enthusiasm through the community and through 
the country, I believe, so I think that is a real place to put 
resources, if possible.
    Chairman Udall. When I see you, of course, all I think 
about--well, not all I think about, but a lot of what I think 
about is the University of Colorado students that I have seen 
running satellites, being engaged, excited, committed to a 
long-term career and to the program in general.
    Dr. Baker. We have 60 graduate students, 60 undergraduate 
students. Many of the undergraduates are operating spacecraft, 
and it is just a marvelous thing and it builds a cadre of 
people that go out into industry, and they do marvelous things.
    Chairman Udall. Doctor?
    Dr. Illingworth. Yes, I think I used the word seed corn 
before. I think R&A is--on the human front, on the people side, 
is what is critically important here in investing for the 
future, and this is for NASA's benefit as well. NASA will have 
its science program, its most striking results, with a strong 
community behind it. And then I would add to that the Explorer 
level, the cost-capped, moderate-sized missions as being very 
important for getting returns quickly, and providing very high 
scientific leverage for the money.
    Chairman Udall. And Dr. Fisk.
    Dr. Fisk. I am probably bolder than my colleague here on 
this issue. Let me come at it from the very top. I hope when 
the '08 budget is considered, you will keep recognizing how 
much money NASA has lost from what the President said it could 
have for its budget when he announced the vision for 
exploration, and I am talking several billions of dollars. And 
then, if you add to the things that were not in the budget, 
such as the return-to-flight of the Shuttle and new 
initiatives, such as Earth science, you are way off. And so, if 
you, then, can recognize at that level, then of course, it 
feeds down to the science. Science can have some of its funding 
restored, and the investments that need to be made at that time 
are the kinds of investments--there are two investments, 
actually. A lot of things were decelerated that should be 
accelerated, and the R&A funds and the future of the program 
needs to be restored.
    But I don't think we should lose sight of the big picture 
here, which is science is only one of the abused parts of the 
NASA budget, and the whole budget is several billion dollars 
short. It is several billion dollars short from the 
authorization amount that your committee put into effect when 
you authorized the New Vision, and we have to drive it back to 
those kinds of levels.
    Chairman Udall. Thank you. I am going recognize Mr. Calvert 
here, again, but I just want to make a note that I was 
anticipating leaving it to the end of the hearing, but I think 
this appropriate on the heels of what has been said, that 
Chairman Gordon and myself have written to the President, 
asking him to meet with Congress to address the funding 
challenges facing NASA. Ranking Member Calvert and other 
Members have made a similar request. We will see where that 
leads.
    It is my pleasure to recognize my friend and the Ranking 
Member, Mr. Calvert, again, for another five minutes.
    Mr. Calvert. I point out to my friend and Chairman that 
also we have an appropriations process that we need to support, 
and I hope that all of you--I know that Dr. Stern is in the 
position of supporting the President's budget, and I would 
hope, at the very least, we can hit that mark. But as you know, 
under the continuing resolution, we took a $500 million hit, 
and we want to make sure that our friends don't believe that 
that is the new baseline for the NASA budget, or all of the 
NASA budget will be deeply impacted even worse than it is 
today, so we need to hear support to educate Members of 
Congress to the importance of it.
    While we are on the research and analysis activities, and 
obviously you all believe. I will turn to Dr. Stern for this 
answer, but he can listen to it. What do you believe is the 
metric or rule of thumb that should be used to suggest how NASA 
establish the appropriate amount of money to put into this, and 
should it be a fixed level, should it be money provided by a 
certain percentage? What are your suggestions, because that is 
certainly an ongoing, I am sure, discussion within your 
committee.

                             R&A Budgeting

    I will start on the right this time.
    Dr. Burns. Thank you. I really appreciate you always 
starting with me.
    The planetary decadal panel considered this issue, and as a 
rule of thumb, they felt that something like 25 percent of the 
budget that is being used for the mission costs would be an 
appropriate percentage, and we are well below that. We were 
well below it even before the fiscal year 2005 cut in the R&A 
funds by 25 percent.
    Mr. Calvert. Dr. Baker, do you agree with that?
    Dr. Baker. Thank you for keeping me to second, but it still 
hasn't helped me too much to come up with a formula to answer 
your question but my impression is that we were better a few 
years back than we are now. I think that the kinds of cuts that 
have occurred and the kind of bailing out of other things at 
the expense of the research and analysis across the board in 
all of the disciplines has been very, very detrimental. But I 
think we recognize that there is too little now. What would be 
optimal or what would be healthiest? I don't think that has 
been totally established. Each of the disciplines treats 
research and analysis somewhat differently, and I am very 
encouraged that--again, that Alan Stern is focusing on this and 
have a person, Yvonne, who is really going to focus on R&A 
specifically and look at the question that you have asked in a 
very systemic way. I think it is very important.
    Dr. Illingworth. Yes. Let me add my thoughts on this. I 
would like to distinguish that there are two components to the 
R&A area. Very broadly, one is the data analysis that goes 
explicitly with the operating missions, and NASA has been very 
good at funding these and with the goal, of course, that one 
maximized the scientific return from a very substantial 
investment by the Nation in these projects.
    I think that the 25 percent number would be wonderful to 
have. I think none of our current missions come close to that. 
I suspect that it would be--I actually think it would be useful 
to do an assessment of this question and ask what may well be 
needed. There was one many years ago, in fact, two decades ago, 
that was done for Hubble, but I am not aware of any more recent 
assessments, and maybe this is something that NRC might like to 
do across the various programs.
    The second part, of course, is R&A itself, which tends to 
be a grab bag for a lot of activities, from technology 
development, to theory, to reworking data sets. And those 
individual elements, probably, are the areas that need to be 
considered instead of looking at the overall picture, and 
trying to assess whether or not the funding that is being put 
into those areas, like theory, is really adequate for the 
returns that we are getting for the investment that we are 
putting in on the mission side, and the data analysis side. 
Certainly, I think my theory colleague think it is not, but 
doing it--finding metrics to do that is a challenge, but it may 
well be that the right approach here is to think about doing 
this in a somewhat systematic way.
    Dr. Fisk. I have a similar sort of answer. The mission-
operations data-analysis costs are the easiest to figure out 
because you sort of know what it is that you are costing to 
operate the mission, and you want to get the maximum number of 
years out of things, so you get the maximum return on 
investment. You do that calculation, and you add it up.
    One of the questions that is the hardest one is on 
technology development, training of the next generation, theory 
and so forth. It all comes together. And there, I think you 
have to go in sort of discipline by discipline, and you have to 
ask yourself the question--and this is a question that NASA can 
perform the analysis--and say what does this community need to 
have a future? If the community is aging and aging rapidly, and 
there needs to be an infusion of new talent, that focuses some 
of that money on this. If it is not, then, maybe less money is 
needed. You need theory because no one knows what it is this 
data means. You know you need that, and so on. But you need--it 
will vary from discipline to discipline. The analysis needs to 
be made and the funding provided because we all agree on the 
goal. The question is what is the right way?
    Mr. Calvert. Thank you. My time has expired.
    Chairman Udall. Thank you, Congressman Calvert.

                      International Collaboration

    Dr. Stern, if I could come back to you, in your testimony 
you state that you plan to increase international collaboration 
as a means to advance the priorities of the National Academy's 
decadal surveys. While international survey--excuse me. While 
international collaboration can provide scientific and other 
benefits to both parties, it can also lead to increased costs 
and delays. What actions do you intend to take to reduce the 
costs and programmatic risks of such collaborations? And we did 
talk about this when we met. It is exciting area, and I will 
give you a chance to talk about that as well.
    Dr. Stern. Yes, sir. Well, I do think that there are other 
ways besides throwing money at problems to increase the 
productivity of this program, and we are looking at cost 
controls, as I spoke to earlier. We are conducing a zero-based 
review across all four divisions to see what may have been 
important in the past that is not important now, and 
international collaboration is yet another way to accomplish 
that. And to be quite frank, any country who is on an 
acceptable list, who has the space programming capability that 
could fly our instruments or collaborate on missions is 
somebody that I want to talk to. And I mean that to be a win-
win. Certainly, Asian nations like the Japanese and the 
Indians, who are space powers, the European Space Agency, the 
European national space programs, the Canadian Space Agency, 
and other all come to mind.
    One important, new element of international collaboration 
that addresses what you are asking about is the possibility 
that we could collaborate, instead, at the hardware level 
within a mission, where different parties, NASA and a foreign 
partner, for example, divide up who builds which part of the 
spacecraft and the payload. Instead, we would collaborate at 
higher, more strategic level, at a mission level, so that for 
example, a given foreign partner might want to build an 
astrophysics missions that we are very interested in and that 
is close to something in our decadal survey, and yet, we might 
be able to build a mission, a planetary mission for example, 
that is of interest to that party. And they would go about 
their business; we would go about ours; but have a science team 
formed from both nations or both parties, so that there is very 
little swapping of hardware, software, technology, but that the 
science data analysis is win-win for both parties and the field 
advances more rapidly than might otherwise.
    Chairman Udall. It seems to me there is a great deal of 
room here in which to maneuver and develop some of these new 
relationships. I want to commend you for taking a hard look at 
this and moving ahead.
    Would anyone else on the panel care to comment, in 
particular about the.
    Dr. Burns. I have a couple of comments, actually.
    Chairman Udall. Yes.
    Dr. Burns. One of my concerns is the fact that ITAR 
automatically considers satellite technology to be munitions 
under the State Department rules, and that really hamstrings us 
in interacting with other nations. I have cases of post-docs 
who have written code, going back to Germany and France, and 
they can't access the code that they wrote because they are 
foreigners.
    I think another issue is--and this, I know, is a no-no--but 
a question of whether or not to consider other launch vehicles 
than American launch vehicles because competition, according to 
America is a good thing, and I wonder if that might lower the 
cost in some way.
    And finally, of course, we need to be firm and make sure 
that when we say we are going to do something, we carry it out. 
At present, we tend to drag things on and then sometimes stop, 
and that does not make for good international relations.
    Chairman Udall. Anyone else care to comment?
    Dr. Baker. Well, I would just like to add on the ITAR issue 
that I agree that is seems inappropriate to be stifling what we 
are able to do with foreign partners, and I know that the NRC 
is going to have a workshop this fall and kind of look further 
into what effect this is having on the space program, and 
perhaps what could be done to remedy it. I couldn't agree more 
that seizing all possibilities for foreign launchers, for 
foreign missions of opportunity or a much stronger 
collaboration, it just seems to me it offers tremendous 
possibilities of leveraging the resources that we have.
    Chairman Udall. Anyone else? Dr. Illingworth.
    Dr. Illingworth. Yes, just to comment on this, I think it 
really can be win-win with international partnerships, and I 
actually was intrigued by Alan's idea of creating, in some 
sense, different missions, ensuring access. I think that is a 
very good approach. It probably isn't a way that will work, 
necessarily, for the very largest and rarest missions, but 
probably more for medium. And there is actually--from my hat 
that I war as the AAAC Chair, I also think across the other 
agencies as well, and we are also trying to encourage active 
collaborations where practical, and particularly with DOE on 
missions as well, with their science interests. And something, 
they are also as challenging because of the different 
approaches and culture.
    Chairman Udall. Dr. Fisk, has it all been said, or would 
you like to add?
    Dr. Fisk. I think it is all been said.
    Chairman Udall. There is an old Washington saying that it 
has all been said, but not everybody said it, so I don't want 
to cut you off, but I think you all have given us a homework 
assignment. Mr. Calvert and I have been speaking up here about 
ITAR and trying to find a sweet spot to give on our national 
security concerns, but also, we are actually putting ourselves 
at competitive----
    Dr. Fisk. I will add to that. I encourage you to do 
something. It has become a nightmare, and is probably the 
single biggest impediment to international cooperation in the 
science program.
    Chairman Udall. I am happy, again, to recognize Mr. Calvert 
for five minutes.
    Mr. Calvert. Thank you, Mr. Chairman. I agree that we need 
to come up with some solution on ITAR, but obviously, we both 
serve on the Armed Services Committee, also, and as we all 
know, the technology can be not just for peaceful purposes.

                        Status of Europa Mission

    One question, because I am going to have to go out to a 
markup, regarding the Europa mission, I want to get all of your 
thoughts regarding the relative importance of sending a 
satellite to Europa, versus other moons that may harbor water, 
such as Enceladus or Titan. I know at one time, the planetary 
community seemed committed to launching a Europa mission, but 
with the findings from Cassini, has anyone kind of shifted or 
changed their mind and want to look at something else? I was 
just kind of curious. I will start with you again, Dr. Burns.
    Dr. Burns. Man, you are my friend. That is a very difficult 
question because the results that we have gotten from the 
Cassini mission on both Enceladus and Titan are of great 
importance. They show the possibility of conditions that are 
appropriate for the formation of life, both the presence of 
water and organics and energy sources, much like Europa. I 
think that there is a benefit for continuity in the program, 
however, and the Europa mission continues to be a very exciting 
mission. I believe that since there--NASA has put forward a 
million dollars for each of four studies to look at the two 
missions that you mentioned and two in the Jovian system, 
including the Europa mission. I think we will have an answer to 
this question.
    Dr. Baker. Thank you. Planetary science is part of what my 
laboratory does, and I am just struck by what a target-rich 
environment planetary science is. Everywhere you turn there is 
something, there is an object, that would just be wonderful to 
visit in more detail, and I am not prepared to say which of 
those--and my planetary friends probably can make a judgment 
about that--but it is just astonishing. Had we the resources, I 
think there are just a very large number of objects that would 
be worth investing, and we would learn a great deal about the 
universe beyond by studying them.
    Dr. Illingworth. Just to note here, this is really an area 
which is beyond--well, maybe inside astrophysics. Astrophysics 
starts outside of the solar system, so I don't have an explicit 
comment.
    Mr. Calvert. Dr. Fisk.
    Dr. Fisk. Well, the Europa mission, you know, was a 
priority in the decadal survey, and I have, sort of, two 
comments on that. One is it was, and we need to take that into 
account because the community consensus that is where you 
should go. The second thing is it probably points out one of 
the issues that we need to always deal with in decadals, and 
will have to deal with the next one that is starting up in a 
year or so, which is as new science comes in, how do you decide 
whether or not you should stick to your previous 
recommendations or you should move to some other target because 
we learned something? Well, I think there is a lesson in the 
Europa discussion for the future decadals, and also, that we 
need to simply make intelligent decisions now as to how to do 
this.
    Mr. Calvert. Flexibility. Dr. Stern.
    Dr. Stern. Yes, if I could speak to this point: it is a 
very rare and special opportunity to be able to fly a flagship 
in any field, including in planetary science. Outer-planet 
flagships come approximately every quarter century. I think it 
is our responsibility as program leaders in NASA to take a 
careful look at the new data that is coming in, for example 
from Cassini, and the excitement that that has generated and 
not simply genuflect to decision made before that data was 
available. We might come back to the same conclusion that 
Europa is the mission to fly, and we might find that the 
community consensus is that this is just such a special 
opportunity, we only have one, it should be different target.
    But I think that we absolutely have the responsibility to 
make that decision consciously and not implicitly or simply 
because of a report written years ago.
    Mr. Calvert. Thank you, Mr. Chairman, I have to go to a 
markup, so I thank the witnesses for attending today and look 
forward to seeing you again soon. Thank you.
    Mr. Wu. [Presiding] Thank the Ranking Member, and our new 
Ranking Member.

                          Chinese Cooperation

    The Chairman recognizes himself for five minutes. We had 
some discussion of ITAR earlier and perhaps we will return to 
that subject because it is related to what I intend to ask 
about. Over three decades ago, at a time when our relationship 
with the then-Soviet Union was not on the friendliest of terms, 
we initiated some cooperation in human space flight, which has 
born significant fruit and perhaps given us an opportunity to 
find areas of cooperation as well as share some costs. Many of 
the problems that we face in space exploration today whether 
they are human exploration or robotic missions, you know, the 
stress is on matching the resources with the mission. The 
Chinese have a vigorous space program going as well as a 
vigorous economy. There are obviously some challenges in 
developing any human space flight cooperation programs with the 
Chinese because of the structure of their human space flight 
program but I would like the panel of witnesses, in particular 
Dr. Stern, to comment on the potential for cooperation in human 
space exploration as the Chinese develop their space program 
and also whether this might potentially help us match mission 
and budget.
    Dr. Stern. Yes, sir. As you well know, the Administrator 
has said that the return to the Moon and the eventual 
exploration of Mars by human beings is a program that the 
United States and NASA is very, very open to international 
participation. We would like to provide the core infrastructure 
and have other partners, other nations and multi-national space 
programs such as the European Space Agency or others come in 
and participate and add to the value of what we are doing.
    Mr. Wu. Dr. Fisk or any other of the panelists?
    Dr. Fisk. This is stretching the limits of my--I suppose 
like any good university professor, I am supposed to have an 
opinion on everything. I mean, it is--I mean, clearly you raise 
the early issues, which is, you know, how do we cooperate, you 
know, in ITAR in particular and so that will be an impediment, 
particularly in dealing with the Chinese. I think the thing the 
country needs to be most concerned about when we decide whether 
we are going to do these things cooperatively, how we are going 
to do them, is the fact that if we choose not to, there are 
alignments that will take place among other nations whether it 
is the Chinese and Russians or the Russians and the Chinese, 
and so various things could take place and we could find 
ourselves in a space race with the world, and that would 
probably be an unwise position. So the figuring out how to 
cooperate in a way that we sort of use the world's resources is 
probably not only a wise offensive strategy on our part, it is 
a wise defensive strategy.
    Dr. Illingworth. Let me just comment on this. You know, 
ITAR is a significant concept for the community and it is right 
at the working level. Alan mentioned the possibility of doing 
missions where the primary responsibility was taken by an 
international partner but there was a joint science team, but 
that in itself poses problems because the science team that we 
had that involved international scientists, getting into many 
of the technology areas may determine whether or not one can 
carry out the science and those sort of discussions are very 
challenging to do with ITAR regulations, and it has been an 
impediment to bringing together international teams, even on 
smaller programs. So it does have a substantial impact at a 
level which is often not recognized. It narrows the expertise 
and the involvement that you would like to use on these 
programs. So, the hope, of course, is very broadly in the 
community that there are ways in which this can be changed for 
a lot of the missions that we would like to carry out.
    Mr. Wu. Dr. Baker.
    Dr. Baker. I would just say that cooperation done well and 
wisely can be very cost-effective and can use scarce resources 
very well. I think forcing cooperation in unnatural ways or 
ways that are not going to be well thought out could very well 
drive up the cost to the United States and so I think that it 
is very, very important to think through thoroughly what is the 
appropriate role for whatever foreign partner we might have and 
whatever program we have.
    Mr. Wu. Thank you.
    Dr. Burns.
    Dr. Burns. I will just comment on a sideline of this and 
that is the fact that it is interesting to note that within the 
next year we will have three foreign spacecraft in orbit around 
the Moon. We will have Japan, China and India, and they will 
provide a very significant part of humankind's understanding of 
what the Moon is all about and thereby aid our exploration 
program and I think we need to carry that into other spheres.
    Mr. Wu. Thank you very much. I see that my time has expired 
and I yield to the Ranking Member, the gentleman from 
California.

                         Lessons From Astronomy

    Mr. Rohrabacher. Thank you very much. I apologize for not 
being here earlier. I was at another hearing where I am the 
Ranking Member of that subcommittee, as this often happens. I 
am jumping from the human rights report of the State Department 
to scientific exploration, and that is just the jumps we have 
to make.
    First of all, I have been a big supporter of astronomy and 
in fact, the more I have been involved with astronomy, the more 
I have been impressed with what we learn from astronomy is 
actually important. I always remind everybody that I have this 
much knowledge about that much but I don't have this much 
knowledge about anything, and maybe one of you could tell us, 
the fundamental importance of having an understanding through 
astronomy of what is going on out in the universe because at 
one point it was like--it was this great revelation when they 
told me, well, if you see it out there working out there, we 
actually then could understand how molecules and how the basic 
building blocks of the universe at our level down at a 
molecular level in our bodies and various things here work. 
Maybe somebody could just give a 30-second or one-minute 
explanation of that to me. Does anybody want to jump forward? 
Don't we have anybody that----
    Dr. Burns. I am both a Professor of Engineering and a 
Professor of Astronomy so let me start as an engineer. As an 
engineer, you want to know how planets work, and the way you 
learn how things work is, you look at a batch of them. You 
don't look at one car, you want to look at a variety of cars in 
order to see the different characteristics and what those 
characteristics lead to, and I think it is essential in that 
sense that we go and explore various planets before we try to 
understand the Earth. And then my astronomy hat says these are 
the most profound questions that mankind faces: who are we, 
where do we come from, and we can only understand that if we 
see how commonplace the formation of organic molecules and the 
possibility of life elsewhere might be.
    Mr. Rohrabacher. Are the fundamental principles that we 
learn from astronomy applicable to the scientific basis for 
decisions that we make here?
    Dr. Burns. Physics is everywhere. Chemistry is everywhere. 
I mean, it is the same stuff.
    Mr. Rohrabacher. Well, tell me about that in layman's 
terms, if someone would like to----
    Dr. Fisk. Let me try from a slightly different tack here. 
Astronomy at the moment, real astrophysics, is--and I am a 
practitioner only----
    Mr. Rohrabacher. So astronomy is astrophysics?
    Dr. Fisk. They are becoming completely synonymous for the 
following reasons, that is, we are now--as we look out, you 
know, and see space and there so--there are very fundamental 
problems that have been surfaced, even in the last decade. We 
only see a few percent of the universe. We don't know what the 
other 99 percent is. There is evidence of a dark energy, as it 
is called, which is causing the expansion of the universe in a 
way that we did not anticipate. We don't know what it is. And 
what that says to you, I mean as a practitioner--I am not a 
practitioner. I never venture beyond the orbit of Pluto. That 
is just--that is my domain so I am talking about things that 
are beyond this point now. And you say these guys are going to 
find that there is a very basic physics which governs 
everything that we don't understand. We don't know what it is. 
And when we do, the laws of physics as we know them will be 
revised. Now, I can't think of anything more compelling than to 
try and figure out what the laws of physics are because the 
laws of physics concern everything that happens right down to 
the microscale and the molecules and all this stuff, and so you 
need to be able to--they are probing the most fundamental 
questions in the universe about how does it work and we thought 
it worked the same everywhere, all scales. Now there is 
something we see that doesn't fit; we don't know what it is. 
And when we find it out, the world will change.

                             Nuclear Energy

    Mr. Rohrabacher. Does this have anything to do with 
Einstein and the nuclear bomb? How do the physics of 
understanding what is going on way out there have anything to 
do with our ability to create nuclear energy?
    Dr. Fisk. How about if we leave Einstein in but we leave 
the bomb out?
    Mr. Rohrabacher. Okay. Nuclear energy then. Leave the bomb 
out.
    Dr. Stern. If I might chip in, I think to answer your 
question, Mr. Rohrabacher, there are a couple of--if you take 
the long view, there is both economic and a strategic 
importance to doing astronomy. You know, the guys that were 
playing around in physics labs in the middle of the 19th 
century with electricity had no concept of what that would 
yield for the future of the economy, and the same can be true 
of quantum mechanics in the 1920s and how that has impacted our 
view, and more importantly, impacted our ability to build the 
electronics that we all depend upon today, and the same way the 
energy sources that we see in the universe may have some 
application in the future that we can't anticipate and that is 
the advantage of basic research is that it often yields 
something far beyond your imagination which completely 
transforms the world, and from a strategic standpoint, I think 
it is crucial that the United States has been the Nation that 
has led in astronomy, astrophysics and planetary science. As we 
go forward into the future, in future generations and future 
centuries, when folks are taught science, school children in 
whatever nation they are in, those discoveries that opened up 
the universe and that opened up the solar system will always be 
tagged with American space missions, American facilities, 
American scientists like Dr. Mather, who is here, and his 
collaborator, Dr. Smoot, who really put the point on what was 
only a theory and established the Big Bang with observational 
evidence and won the Nobel Prize for it.
    Mr. Rohrabacher. Just to note that astronomy is also 
something that we can--and which I have tried to do as a Member 
of Congress, find ways of getting young people involved in 
something that they can actually do. You know, young people can 
actually have a telescope. Young people can actually go into 
planetariums and look into this. So I had legislation in the 
past that passed. That that in itself is of great value in 
exciting young minds, giving them something that is specific 
they can do. Let me--something else that I was involved in, in 
terms of to delve into this, was trying to instruct NASA to 
conduct a survey of Near-Earth Objects that might hit the 
Earth, and at this point I understand that there is a telescope 
in Puerto Rico that the Administration is thinking about 
shutting that may indeed be contributing to our ability to find 
and catalog near-Earth objects. Is there something move to shut 
down this telescope in Puerto Rico and----

             Arecibo Radio Telescope and Near-Earth Objects

    Dr. Stern. I believe you are speaking about the Arecibo 
radio telescope that is used for radar purposes, and the radar 
is used to better determine the orbits of some of these near-
Earth objects so that we get a better bead on whether or not 
they have a potential for hitting the Earth.
    Mr. Rohrabacher. Is there some plan to shut that down?
    Dr. Stern. Yes, but it is actually a facility in the budget 
that is supported by the National Science Foundation that is at 
risk. The NASA support for that program, the grants, for 
example, that we have in the science mission directorate, are 
not affected and that really is an NSF issue.
    Mr. Rohrabacher. So let me note, in order for us to support 
basic science, quite often we have to try to show people that 
there is a direct relationship, a cost-benefit relationship to 
our life and our safety, let us say, as part of our life, of 
course, and that to have a telescope that one of the services 
it provides is helping us to track near-Earth objects or to 
catalog them, I think it is a great disservice to try to shut 
something like that down and I would hope that you keep that 
priority in mind.
    I would like to ask a question about the study--am I out of 
time? Can I ask one more question? Would the Chairman indulge 
me one more question?
    I understand that we have determined that there are warming 
trends going on on Mars and other planets. Maybe Dr. Burns or 
Baker could let me know. So we have determined this, that the 
other planets are becoming warmer or at least Mars is becoming 
warmer, and how does that fit into calculations that our own 
planet may be becoming a little warmer?
    Dr. Burns. Let me, if you don't mind, step back for a 
moment because I am quite intimately involved with the Arecibo 
telescope and in fact maybe I shouldn't be speaking because I 
am sort of biased. The university that runs that telescope is 
my university and in fact sits under my domain, and that is a 
crucial facility, as Dr. Stern said, for determining the orbits 
and surface characteristics of asteroids and thereby helping us 
avoid the threat, and the problem that has occurred is that the 
NSF budget has been cut for the observatory and that has 
necessitated the loss of the radar capability as of this coming 
October, and that facility originally received its funding from 
NASA which NASA decided three, five years ago that they were 
not willing to fund a ground-based facility and so they shifted 
it over to the NSF. The NSF now says hey, that is not a 
problem, we are shifting it back to NASA, and there is a 
discussion between the two agencies. From the standpoint of the 
science community, we think this is a unique--we know it is a 
unique world facility and we don't care who funds it but it 
needs to be funded.
    Mr. Rohrabacher. I think you put us on notice on that and I 
think we should make sure we pay attention to that admonition.

                            Warming on Mars

    Dr. Burns. Let me move on to your other question. I mean, 
certainly there are changes that are occurring on Mars in the 
upper atmosphere of Mars, in particular that suggests there is 
a deposition of some energy there but the evidence for that is 
much less than the evidence that we believe we see here on 
Earth for the increasing local temperatures and so forth and so 
on. I will let others address that question actually.
    Dr. Baker. I would just comment that I believe that one of 
the great strengths of planetary science is comparison back 
with the Earth so what we see in planets in different stages of 
development with different processes dominating helps us better 
to understand our own planet.
    Mr. Rohrabacher. Well, if Mars is indeed warming as I have 
read in several reports, as some of the other planets may be 
warming as well, it would indicate to me that the warming 
trends going on in the universe have little to do with SUVs and 
humankind unless of course we are talking about SUVs and UFOs 
are the same thing, which I doubt. So it would seem to me that 
solar activity may have a lot to do with changes in climate on 
the Earth and other places.
    With that said, I thank you very much, Mr. Chairman.

            ITAR and International Technological Development

    Mr. Wu. I thank the gentleman, and I only have one further 
question, to return to the ITAR subject. Dr. Burns, you 
referred to that in your testimony and several of the panelists 
referred to ITAR and its potential effect on international 
cooperation in space. I want to look at this in a slightly 
different way. Are some of you concerned that potentially 
overrestrictive provisions of ITAR have resulted in giving 
foreign governments an incentive to developing sensitive space 
and sensor and other technologies that perhaps they would not 
have otherwise developed and in fact that they then proceed to 
market around the world as ITAR-free technology?
    Dr. Fisk. I think the answer to that is categorically yes 
and I think there are lots of studies on that point that have 
been conducted by the AIAA and I think perhaps even the Defense 
Science Board, and it is a concern whether or not we are in 
fact protecting ourselves or simply encouraging. The science 
perspective is probably--I mean, I wouldn't make this a science 
issue. That is an issue of, you know, American space industry 
and its ability to market its technologies around the world and 
its competitors finding incentives and reasons for being able 
not to do that. That is a much bigger issue than just the 
science question.
    Mr. Wu. Any other comments from the panelists?
    Dr. Burns. I would just say it is a very delicate balance 
that one has to play when dealing with ITAR issues. You 
obviously don't want to go overboard and allow access to 
sensitive technologies. On the other hand, if you hamper the 
science and hamper our own activities, that is detrimental to 
us as well and I worry too much that, you know, we are so 
worried about the competition that we are weakening ourselves 
in many of these avenues.
    Mr. Wu. Dr. Illingworth.
    Dr. Illingworth. Thank you. Yes, I would like to reinforce 
that because I think this does come back to hurt ourselves. 
Science engineering, these areas benefit from dialog from 
competition in a sense of ideas and actual techniques and so 
where there is not those opportunities to engage in those 
activities, we are the ones that lose out as much as anybody 
else or maybe more so because other people have the 
opportunities for that dialog and that sort of competitive 
spirit that we may not be able to carry out.
    Mr. Wu. Thank you very much. I understand that Mr. 
Rohrabacher has one quick question.
    Mr. Rohrabacher. Very quick. Just for the record, I have no 
trouble with cooperation between scientists from free countries 
and from other democratic countries. I think that we have to be 
very cautious in training scientists who will then return to 
dictatorships that may be opposed to our way of life and may 
actually create a threat to Western civilization. I mean, 
whether or not is a bomb in Pakistan, I would hate to think 
that we had Pakistani scientists here and trained them how to 
make that bomb. I would hate to think that democratic countries 
like our own would use our science and so indiscriminately 
provide information that we provide the means for a 
dictatorship like China to set up a computer system that will 
spy on its own people and put believers in God in jail and be 
able to control the Internet in their societies when they 
couldn't have done it without our help, things such as that. So 
I just would like to make sure that we balance off the pure 
science isn't an end in and of itself. If it works with people 
who are tyrants and negative forces on this world, that science 
is not a good thing to transmit to those people.
    So with that said, I thank you, Mr. Chairman, and I am 
sorry I was a little late but I am running back and forth.
    Mr. Wu. I thank the gentleman, and I think we all have this 
concern about appropriate development of technology and 
national security.
    Before we bring the hearing to a close, I want to thank all 
of our witnesses for testifying before the Subcommittee today. 
The record will remain open for additional statements from 
Members and for answers to any follow-up questions the 
Subcommittee may ask of witnesses. I also ask unanimous consent 
to insert into the record additional and extraneous material. 
Without objection, so ordered. The hearing is now adjourned.
    [Whereupon, at 12:58 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by S. Alan Stern, Associate Administrator, NASA Science 
        Mission Directorate

Questions submitted by Chairman Mark Udall

Q1.  Your testimony refers to new standards for the selection of 
Principal Investigators on space missions. Could you please elaborate 
on those standards and how they will help to manage mission costs?

A1. NASA is instituting minimum Principal Investigator (PI) space 
flight experience standards for the 2007 Small Explorer (SMEX) 
Announcement of Opportunity and all future PI mission selections in 
order to reduce the inherent risk in PI-led missions with PIs who have 
never played a significant role in a space flight mission or instrument 
development. This risk jeopardizes PI-led mission cost and schedule 
attainability, and can affect mission technical risk level. Cost, 
schedule, and technical problems in turn adversely affect the frequency 
of future missions NASA can mount, and jeopardize the viability of PI-
led missions. The PI experience standards we are implementing are 
designed to significantly mitigate these issues to the benefit of NASA 
and the science community as a whole. Other senior mission science team 
personnel such as mission Deputy PI, Project Scientist (PS), Chief 
Scientist, Science Team Lead, and instrument PIs that may be involved 
in PI-led missions need not meet the same space flight experience 
standards as the mission leader--the PI--though their experience level 
will remain a factor in Technical, Management, and Cost evaluations.
    There are three parts to the minimum space flight experience 
standards for a SMEX and all future PI mission selections--the PI will 
need senior project experience on a project that went into space. More 
specifically:

        (a)  A PI will need to have served previously as the PI, the 
        Deputy PI, the PS, or the Deputy PS on a qualifying space 
        project.

        (b)  A qualifying space project can be a full mission, an 
        instrument, or an experiment.

        (c)  The qualifying project must have been a space project that 
        has been launched. A space project is one that goes into the 
        space or near-space environment. Space projects include sub-
        orbital projects (sounding rockets, scientific balloons), 
        orbital projects, and deep space projects. Within these 
        standards, a large number of U.S. space scientists qualify.

Q2.  In your testimony, you state that ``by looking for ways to 
increase efficiency within our organization, and within the way we 
manage missions, we can make new funding available within the 
President's budget that will enable us to do significantly more.'' What 
fraction of the space science budget (or, alternatively how much money) 
do you realistically think you will be able to free up through those 
efficiencies? What's the basis of that estimate?

A2. Over the three year period from February 2004 (FY 2005 budget 
request) to February 2007 (FY 2008 budget request), 28 Science Mission 
Directorate (SMD) flight missions required budget increases totaling $4 
billion in estimated Life Cycle Costs (LCC). This is a major source of 
inefficiency corresponding to approximately 75 percent of one year's 
budget for SMD. NASA needs to avoid such LCC growth in the future via 
stronger program management practices. While we cannot specify the 
exact amount of future mission LCC growth we will avoid, we expect 
significantly better performance than in the last three years. We also 
plan to institute smaller dollar (but important) efficiency gains in 
the management of grant paperwork.

Q3.  Immature technologies have been identified as a key contributor to 
mission cost growth in the past. However, the FY 2008 budget request 
reduces the opportunities for technology development through the New 
Millennium and research and analysis programs.

Q3a.  Why is NASA reducing the New Millennium and R&A technology 
development activities?

A3a. The decision to reduce funding for the New Millennium program was 
necessary in order to make funding available to achieve a balanced, 
executable portfolio within the Science Mission Directorate (SMD) and 
to concentrate more heavily on SMD's main mission: producing scientific 
results that advance the priorities of the four National Research 
Council (NRC) Decadal Surveys (Earth science, Astrophysics, 
Heliophysics, and Planetary science). Specifically, funding was 
eliminated for the Space Technology (ST)-9 mission since that early 
(competitive Phase A) formulation and had only reached the Concept 
Study Report stage. Furthermore, its priority as a technology flight 
demonstration was lower than the current science missions vying for 
funding in this time period.
    With regard to funding for the Research and Analysis (R&A) program, 
total funding in the FY 2008 budget request for technology-based R&A 
activities represents a slight increase over the funding available in 
FY 2007. The R&A program includes a number of instrument incubator and 
technology development elements designed to enable future science 
missions in each of SMD's four portfolio areas. In addition, SMD is 
looking for ways to increase opportunities, such as through the 
addition of four new investigations to the Astrophysics and 
Heliophysics sounding rockets programs, which not only provide training 
for investigators, but also help develop the next generation detectors 
required for future science missions.

Q3b.  How important do you think it is to maintain a long-term 
technology development activity in NASA's space science program? What 
fraction of overall funding should that technology development activity 
represent?

A3b. It is very important to maintain a long-term technology 
development activity in NASA's space science program. The funding 
reductions for long-term technology development in FY 2008 reflect the 
relative priority and are temporary as NASA works off the backlog of 
missions already in formulation and readjusts the phasing of its future 
mission plans. In the future, technology efforts will be more closely 
tied to specific mission needs, as has recently been successfully 
demonstrated by James Web Space Telescope. There is not an optimal 
single overall fraction of funding that should be allocated for 
technology development. This decision must be made for each science 
discipline within the context of the community-based priorities and 
mission plans. In some cases, the reapplication of technologies that 
are already in hand can go a long way towards meeting the science 
priorities identified in the National Research Council (NRC)'s decadal 
surveys. In other cases, significant technology development will be 
required in order to achieve these priorities. Each science division 
within NASA's Science Mission Directorate will work with their 
communities, including the NRC and the subcommittees of the NASA 
Advisory Council, to identify critical technology needs for specific 
missions and their relative priorities in the context of the overall 
science program.

Q4.  The science community has commented on the absence of mechanisms 
by which the community can have input into NASA's space science program 
through its internal advisory process. A recent National Academies 
report recommended that ``NASA should consider changes in its advisory 
structure to shorten the path between advisory groups and relevant 
managers so as to maximize the relevance, utility, and timeliness of 
advice as well as the quality of the dialogue with advice givers.'' In 
specific terms, how do you plan to work with the space science 
community and with internal and external advisory committees?

A4. NASA restructured the NASA Advisory Council and its Committees and 
Subcommittees in November 2005 in order to ensure that the 
Administrator receives advice that is fully integrated across the 
science, engineering, and business disciplines involved. Over the last 
year and a half, the communications links between the NAC and its 
subcommittees and relevant NASA managers remain intact. Each of the 
science subcommittees of the NAC holds open meetings, which NASA 
mangers regularly attend and are often asked to make presentations. 
Further, each subcommittee generates a report for each meeting that, 
while addressed to the Chair of the NAC Science Committee, is copied to 
the relevant NASA science division director. Externally, NASA maintains 
its long-standing relationship with the Boards and Committees of the 
National Research Council/National Academy of Sciences, as well as the 
Astronomy and Astrophysics Advisory Committee (AAAC). Members of NASA's 
Science Mission Directorate (SMD) senior management team are regular 
participants at NRC Space Studies Board meetings, and at any given 
time, the Board has several studies underway to provide advice 
requested by the Agency on science community priorities. The next round 
of space science decadal surveys will begin formulation next year.
    In addition to these formal channels by which the community can 
provide input to NASA's SMD, the new SMD Senior Management team has 
begun a series of active townhall meetings with members of the science 
community as a way to receive informal feedback. These town halls occur 
across the country, with participants at science conferences and 
scientists at universities, research laboratories, and NASA centers. 
Through early June 2007, meetings have taken place in California, 
Maryland, Hawaii and Arizona. SMD has also established an e-mail 
address to receive questions, concerns, and suggestions from members of 
the science community.

Q5.  The Science Plan for NASA's Science Mission Directorate 2007-2016, 
notes that an important question is ``whether the science activities 
enabled by the human exploration program and identified as compelling 
by the science community have greater or lesser priority than 
activities previously planned by [NASA's Science Mission 
Directorate].'' How do you plan to address this question of priorities?

A5. NASA will address the question of priorities of science that 
derives from human exploration activities and capabilities using the 
results of the upcoming National Research Council (NRC) report on lunar 
science priorities, ``The Scientific Context for Exploration of the 
Moon.'' In addition, NASA will ask the next round of Decadal Surveys, 
beginning with the 2008 kickoff of the 2010 Astrophysics Decadal 
Survey, to incorporate human exploration-enabled science in their 
deliberations.

Q6.  You have informed the subcommittee that you will move NASA's Near-
Earth Object program, along with its associated funding, from the 
Exploration Systems Mission Directorate to the Science Mission 
Directorate. Could you please elaborate on your plans for the Near 
Earth Object program?

A6. The Near-Earth Object Observation (NEOO) program is being 
transferred back to NASA's Science Mission Directorate (SMD), along 
with its budget, effective in FY 2008. The Program will be housed in 
the Earth Science Division (ESD) as ESD studies hazards to the Earth, 
and NEOs are one such hazard, much like the ozone hole and global 
warming. While there are currently no plans to alter the budget for the 
NEOO program, NASA does plan to continue NEOO efforts after 2008 when 
the current survey down to one-kilometer sizes is completed. That new 
work will concentrate on reducing orbit uncertainties in catalogued 
NEOs, finding the few (10 percent) undiscovered NEOs with one km or 
larger sizes, and locating new but somewhat smaller NEOs. In addition, 
NASA's Planetary Astronomy grants program supports NEO observations 
that reveal new physical insights into their nature and our Discovery 
mission program is evaluating a finalist proposal to visit and sample 
an NEO.

Q7.  Dr. Stern, given the constraints on growth in NASA's space science 
programs, how do you plan to help ensure the lunar science program is 
sustainable? Where will the money for it come from?

A7. NASA's FY 2008 budget request includes $351 million over five years 
for a lunar science research project. This project, part of the Science 
Mission Directorate's Planetary Science Division, is being designed to 
provide for the activities outlined below:

        1)  Ingest and archive of Lunar Reconnaissance Orbiter (LRO) 
        and Lunar Crater Observation and Sensing Satellite (LCROSS) 
        data into the Planetary Data System;

        2)  competed opportunities for scientific payloads to fly on 
        both international missions;

        3)  competed opportunities to analyze scientific data from 
        lunar missions and accompanying scientific payloads;

        4)  competed opportunities to develop technology and 
        instruments to support lunar science studies; and,

        5)  competed basic lunar science investigation.

    Additionally, in 2010, SMD will take over the LRO mission from ESMD 
for an extended mission of lunar science observations. Funding to 
create the lunar science project came from the reprogramming of funds 
from lower priority activities within the Planetary Science Division. 
SMD is also encouraging the use of its existing orbital assets like the 
Hubble Space Telescope and Chandra for observing the surface of the 
Earth's moon.

Q8.  In your testimony, you talk about being an enthusiastic advocate 
of human exploration. You then go on to state that one of your three 
guiding principles for the Science Mission Directorate is ``to help the 
Vision for Space Exploration succeed.'' In specific terms, what changes 
do you plan to make to the goals, priorities, and plans of the Science 
Mission Directorate to help the Vision for Space Exploration succeed?

A8. NASA's Science Mission Directorate will support human exploration 
efforts by funding a developing lunar science community. This effort is 
included in the President's FY 2008 budget request as a new line item 
in the Planetary Science Division of SMD, with a total funding of $351 
million over five years. That funding will be used to analyze lunar 
data from the Lunar Reconnaissance Orbiter (LRO) and Lunar CRater 
Observation and Sensing Satellite (LCROSS) missions, to institute a 
lunar R&A program, to fund a science-driven mission extension of LRO in 
FY 2010, and to fund new instruments to fly on future foreign lunar 
missions.

Q9.  NASA has imposed cost ``caps'' on a number of its small- and 
medium-sized mission programs, such as Discovery. With the advent of 
full-cost accounting, are those cost caps still realistic or should 
they be adjusted? Have the cost caps proven to be an effective tool?

A9. While full cost charges have varied over time as full cost 
accounting has been implemented at NASA, the cost cap in each 
Announcement of Opportunity has taken this factor into account. These 
cost caps have increased in recent years for the purpose of 
compensating full cost accounting-driven increases in the cost of work 
done at NASA centers. Additionally, NASA has consistently instructed 
that all proposed mission costs include full cost accounting.
    Cost caps serve an effective role in guiding management decisions 
both within projects and at NASA Headquarters, and we plan to continue 
using cost caps on PI-led and other missions for this purpose. Some of 
the benefits of using cost caps are outlined below.

        <bullet>  Cost caps help bound the complexity of possible 
        missions, thus simplifying the evaluation and selection process 
        by ensuring there is no bias towards those missions with the 
        most complexity.

        <bullet>  Cost caps enable long-range program planning for 
        future solicitations since the maximum cost of each mission is 
        known.

        <bullet>  Cost caps provide clear and strategic limits on how 
        much mission implementation costs can grow after selection 
        without termination.

Questions submitted by Representative Ken Calvert

Q1.  Statements made by other witnesses indicate a strong preference 
for flying frequent small- and medium-sized competed missions, with a 
flagship mission once every decade. What would you consider to be a 
healthy tempo for competed, Principal Investigator-led missions?

A1. At our current budget level, the optimum rate for Principal 
Investigator (PI)-led missions is approximately one to two per year in 
each of our science disciplines: astrophysics, Earth science, planetary 
science, and heliophysics. The Agency is taking steps to move towards 
this level within our available resources. For example, NASA will 
select three Small Explorer (SMEX) missions, instead of one Medium-
Class Explorer (MIDEX) mission, in the next Explorer Announcement of 
Opportunity (AO), to be released this October. NASA also will release 
an Earth science PI-led mission AO in the 2008-2009 timeframe. Finally, 
NASA will increase the rate of sub-orbital PI-led missions, as 
evidenced by our recent selection of four new PI-led missions in the 
astrophysics and heliophysics sounding rocket programs. Within the next 
few months, NASA's Science Mission Directorate (SMD) will select new 
PI-led missions from the Discovery Program and from the Mars Scout 
Program. In addition, SMD plans to call for a number of different types 
of PI-led proposals in 2009.

Q2.  With respect to future deep space missions, what is the 
availability of RTGs (or other forms of nuclear power sources) to power 
spacecraft? How many would be available over the next decade?

A2. At the present time, the first Multi-Mission Radioisotope 
Thermoelectric Generator (MMRTG) is being qualified for the Mars 
Science Laboratory (MSL) rover mission, which is planned for launch in 
September 2009. Following qualification of MMRTG for MSL, one flight 
unit and a spare are planned to be ready in time for the scheduled 
launch opportunity. It is anticipated that use of MMRTG for a large 
mission to an outer planet destination such as Jupiter would require 
fabrication of six to seven more MMRTGs, assuming spacecraft power 
requirements do not exceed about 1 kilowatt at the beginning of the 
mission, and preferably no more than about 800 watts. NASA would work 
with the U.S. Department of Energy to determine resource needs and the 
schedule to meet potential launch dates.
                   Answers to Post-Hearing Questions
Responses by Lennard A. Fisk, Chair, Space Studies Board, National 
        Research Council

Questions submitted by Chairman Mark Udall

Q1.  NASA has imposed cost ``caps'' on a number of its small- and 
medium-sized mission programs, such as Discovery. With the advent of 
full-cost accounting, are those cost caps still realistic or should 
they be adjusted? Have the cost caps proven to be an effective tool?

A1. There have been two principal drivers that have required increases 
in cost caps: launch vehicle costs, and full-cost accounting, the 
primary impact of which has been increased management costs of 
missions. NASA needs to continuously assess the realism of the cost 
caps, to ensure that quality missions can be proposed and executed. The 
realism of the assigned cost caps can be validated by the proposals 
submitted. So long as the science community can propose and 
subsequently execute exciting missions within the assigned caps, the 
cap is realistic. As a management tool, the caps have been highly 
effective. Missions with caps have far fewer, and less-severe cost 
overruns than do the larger missions, which are generally not initiated 
with a cap in place.

Q2.  The National Academies report, Rising Above the Gathering Storm, 
recommends ``emphasis on physical sciences, engineering, mathematics 
and information sciences,'' as well as high-risk research, grants to 
early career researchers, and funding for advanced research 
instrumentation and facilities, among other actions, that can help 
foster innovation and sustain a strong economy. How relevant are NASA's 
space science research programs to those recommendations? Can you offer 
any specific examples? NASA's science program was not included in the 
President's American Competitiveness Initiative (ACI). Would you 
advocate NASA's science programs be made part of the ACI in future 
budgets? If not, why not?

A2. There are three areas in which NASA science could participate in 
the ACI: education, direct impact on the economy, and fundamental 
knowledge:
    Education: Currently and historically, NASA's most important 
contributions to education have come from the Science Mission 
Directorate (SMD), and, when it existed, the program in physical and 
biological sciences in microgravity. Hands-on projects have been 
provided for undergraduates and graduate students, fellowships have 
been available, and most R&A grants to universities provide support for 
students. Students are trained by participating in projects of varying 
complexity, ranging from sounding rockets and balloons, to actual space 
instrumentation that is being built in university labs.
    In recent years, NASA has cut back dramatically on its support for 
university research labs, particularly those doing space hardware. This 
is the result of reduced flight opportunities of small and moderate 
missions, and a retrenchment into the NASA centers. The consequence has 
been fewer and fewer opportunities to train undergraduate and graduate 
students in the construction of actual space hardware. The historical 
role that NASA has had to provide the Nation with a technically 
competent workforce has been greatly abated.
    A useful role for NASA in the ACI would follow from an initiative 
to enhance the participation of the Nation's research universities in 
the development of space hardware, thereby, as a direct consequence, 
providing hands-on experience for students. It is important to note 
that these are not to be watered-down projects, such as student 
satellites. There is no reason why university researchers and their 
students cannot develop the most sophisticated instruments needed for 
forefront research.
    Direct Impact on the Economy. There are certain NASA science 
disciplines that have direct impact on the American economy. Foremost 
is Earth science, and to a lesser degree, heliophysics [the influence 
of the Sun on the climate and space weather]. Knowing what is the 
immediate future of the climate is essential to a variety of 
industries, from agriculture to insurance, to the auto industry, to 
coastal infrastructure, etc.
    The current funding for Earth science is not adequate to provide 
the required information on the future of the climate. There are also 
deficiencies in the funding for heliophysics, particularly if space 
weather, and its influence on space or ground assets, is considered 
important.
    Fundamental Knowledge. All of the science disciplines in NASA--
astrophysics, planetary, Earth science, heliophysics, life and physical 
sciences in microgravity--provide fundamental knowledge. Since this is 
a thrust of ACI, with the inclusion of the NSF and the DOE Office of 
Science, each of the NASA science disciplines could be an active 
participant in ACI.

Q3.  A recently released study of the National Academy of Sciences on 
Building a Better NASA Workforce recommended that: ``. . .NASA increase 
its investment in proven programs such as sounding rocket launches, 
aircraft-based research, and high-altitude balloon campaigns, which 
provide ample opportunities for hands-on flight development experience 
at a relatively low cost of failure.''

Q3a.  Could you please explain in concrete terms how the sub-orbital 
programs are used to train students and young workers?

A3a. There is a very powerful statement that can be made about the sub-
orbital program: Essentially every major experimentalist currently 
executing NASA's space and Earth science program learned his/her skills 
in the sub-orbital program. The projects are of limited duration, and 
thus can be executed during the time required for a graduate thesis. 
They involve the essential skills of system management and data 
analysis, as well as challenging engineering.
    The sub-orbital program has been reduced systematically over the 
years, to where it is now a shadow of its former robustness. With the 
arrival of Alan Stern as Associate Administrator, there has been some 
welcome revitalization to the sub-orbital program, but it is still 
inadequate to meet the needs of training the next generation of 
experimentalists.

Q3b.  What do these sub-orbital programs typically cost and do they 
produce peer-reviewed research?

A3b. There are certain science disciplines that can use the sub-orbital 
program effectively. Sounding rockets can study plasma phenomena such 
as the aurora directly, and sounding rockets and particularly balloons 
can be used for forefront astronomical observations. There are also 
aircraft that can be used as appropriate platforms for astronomical and 
Earth science observations. It would be helpful in Earth science, if 
there were a more robust program in Unpiloted Airborne Vehicles (UAVs). 
Other disciplines, such as the study of the heliosphere, where it is 
necessary for a spacecraft to make in-situ observations, cannot profit 
from the sub-orbital program for science; however, instrumentation that 
will ultimately fly on a spacecraft can be tested.

Q4.  NASA's Research & Analysis (R&A) programs are mentioned as being 
critical for developing new mission concepts and advanced technology. 
What impacts will the cutbacks in R&A have on the opportunities for 
future missions and programs? If R&A remains at current levels, what 
are we likely to see, or not see, in the next five years?

A4. Science is an evolutionary process. We make observations, and then 
we develop theories and models to explain the observations. The 
theories and models then demand new observations as tests. Similarly, 
we build our missions on existing technology, but in the process 
recognize the opportunities that new technology can provide us. The 
availability of the new technology, plus the demand, results in new 
missions. The R&A program, with its support of theory and modeling, and 
technology development, is the lynchpin in this evolutionary process. 
The program sits at the nexus between what we have done and what we 
want to do.
    Historically in NASA science, when the flight rate was low, the R&A 
program was enhanced, to increase the demand and the opportunities for 
new missions. The flight rate and funding for R&A have thus been anti-
correlated. The odd part of the recent cuts in R&A is that they 
occurred when the flight rate is in decline. It thus follows, that at 
the current reduced funding level, the R&A cannot readily serve its 
historical role in the evolutionary process of advancing space and 
Earth science.

Q5.  What is the current frequency of Explorer and Discovery missions, 
and what do you believe should be the frequency of launch opportunities 
if we want to sustain a healthy space science research program in each 
of the disciplines?

A5. The Explorer program, which supports the astrophysics and 
heliophysics program, is NASA's oldest flight program. Over the 49-year 
history of the space program, there have been more than 100 Explorers, 
or an average of more than two per year. The flight rate today is a 
small fraction of this rate, as a consequence of more than $1 billion 
having been removed from the runout of the Explorer line. The Discovery 
program has fared somewhat better, being better able to maintain its 
historic flight rate of about one every other year. Other moderate 
missions, such as the Solar Terrestrial Probes (STP), have greatly 
reduced flight rates, since the first mission in this line has been 
allowed to grow substantially in cost. In Earth science, the Earth 
System Science Pathfinder (ESSP) missions are effectively at a stand 
still, and, so far, it has not been possible to initiate the new 
missions called for in the recent decadal survey for Earth science. As 
a consequence of all these reductions and delays, the flight rate for 
small and moderate missions is greatly reduced. The total fight rate 
for all NASA science missions will be under two per year in 2010-2012, 
compared to an historical rate in the 1990s of an average of seven per 
year.
    Clearly, it is necessary to restore the flight rate of small and 
moderate missions. These missions not only perform excellent science, 
but they are an essential part of the continuum that is essential for 
the development of human capital and technology; it begins with R&A and 
extends through small and moderate missions, to NASA's most challenging 
flight programs. A reasonable goal would be to return the overall 
flight rate of science missions to above seven per year, balanced 
across the disciplines. Since there is no room in the budget for 
additional large programs, this can be accomplished only by additional 
small and moderate missions. In addition, a major Earth science 
initiative to implement the recommendations of the decadal survey 
should be allowed to increase the flight rate even further.

Q6.  In your view, what role does the structure of the advisory system 
play in ensuring the strength of the space science programs?

A6. Early in the history of the space program, a very effective 
advisory structure for science developed. The National Academies' 
National Research Council, primarily through the Space Studies Board, 
provided strategic advice, and the internal NASA advisory committees, 
particularly those that advise the Science Mission Directorate and its 
predecessor offices, provided the tactical advice for implementing the 
strategies. This advisory system, which was practiced for 40 years, has 
ensured the quality of NASA science. Recently, NASA has effectively 
abolished the internal NASA advisory structure, particularly the advice 
that was given directly to the Associate Administrator for the Science 
Mission Directorate. This is an unfortunate loss, and removes from the 
Associate Administrator an effective means to formally interact with 
the science community. It is possible to work around this deficiency, 
and there is an expectation that the current Associate Administrator, 
Alan Stern, will. Nonetheless, in the next NASA administration, the 
decision to abolish the internal advisory structure for science should 
be reversed.

Questions submitted by Representative Ken Calvert

Q1.  What metric should NASA use to establish an appropriate level of 
technology development investment across the programs? Should it be a 
percentage of the overall program funding, or should it be a fixed 
amount?

A1. This question does not have a simple answer. The technology 
investment required, as well as R&A funding in general, will vary from 
discipline to discipline. It will depend on the current state of 
technology development for the discipline; is it adequate to support 
future missions or are major breakthroughs required to advance the 
science? For example, as noted above, there is a logic in making more 
R&A investments when the flight rate is low, to yield a greater flight 
rate, and thus funding R&A should not be a simple percentage of the 
existing program.
    This is an area that is worthy of a detailed study to set up 
appropriate strategies for R&A funding for each science discipline. R&A 
funding is perceived to be inadequate, particularly with the recent 
cuts, and it is important to have a detailed defendable strategy to 
justify the restoration of funds and any future funding level.

Q2.  What mission assurance and management requirements imposed by NASA 
do you believe are counter-productive or impose costs that are 
disproportionate to the size of the mission, or that offer little added 
value?

A2. Over the decades, the United States has developed great 
capabilities to execute space and Earth science missions. The expertise 
resides in university labs, in industry, as well as in the NASA 
centers. In the best of worlds, the organizations with expertise and 
experience are allowed to perform their tasks in the most cost-
effective manner possible, with the aim that they achieve mission 
success. Many of these projects are managed out of NASA centers. With 
full-cost accounting, and the need to justify the civil service 
workforce, the number of individuals participating in this management 
has grown substantially. It is not obvious to experienced scientists 
and engineers that this additional management oversight, which carries 
a cost for both the NASA center and the contractor, adds value and 
reduces risk. Rather, it is more likely that risk is increased since 
the oversight, if extreme, can reduce the attention paid to good 
engineering practices. For larger, more complicated missions, highly 
sophisticated management oversight is required. However, the 
distracting practices are particularly onerous for small and moderate 
missions, and of no clear benefit.

Q3.  How should NASA and the space science disciplines best develop 
estimated mission costs, at a reasonable level of confidence, during 
the next round of decadal surveys? Who should perform these estimates? 
What level of confidence do you believe is appropriate?

A3. In the current Beyond Einstein Program Assessment Committee 
(BEPAC), the NRC has engaged a subcontractor specializing in cost 
estimating to perform independent cost estimates for the missions under 
consideration. If this arrangement proves satisfactory, it will be an 
appropriate model to follow for the next round of decadals and other 
NRC priority setting studies. The cost of such studies to the 
sponsor(s) will increase commensurately, but the final product would be 
more valuable in that priorities would be set with greater clarity 
about project costs, and assurance that the cost estimate was developed 
independently of the project, as well as the Agency overall. The NRC 
does not take a position on what level of confidence should be used for 
such cost estimates, and will rely on the sponsor to specify the level 
of confidence required. NASA's current policy for missions in the 
Science Mission Directorate is 70 percent, and that is the confidence 
level being used for BEPAC.
                   Answers to Post-Hearing Questions
Responses by Garth D. Illingworth, Chair, Astronomy and Astrophysics 
        Advisory Committee (AAAC)

Questions submitted by Chairman Mark Udall

Q1.  NASA has imposed cost ``caps'' on a number of its small- and 
medium-sized mission programs, such as Discovery. With the advent of 
full-cost accounting, are these cost caps still realistic or should 
they be adjusted? Have the cost caps proven to be an effective tool?

A1. With the advent of full-cost accounting, are these cost caps still 
realistic or should they be adjusted? There has been a growing sense 
that the previous cost-caps were too small for Explorers and Discovery 
missions. It has become increasingly difficult to undertake cutting-
edge science programs within the cost-caps. Several changes have 
contributed to this, in addition to the impact of full-cost accounting. 
NASA advocated an increase in contingency to 30 percent for these 
programs several years ago, given the concerns with continuing overruns 
in the cost-capped missions. The Space Science Advisory Committee 
(SScAC) supported increasing the contingency to try and minimize 
overruns, even though it appeared to limit what the proposing team 
could do within the cost-cap. A further problem is the increasing cost 
of launch vehicles for Explorer and Discovery missions, especially with 
the discontinuation of the Delta launch vehicles. There is another 
factor also which reflects the increasing maturity of the scientific 
studies in the Planetary and Astrophysics programs. The ``low-hanging 
fruit'' has been picked, i.e., the easiest studies have, in many cases, 
been done already. This results in future missions needing more 
sophisticated detection systems and/or larger optics, both of which 
tend to drive costs higher. While increases in cost caps will trade 
against mission frequency, unless the budgetary situation improves 
significantly, it is my sense that many prospective projects that have 
high scientific value are potentially excluded with the ``traditional'' 
level of cost caps and so some reduction in frequency for higher cost-
caps might be an appropriate trade-off.
    The cost-cap for the last Discovery mission proposals proved to be 
extremely challenging for the Astrophysics missions that were proposed 
for planet searches. Increases are needed, at least to accommodate 
planet search options. The next Explorer call for proposals will need a 
much larger cost-cap than that used in 2002 to offset the effect of 
full-cost accounting, appropriate levels of contingency, and the 
uncertainty and likely higher cost associated with the launch vehicle. 
The cost-cap associated with the Astrophysics Probes, now being 
discussed as an analog to the Planetary Division's New Frontiers 
program, will need careful consideration as well, since all the same 
elements (full-cost accounting; contingency; launch vehicles) will 
challenge those $0.6+B scale missions as well.
    Have the cost caps proven to be an effective tool? It is my view 
that cost caps are an effective tool. They are no guarantee that 
missions will come in on budget, but the caps provide a number of 
advantages. First, they provide great pressure on the proposing team 
and the NASA center to rigorously assess the likely cost of the mission 
before and during the proposal process. The cost caps also provide 
similar pressure during the Phase A process after preliminary selection 
and before final selection. Second, they provide some very specific 
budget points at which the agency and its advisory committees begin to 
discuss the project performance. This provides additional pressure on 
the project to work to the budget. There are no guarantees that any 
project will come in on-budget, but the cost-capped missions do have a 
number of mechanisms that help this situation. The recent emphasis on 
the experience of the PI before selection, and on the performance of 
the PI during development and construction, provides an additional 
pressure point on the project. Overall it is my view that cost-capped 
programs are a very desirable component of the mission suite in SMD, 
but more realistic cost-caps are needed.

Q2.  The National Academies report, Rising Above the Gathering Storm, 
recommends ``emphasis on physical science, engineering, mathematics and 
information sciences'', as well as high-risk research, grants to early 
career researchers, and funding for advanced research instrumentation 
and facilities, among other actions, that can help to foster innovation 
and sustain a strong economy. How relevant are NASA's space science 
research programs to these recommendations? Can you offer any specific 
examples? NASA's science program was not included in the President's 
American Competitiveness Initiative (ACI). Would you advocate NASA's 
science programs be made part of the ACI in future budgets? If not, why 
not?

A2. How relevant are NASA's space science research programs to these 
recommendations? NASA's science programs are extremely relevant to the 
issues and concerns raised in the Gathering Storm report. A substantial 
fraction of NASA's science programs relate directly to the areas 
highlighted in Gathering Storm as needing emphasis, namely physical 
science, engineering, mathematics and information sciences. 
Furthermore, NASA's science programs bring a largely unique coupling 
between academia (university and research organizations), industry 
(aerospace contractors) and government (NASA centers) on cutting-edge, 
high-technology projects.
    Can you offer any specific examples? I think the cost-capped PI 
missions (e.g., Explorers, Discovery, Astrophysics Probes, New 
Frontiers) are particularly good examples of programs that have these 
interfaces and encourage innovative thinking. However, at the other end 
of the cost scale, I also think that missions like JWST are 
particularly responsive to these recommendations. They bring together 
the best people from a wide range of areas, encourage them to work 
together innovatively and demand cross-cutting skill development that 
is remarkably valuable for all those involved. The end product of the 
JWST effort will be a mission like Hubble in its likely impact and thus 
likely to be the seed from which great public interest in the physical 
sciences will grow.
    NASA's science program was not included in the President's American 
Competitiveness Initiative (ACI). Would you advocate NASA's science 
programs be made part of the ACI in future budgets? Given the above 
aspects and roles of the NASA science program, and its national 
recognition, the NASA science program should be considered especially 
deserving of any funding gains that might grow from Gathering Storm 
and, in particular, therefore deserving of inclusion in ACI. I 
personally advocate, very strongly, that NASA's science programs be 
made part of ACI in future budgets, and hope that Congress is willing 
to support and increase funding for NASA's science programs as part of 
its Innovation Initiative. The AAAC has also endorsed this approach 
through one of its primary recommendations for NASA in the 2007 AAAC 
Annual Report:

         ``The American Competitiveness Initiative (ACI) recognized the 
        challenges faced by the Nation in staying at the forefront of 
        scientific and technological development. Research is essential 
        to innovative activities and underpins a technologically-
        competitive society, as highlighted in the NRC report Rising 
        Above the Gathering Storm. The exclusion of NASA science from 
        the ACI, in contrast to the inclusion of DOE science, is 
        inconsistent. There is no question that NASA is at the cutting-
        edge of science and technology research.

         This exciting and highly visible research contributes to the 
        vitality of the national skill set and has encouraged young 
        people to move into science and engineering. The Congressional 
        interest in Innovation and Competitiveness enables a fresh 
        opportunity for enhancing NASA science. The AAAC strongly 
        encourages Congress to consider enhancing the support for 
        science at NASA explicitly to improve innovation and 
        competitiveness, as has been done for NSF and DOE science.''

Q3.  A recently released study of the National Academy of Sciences on 
Building a Better NASA Workforce recommended that: ``. . .NASA increase 
its investment in proven programs such as sounding rocket launches, 
aircraft-based research, and high-altitude balloon campaigns, which 
provide ample opportunities for hands-on flight development experience 
at a relatively low cost of failure.''

        a.  Could you please explain in concrete terms how the sub-
        orbital programs are used to train students and young workers?

        b.  What do these sub-orbital programs typically cost and do 
        they produce peer-reviewed research?

A3. A continuing concern for the science community has been the ability 
to train young researchers in the complexities and details of space 
science missions. This has traditionally happened through the sub-
orbital programs (rockets and balloons most typically for Astrophysics) 
and through the Explorer-class missions. However, the Explorer-class 
missions, even small Explorers (SMEX), happen rarely, involve long 
timescales from proposal to fruition (typically five years or more), 
and are now at cost levels ($300+M for an Explorer and >$100M for a 
SMEX) that makes student and postdoctoral involvement challenging. The 
sub-orbital programs appear to be the best mechanism for doing these 
``training'' activities. While I have no direct experience with the 
sub-orbital program, recent discussions confirmed my view that the 
rocket program, as an example, allows for direct, end-to-end, hands-on 
involvement by students and postdocs and so can provide for 
substantially training that is of great value in building up a cadre of 
researchers who have developed significant experience with doing 
science in space. The sub-orbital program faces challenges in the 
present funding environment, like many areas, and it would be valuable 
for the upcoming Decadal Survey to assess its value for training and 
science, and to provide some guidance on the role that the sub-orbital 
program should play in the coming decade in astrophysics.
    Could you please explain in concrete terms how the sub-orbital 
programs are used to train students and young workers? As an example 
(which surely varies by program in its details), a typical rocket 
flight can give a student or postdoc insight into most of the elements 
that constitute a ``science'' space mission. A typical rocket program 
might run from instigation to published results in a couple of years. 
The young researchers involved with a program could be involved in 
concept development and science experiment ``design,'' to hardware 
design, through ``bread-boarding'' to construction and testing in the 
home institution, to integration at the launch facility (at NASA's 
Wallops Flight Facility), launch and science data acquisition (even 
doing real-time control of the experiment), and then to data analysis 
and publication. If the peer-reviewed publication that results is done 
by a graduate student, then that publication would constitute a 
significant part in the Ph.D. thesis of the student. Being involved in 
this sequence of events, with the interactions with engineering 
personnel and rocket operations personnel, gives a young researcher 
valuable insight into the steps involved in doing space mission 
development. They can build on this subsequently with involvement in 
more complex and expensive programs and missions.
    What do these sub-orbital programs typically cost and do they 
produce peer-reviewed research? The sub-orbital program is 
distinguished by being inexpensive (relative to orbital missions). The 
2007 budgets for sounding rockets, balloons and aircraft at Wallops are 
$32M, $22M and $10M. These are modest programs in NASA terms. The 
flight opportunities for rockets and balloons are typically 20 per 
year. A typical rocket mission is thus in the million-dollar range ($1-
2M), very low compared to any Explorer. Balloon programs have also been 
of significant value to the overall science program, and provide 
similar training opportunities at similar modest cost (by space mission 
standards). Of course, the science returns from a typical sub-orbital 
program are less than from an Explorer, as would be expected, but the 
combination of training and science from the sub-orbital program is of 
great value. Even though the costs are modest these programs are quite 
competitive and involve selection through peer-review. The sub-orbital 
programs have consistently produced peer-reviewed research. It is well 
recognized in the community that one must publish in peer-reviewed 
Journals to be seen as successful, and the same is true if one is to be 
competitive in subsequent competitions for R&A support and access to 
the sub-orbital facilities. The research from the sub-orbital program 
has played a significant role in a large number of Ph.D. theses, as 
noted above, and resulted in publication in peer-reviewed journals. The 
peer-reviewed research productivity has then been a factor in the peer-
reviewed selection of subsequent sub-orbital proposals.

Q4.  NASA's Research and Analysis (R&A) programs are mentioned as being 
critical for developing new mission concepts and advanced technology. 
What impacts will the cutbacks in R&A have on the opportunities for 
future missions and programs? If R&A remains at current levels, what 
are we likely to see, or not see, in the next five years?

A4. Research and Analysis (R&A) funds are used for a very wide range of 
activities related to the NASA science program. These are directly 
relevant for science productivity and science preparation for future 
programs through the theory component, through a variety of diversified 
research activities that improve the foundations and underpinnings of 
the scientific framework, and through training and development of young 
scientists. These young scientists are the future researchers who will 
both implement and provide the scientific returns. Furthermore, R&A 
funds have been used for technology development and for mission concept 
development. Major projects, in particular, typically take decades from 
concept development to launch. This was true of AXAF (Chandra), which 
was developed conceptually back in the 1970s and eventually launched in 
1999 after 20+ years. The same was true of SIRTF (Spitzer), which also 
took some 20+ years from initial conceptualization to launch. NGST 
(JWST) will launch in 2013, but the first international workshop took 
place in 1989. I personally was a co-organizer on that workshop and 
know directly the importance of support in the early stages for concept 
development. During much of the 1980s and 1990s key technologies were 
developed for these and other missions (including the HST 2nd and 3rd 
generation instruments) using a variety of funding sources, but many 
development activities by scientists and organizations were carried out 
using R&A-like funds. It is hard to quantify the role that R&A funds 
played, and would require a substantial effort to trace the use of 
funds in the early stages of mission development and their ultimate 
role in early project and technology development. The anecdotal 
evidence is widespread, however, with many senior scientists noting how 
support for them allowed for significant efforts on the early phases of 
major projects, both on hardware development and on concept 
development.
    What impacts will the cutbacks in R&A have on the opportunities for 
future missions and programs? The level of effort in such areas is now 
substantially less, even within the NASA centers, and considerable 
concern exists that we are not investing enough for the missions of the 
next decade and beyond. I do not see the same level of involvement in 
future missions and programs that existed in the 1990s. I think that 
the involvement of the University/academic community in long-range 
development is not at a healthy level for providing the ground-work for 
the major missions of the next decade and beyond, nor even for the next 
round of larger cost-capped missions. Innovative efforts are being 
limited by R&A funding shortfalls. The level of funds available for 
small missions, like Explorers, has an impact too. The recent SMEX 
(Small Explorer) announcement is good, but they provide less 
opportunities for Astrophysics than for Heliophysics--the Astrophysics 
science opportunities within the SMEX size, weight and orbital 
constraints are limited.
    If R&A remains at current levels, what are we likely to see, or not 
see, in the next five years? Unfortunately, since it takes about five 
years to do even the smallest missions, any changes that we implement 
now will not have an impact for longer than five years. This is why the 
dramatic decrease in missions in SMD beyond 2009 (and in Astrophysics 
in particular) is such a concern (see the Figure below from my 
testimony to the Subcommittee). To increase the mission frequency by 
the middle of the next decade will require an increase in the budget 
for small and moderate missions in the next couple of years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q5.  In your view, what role does the structure of the advisory system 
play in ensuring the strength of the space science programs?

A5. I have been involved with, and on, advisory committees for the 
agencies, and NASA in particular, for some 20 years, and will have 
chaired the Astronomy and Astrophysics Advisory Committee (AAAC) for 
four years when my term ends next year. It is my view, based on this 
extensive experience, that the advisory structure for the science 
agencies plays an incredibly important role as an interface between the 
community--which sets the broad goals, defines the mission or project 
suite, and carries out the scientific research program--and the agency 
which implements and manages the very complex missions and projects, 
and enables the science program. The management and implementation of 
these activities is clearly an agency responsibility, but the 
effectiveness of their role is crucially dependent on a continuing 
dialogue and advice from the community as the implementation realities 
impact projects, and as agency budgets and goals evolve. This is 
particularly true of NASA where there is a very complex set of 
interfaces with the agency, both at HQ and the Centers, the science 
community and with the contractors, and where the political environment 
plays such an important role (given the fiscal scale of the missions 
being undertaken). The AAAC paid particular attention to the lack of an 
advisory process in 2005 and early 2006 when the NASA advisory process 
was in abeyance, and wrote extensively about its importance. The AAAC 
followed up on this in its most recent 2007 report. The AAAC summary 
statements regarding advisory committees at NASA for the science 
program are given below:
    The AAAC statement regarding the NASA science advisory structure in 
our 2006 report was: ``For the past year the lack of an advisory 
structure for NASA--and for science at NASA--has been a deep concern 
for the community. By the time the new science advisory committees are 
selected, approved and assembled, a year will have passed without 
discussions on issues that are critical for the community and for NASA 
science. During that time, far-reaching decisions were made without any 
scientific input (e.g., the effective cancellation of SOFIA whose 
budget was reduced to $0 in FY 2007 and beyond without a review). The 
AAAC welcomes the creation of a new advisory structure. However, we and 
others are concerned that this structure may not be as effective as 
that previously employed. The lack of close coupling of the science 
subcommittees to the SMD leadership is likely to be a significant 
impediment. The AAAC has every hope that the new structure will work 
effectively and in a timely way by providing feedback to SMD quickly 
with minimal modification. However, if the structure is perceived by 
either party to be ineffective, the AAAC hopes that the Administrator 
and the Associate Administrator for Science will evolve the structure 
to better serve NASA and the community. These committees play an 
essential role in optimizing the science program within the 
programmatic and budgetary constraints faced by the agency and thus are 
of great value both to NASA and to the community. The NASA advisory 
process has been a mainstay of a productive and mutually beneficial 
relationship with the space and earth science community, including the 
astronomy and astrophysics community. The AAAC considers effective 
advisory committees to be essential for developing consensus and 
support for an effective science program.''
    The AAAC statement regarding the NASA science advisory structure in 
our 2007 report was: ``The AAAC expressed great concern last year in 
our report about the lack of an advisory process at NASA. We were very 
encouraged when the new NASA advisory committees were established. The 
new structure does differ from that used previously, providing a 
clearer path for advice to the Administrator. The new structure has, 
however, lost a valuable role that was once provided by the Space 
Science Advisory Committee (SScAC). That structure encouraged dialogue, 
on wide-ranging issues that cut across the SMD divisions, between SMD 
and a broadly-representative group from the science community. An 
improved interface with SMD is in the best interests of both NASA and 
the science community to restore this important two-way communication 
link that has contributed to the success of NASA science in the past. 
The AAAC welcomed the re-establishment of the advisory structure at 
NASA last year, but notes that dialogue between SMD and a broadly-
representative group from the science community is missing in the new 
structure.''

Q6.  Your testimony mentions the creation of an ExoPlanet Task Force 
that will consider the missions and science related to the search for 
extrasolar planets. What is the charge for this task force? Will it 
provide advice on the future direction for the SIM and TPF missions?

A6. The ExoPlanet Task Force is a subcommittee of the AAAC. The charge 
letter is attached separately, along with the request letter from the 
AAAC. These can also be found on the AAAC website (see: http://
www.nsf.gov/mps/ast/exoptf.jsp), along with the list of members. The 
AAAC requested that the agencies consider setting up a task force to 
assess how to move forward in a coordinated way (ground and space) on 
extra-solar planet detection and characterization. The core statement 
of that letter was:

         ``Over the last year there have been discussions at several 
        AAAC meetings about establishing an ExoPlanet Task Force 
        (ExoPTF) to assess approaches and options for extra-solar 
        planet detection and characterization, using both space and 
        ground-based facilities. Planet searches are technically 
        challenging and projects that will enable major advances have 
        long development lead-times and will be costly. Planned space 
        missions and major ground-based instruments will provide near-
        to-intermediate term results, but the way forward on a 
        synergistic, cost-effective approach involving both space and 
        ground-based facilities remains unclear. In the 2006 AAAC 
        Annual Report the AAAC recommended the formation of such a task 
        force later this year so that its report would be available 
        late in 2007 or early in 2008, providing guidance both to the 
        agencies and the upcoming Astronomy Decadal Survey.''

    What is the charge for this task force? The charge letter consists 
of three pages of background, a broad statement of the charge, and ten 
explicit questions to be addressed by the committee. The broad 
statement of the charge from the attached charge letter is:

         ``The ExoPTF is asked to recommend a 15-year strategy to 
        detect and characterize exo-planets and planetary systems, and 
        their formation and evolution, including specifically the 
        identification of nearby candidate Earth-like planets and study 
        of their habitability. The strategy may include planning and 
        preparation for facilities and missions beyond the 15-year 
        horizon. Since future funding levels are uncertain, and project 
        costs are difficult to establish at an early stage, it is 
        important to develop an efficient and adaptable plan. To the 
        extent possible, the recommendations should accommodate a range 
        of funding levels representing conservative and aggressive 
        programs. The ExoPTF will work in cooperation with agency 
        efforts to advance the justification, specification and 
        optimization of planet finding and characterizing 
        opportunities.''

    Will it provide advice on the future direction for the SIM and TPF 
missions? The ExoPTF will certainly be thinking about SIM and TPF and 
their role in the overall suite of missions, telescopes, instruments 
and projects that will be part of the framework for the next decade or 
so of extra-solar planetary research. The committee is being asked to 
provide guidance on the type of capabilities and sequencing of 
capabilities that are needed to undertake a vibrant program of extra-
solar planetary studies. They are being asked to not consider specific 
missions, but the expectation is that they will provide guidance and 
recommendations which will bear strongly on the role that SIM and TPF-
like missions will play in the coming 1-2 decades.

Q7.  Please provide your recommendations for what the highest priority 
uses of any additional resources should be if they become available for 
science at NASA in the FY08 appropriations process?

A7. At the highest level I think it is important to enhance the science 
budget for NASA. The NASA science program has been incredibly effective 
in its exploration of new frontiers and in its coupling to the American 
public through a very effective outreach program. The strength of the 
response to the Hubble cancellation was a testament to the 
effectiveness of the science program in coupling with the public's 
imagination. Thus I feel that NASA and SMD should get at least the 
funding level in the FY08 budget request. Furthermore, I would hope, as 
enunciated above, that NASA SMD is seen in the same light as NSF, DOE 
science and NIST and gets ACI-like increases which set it on a track 
for substantial recovery and increases in the FY08 appropriation 
(through the Congressional Innovation effort, for example) that are 
above the FY08 request. Increases in the SMD budget at the 7 percent 
level, like the ACI increases at the other agencies, would do much to 
restore the vitality of the science program. These funds would provide 
a much more robust future for the science program by increasing the 
mission flight rate in the next decade, and would generate greater 
science return and output from the current and near-future missions.
    I believe that the details of how these funds would best be used 
would be through discussion by SMD with its advisory committees. In the 
spirit of the question however, I personally think that additional 
resources would be most effectively used for (i) recovery and increases 
in peer-reviewed and competed R&A funding, (ii) a variety of peer-
reviewed and competed technology development programs (particularly 
those that encourage the science community to invest effort on 
technologies with their students and young researchers--I would be less 
supportive at this stage of those funds going largely to the NASA 
Centers and/or contractors for technology development), and (iii) more 
cost-capped missions of the Explorer, Discovery or Astrophysics Probes 
scale. I think that relatively modest investments in these areas would 
return a great deal of scientific results, begin development of new 
concepts, and provide opportunities for a wider range of science 
missions on relatively short timescales.

Q8.  In your testimony, you highlighted the importance of obtaining 
both more realistic cost estimates of missions, including the use of 
life cycle costs. You gave some examples, but it would be useful for 
the Subcommittee to have a tabulated summary of life cycle mission 
costs for past and present astrophysics missions on a uniform basis (as 
much as is practical) in current dollars including full-cost accounting 
estimates, with any assumptions given as well. Please provide that 
information to the Subcommittee, working with NASA to ensure that the 
cost numbers are developed consistently.

A8. The importance of having life cycle costs for missions has been 
dramatically demonstrated over the last few years. The use of 
``construction costs'' in community discussions has contributed to 
``under-costing.'' For many programs the bulk of the costs are not in 
construction (Phase C/D) but actually in Phase B and earlier 
activities, and in operations. An extreme example is SOFIA which stands 
at $3.4B life cycle (in actual year dollars), but whose Phase C/D 
costs, while hard to define because of the poor management oversight 
and structure for this program, is probably around $0.6B. Even for 
major missions such as JWST and SIM, the Phase C/D costs are about 30-
40 percent of the total. For planning it is essential to develop 
reliable cost estimates and to use life cycle costs (over the lifetime 
of the mission) in the discussions between NASA and the community. This 
will ensure that program planning within the astrophysics Decadal 
Survey, and subsequent agency roadmaps, can be carried out within 
likely budgets.
    The Table below summarizes life cycle mission costs (LCC) in 
constant 2007 dollars, with a summary of the caveats/comments 
appropriate for the derivation of these numbers. These numbers are from 
the NASA Science Mission Directorate (SMD). Since these numbers were 
derived by NASA, I would hope they become the baseline numbers for 
subsequent discussions of mission costs. Obviously taking costs from 
past missions done under very different accounting structures and 
converting them to present day structures will be uncertain, but they 
provide a very useful guideline for planning purposes and for setting 
the scale for missions under discussion. They are estimated as likely 
to be accurate to better than 10 percent, probably about 5 percent. I 
would like to express my deep appreciation to the NASA SMD leadership 
for providing these numbers and notes for the response to this 
question.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Questions submitted by Representative Ken Calvert

Q1.  What metric should NASA use to establish an appropriate level of 
technology development investment across the programs? Should it be a 
percentage of the overall program funding, or should it be a fixed 
amount?

A1. What metric should NASA use to establish an appropriate level of 
technology development investment across the programs? The level of 
technology development funding required for a given project will depend 
on a number of factors. My feeling is that there are three primary 
factors: (i) the maturity of the technology, (ii) the maturity of the 
project, and (iii) the scale of the project. There will be a wide 
dispersion in the needed funding for technology, but all science 
projects are demanding of technology and require early technology 
development to minimize risk and minimize overall cost. During the 
early phases of a project the cost of developing and retiring 
technologies can be rather small, though there are disadvantages to 
working some technologies too far ahead of the mission (they could 
become outdated). For Discovery and Explorer-class missions, even 
funding levels around $1M/yr at the pre-proposal and Phase A stage can 
make a significant difference in the maturity of the technologies and 
the likelihood that the mission can be selected and implemented 
effectively. This is not the case with larger missions. Even during 
their early phases they may require budgets more like $10M/yr to make 
significant progress, in part because a number of key technologies must 
be developed and demonstrated. The AAAC in its deliberations and 
discussions with NASA personnel came to see at least $10M/yr as a 
figure that was needed for missions like Con-X, LISA, and TPF to 
develop to the point where useful assessments could be made of their 
likely cost and readiness for moving ahead for further development.
    The funding required when missions transition to Phase B can be 
significantly higher. Substantial funding was needed for AXAF (Chandra) 
to develop the mirror technology to the point where the project could 
convince review boards that the project was ready to move forward. The 
approach currently being taken by JWST is one that was chosen after it 
was realized that much of the cost growth in the HST program came 
because required technologies were being developed during construction 
(Phase C/D). This can lead to large cost overruns when the marching 
army pauses because of a problem in a key system. While JWST has had 
its problems, we should not lose site of the very rational approach 
that was developed with this mission based on the experience with HST 
(and others such as AXAF)--that is, all technologies should be at TRL-6 
before JWST transitions to Phase C/D. The goal is have this project 
proceed rapidly through construction (Phase C/D) in 5 years, with 
minimal risk of delays from unresolved technology issues.
    My view is that the approach should be (i) early, careful 
assessment of the key technologies, with emphasis on identifying all of 
them well in advance, (ii) plans to develop them to TRL-6 before Phase 
C/D, and (iii) assessment of the timing such that they reach maturity 
at the needed time (before the end of Phase B). In parallel with these 
developments, the value and power of integrated modeling has been 
recognized in many industries as providing a (relatively) low cost 
cross-check on the performance of the final product. Modeling is no 
substitute yet for extensive subsystem and system level testing, but it 
provides an extremely powerful cross-check. Integrated models should 
also be developed early and refined as the system develops.
    Should it be a percentage of the overall program funding, or should 
it be a fixed amount? I think that experience has shown that a 
fractional amount is more appropriate, though the percentage is hard to 
establish. As a ballpark I might suggest one percent per year of the 
expected total program cost in the very early phases, rising to a total 
expenditure of tens of percent during Phase B, so as to adequately 
retire risk before construction commences. I would suggest eliciting 
further input on this topic from others with extensive project 
experience.

Q2.  What mission assurance and management requirements imposed by NASA 
do you believe are counter-productive or impose costs that are 
disproportionate to the size of the mission, or that offer little added 
value?

A2. I recognize and agree with the goal of minimizing mission costs. 
Clearly, we can do more missions within the available budget if we can 
lessen the cost of missions. However, in thinking about this I came to 
the conclusion that much of the oversight within the current mission 
assurance and management structure is necessary. The missions that we 
do, even the smaller cost-capped missions, are generally very complex 
and technologically challenging. The larger missions stretch our 
collective abilities to manage them. The teams that work these missions 
consist of project managers, engineers, scientists and support 
personnel, from the contractors, the NASA centers and the academic and 
scientific community. They deal with very complex issues, with tight 
deadlines and with tight budget constraints. The teams hold evaluations 
and progress assessment meetings on timescales of weeks and months. 
These meetings deal with detailed project issues and problems as they 
arise--which tends to be frequently. Fewer meetings might help progress 
at times, but having fewer will also allow some problems to persist 
longer than they should and require greater efforts and costs for 
recovery actions.
    While these rather routine meetings are part of the process, there 
is another aspect that is crucial for our most challenging missions 
(and possibly even for our less challenging missions, as I will note 
below). My view is that it is crucial to have independent, external 
oversight boards and teams. These boards should consist of a small 
number of people who have a great deal of project experience, who are 
independent of the project and report to NASA HQ above the project and 
program level. They should meet often enough that they are conversant 
with the project, but not so often that their independence is lost. 
From watching the JWST project over the last few years it is my 
understanding that such groups are now in place and that they appear to 
be fulfilling a very important role.
    By putting such groups in place at an earlier time in major 
projects I would hope that some of the problems with missions like JWST 
in its earlier days could be averted. We have now done many large 
science missions and it would be useful to have a ``lessons-learned'' 
assessment at some point before we embark on others. And it is not just 
the most challenging missions like JWST that develop problems. As an 
example of when projects go awry, SOFIA should be an excellent case 
study. It is dramatically behind schedule and over budget, yet it is 
not one of NASA's most challenging missions. In fact, it is probably at 
the less demanding end of the range technically. Yet when it finally 
reaches science operations it will be approaching a decade behind 
schedule (aircraft completion and science operations were quoted in 
1999 as being on track for startup in 2001!). I think it is an example 
of poor management and inadequate oversight, and would hope that 
lessons are learned also from this program to lessen the chance of a 
repeat occurrence.

Q3.  How should NASA and the space science disciplines best develop 
estimated mission costs, at a reasonable level of confidence, during 
the next round of decadal surveys? Who should perform these estimates? 
What level of confidence do you believe is appropriate?

A3. There is no doubt that better cost estimates are clearly needed for 
the upcoming Decadal Survey. The recognition that this was a serious 
problem for the last Survey has led already to extensive discussion of 
how to improve the cost estimates. It is clear also that this is a work 
in progress. The BEPAC study (the Beyond Einstein Program Assessment 
Committee) is assessing mission costs in its current evaluation of what 
should be the first Beyond Einstein mission to be carried out early in 
the next decade. Deriving accurate costs is a challenge at an early 
stage of mission development, but it is clear that we do need to do 
better. Even with the clear recognition on the Astrophysics side that 
mission costs need to be much more reliably assessed and used in the 
development of a the Decadal program, the recent Earth Sciences Decadal 
Survey did a rather poor job of costing the programs it discussed and 
recommended. They appear to be systematically underestimated.
    How should NASA and the space science disciplines best develop 
estimated mission costs, at a reasonable level of confidence, during 
the next round of decadal surveys? There are two steps that need to be 
taken. The first is to clearly agree that life cycle costs will be 
used; the second (below) is to obtain ``accurate'' costs. The overall 
or life cycle costs should be at least the costs over a 10-15 year 
period appropriate for the recommendations from a Decadal Survey group. 
The examples of SIM and SOFIA, both of which were moderate-size $250M 
missions in the 1990 Survey, but which grew to be $3B programs life 
cycle, provide a sobering lesson. In detail, SIM was $250M in the 1990 
Survey (as AIM, the Astrometric Interferometry Mission), or $420M 
inflated to 2007 dollars, and was costed last year in actual year 
dollars at $3.4B if launched in 2015-16, or $2.7B if launched in 2011 
($2.6B in constant 2007 dollars for 2015/16 launch--see Table above). 
SOFIA was listed as a $230M program in the 1990 survey, or $386M 
inflated to 2007 dollars, and is now, in the FY08 budget request, $3.4B 
life cycle in actual year dollars ($2.7B in constant 2007 dollars).
    JWST and Chandra provide other examples where our initial costs 
were significant underestimates of what the mission ultimately cost. 
JWST went from $1B as quoted in the 2000 Survey, or $1.2B in 2007 
dollars, to $4.4B life cycle, while Chandra went from $500M in the 1980 
Survey, or $1.4B in 2007 dollars, to $4.0B life cycle in 2007 dollars 
with full-cost accounting. One should note that the costs quoted from 
the Decadal Surveys were not usually life cycle costs (they were 
probably closer to construction costs). However, they are so different 
from the reality of the actual or expected life cycle mission costs 
that the lesson that we must learn from these comparisons is that we 
must deal directly and thoroughly with the cost issue and bring the 
cost estimates closer to reality.
    What level of confidence do you believe is appropriate? The second 
important element, to make the life cycle costs accurate, is that the 
costs for each of the phases of missions should be derived with minimal 
systematic underestimation. This is much more important than having 
costs given to many significant figures. It is worthwhile to add a note 
of caution against undertaking very elaborate cost studies and 
expecting too much from them. We are undertaking technically-
challenging projects using cutting-edge technology. Getting costs to 
two significant figures with small uncertainty at an early stage is a 
practical impossibility. But if we can get costs to one significant 
figure with a fair degree of confidence that they are not 
systematically underestimated, we will be markedly better positioned 
for reliable planning than in previous surveys. Knowing during the 
Decadal Survey that a program of the scale of JWST is $4B instead of 
$2B or $3B would be a major achievement, especially if that cost 
included a significant contingency. Reliably identifying whether space 
missions are at <$0.5B, $1B, $1.5B, $2B, $3B would be sufficient 
granularity, in my view, if the costs were devoid of significant 
systematic uncertainties.
    Who should perform these estimates? A key issue will be to balance 
the level of cost reliability with what can realistically be done 
before and during the Decadal Survey process. A realistic goal might be 
to (i) establish common ground rules (e.g., any cost estimates would 
most usefully include both full life cycle costs and costs within the 
coming decade), (ii) provide independent cost estimates (not just cost 
estimates from the project proponents), (iii) aim to provide costs that 
are less systematically underestimated, (iv) aim for accuracy and not 
precision, and (v) include experts in project management and cost 
assessment in the deliberations. In particular it might be useful to 
have a panel that is used as a resource by other panels to evaluate 
costs, and to include at least one person with good project oversight/
management experience on each panel to help frame the right questions 
for the ``cost expert'' panel. NASA cost estimation emphasizes life 
cycle costs and thus can provide feedback from considerable in-house 
experience (e.g., see NASA Cost Estimating Handbook CEH--at http://
www.nasa.gov/offices/pae/organization/
cost<INF>-</INF>analysis<INF>-</INF> division.html). The Program 
Analysis & Evaluation (PA&E) office has provided a more focused role 
for these issues under the new Administrator (http://www.nasa.gov/
offices/pae/home/index.html), and provides a web-enabled version of the 
2004 NASA CEH or a downloadable pdf version at the above URL for the 
cost analysis division. Furthermore, if funding allows, it would be 
very useful to use independent organizations, such as Langley Research 
Center and Aerospace Systems Design Lab, to provide some separate 
estimates, even if they were ``rough,'' early-stage estimates.

Appendix:

Re ExoPTF and Question 6: The following letters relate to Question 6 
regarding the ExoPlanet Task Force. They are the original request 
letter from the AAAC to NSF and NASA regarding the ExoPTF, and the 
Charge letter that the agencies developed in their request to the AAAC 
to form such a subcommittee.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Daniel N. Baker, Director, Laboratory for Atmospheric and 
        Space Physics, University of Colorado, Boulder

Questions submitted by Chairman Mark Udall

Q1.  NASA has imposed cost ``caps'' on a number of its small- and 
medium-sized mission programs, such as Discovery. With the advent of 
full-cost accounting, are those cost caps still realistic or should 
they be adjusted? Have the cost caps proven to be an effective tool?

A1. Capping costs on projects provides one part of the framework for 
the principal investigator and project manager to actively manage the 
project. This is healthy for a program. Projects could always use more 
funding (if available) and so balancing costs with scientific return is 
part of the management challenge. One of the significant factors in the 
overall cost of missions is the launch vehicle cost, and factoring this 
cost in should be one of the key considerations in setting the mission 
cap.
    The effect of the full-cost accounting on the mission cost cap is 
somewhat dependent on the mission. The new full-cost accounting rules 
only apply for the NASA centers. Other subcontracts for NASA, such as 
to LASP for satellite instruments, have been implementing full-cost 
accounting since the 1990s. Consequently, PI-mode missions where NASA 
centers primarily provide oversight have seen minor adjustments when 
NASA centers converted to full-cost accounting. However, missions at 
NASA centers have seen significant growth in costs. Some growth has 
just been in where the cost is book kept, but also some real cost 
growth that would require a higher cost cap. I believe that NASA 
centers are able to provide more detailed information on the specific 
cost growths that have resulted.
    I believe that full cost accounting has not been helpful to cost-
capped projects. Full cost accounting forces everyone in NASA centers 
to actively charge to a program code. While this might sound like a 
responsible and sensible approach to managing cost, it is one of the 
principal reasons for requirements creep in flight missions, making 
management-to-cost extremely challenging. Although planned as an 
accounting change that would be revenue-neutral, full cost accounting 
has, in fact, resulted in a monetary tax on each program that was not 
previously there. The Agency is struggling with this change, as the 
culture of NASA has in the past been collaborative and collegial in 
nature. NASA was never a corporation, and full cost accounting is a 
poor prescription for improving the Agency's performance. Two impacts 
are unfortunate: First, individuals within the NASA structure who had 
not been actively charging to programs are now actively seeking out 
projects to charge to--whether or not they can actively contribute. 
This effectively creates a tax on projects. In additional to direct 
costs rising, cost-capped programs are being forced to absorb more 
staff who, in turn, need to somehow demonstrate their meaningful 
participation. Reviews are longer and more numerous, there are more 
action items--many of which are unnecessary, yet need to be addressed--
and consequently more inefficiency as a result of larger teams. Setting 
the idea of a cost capped mission aside, it is the view of myself and 
my colleagues at LASP that NASA's ability to team and collaborate in a 
collegial way has been hurt by the move to full cost accounting.

Q2.  The National Academies report, Rising Above the Gathering Storm, 
recommends ``emphasis on physical sciences, engineering, mathematics 
and information sciences,'' as well as high-risk research, grants to 
early career researchers, and funding for advanced research 
instrumentation and facilities, among other actions, that can help 
foster innovation and sustain a strong economy. How relevant are NASA's 
space science research programs to those recommendations? Can you offer 
any specific examples? NASA's science program was not included in the 
President's American Competitiveness Initiative (ACI). Would you 
advocate NASA's science programs be made part of the ACI in future 
budgets? If not, why not?

A2. NASA should be included in the American Competitiveness Initiative 
(ACI) as NASA's satellite programs are science-based missions that 
require advanced instrumentation, require highly technical developments 
in many different engineering areas, develop sophisticated data 
processing and distribution systems, and offer education and hands-on 
training for students and early career researchers. LASP's experience 
with NASA's PI-mode missions (SORCE and AIM most recently) clearly 
support many ACI objectives, and this really can be said for most NASA 
missions. It has often been noted that NASA technology development 
can--and does--play a big role in U.S. economic competitiveness.
    NASA is becoming more aware of the need to support the 
recommendations of ``Gathering Storm,'' at least as they pertain to 
supporting education infrastructure and young scientists. NASA has not 
fully articulated how the Agency would support ACI, but it is clear 
that the shift in EPO (Education and Public Outreach) from K-12 and 
informal education now to the inclusion of undergraduate and, in some 
cases, graduate education is a response to this. There seems to be a 
growing understanding at NASA that universities need to be playing a 
primary role in this much-improved EPO effort.
    It is unclear why NASA was not invited to join the DOE and the NSF 
as partners in the ACI. With the emphasis in the ACI of connecting 
industry, education and government in supporting and sustaining 
innovation in science and engineering, surely NASA has a track record 
that merits its participation. I think it particularly crucial that 
NASA be included in the ACI at a time when the Agency is actively 
engaged in looking at workforce issues.\1\ Targeted NASA ACI resources 
that support workforce training, particularly in the engagement of 
universities and sub-orbital programs, would be ideal.
---------------------------------------------------------------------------
    \1\ See National Research Council, 2007. Building a Better NASA 
Workforce: Meeting the Workforce Needs for the National Vision for 
Space Exploration, National Academies Press, Washington, D.C.

Q3.  A recently released study of the National Academy of Sciences on 
Building a Better NASA Workforce recommended that: ``. . .NASA increase 
its investment in proven programs such as sounding rocket launches, 
aircraft-based research, and high-altitude balloon campaigns, which 
provide ample opportunities for hands-on flight development experience 
---------------------------------------------------------------------------
at a relatively low cost of failure.''

        a.  Could you please explain in concrete terms how the sub-
        orbital programs are used to train students and young workers?

        b.  What do these sub-orbital programs typically cost and do 
        they produce peer-reviewed research?

A3. Sub-orbital programs have always had three key elements that 
differentiate the work from a larger space program: 1) Sub-orbital 
programs are typically hands-on projects, providing participants with a 
broad experience that is not possible to get on a larger project. 2) 
Sub-orbital projects tend to be of shorter duration, allowing 
participants to see the project from start to finish. It is almost 
always the case that everyone on a sub-orbital team gets experience in 
all phases of the effort; and 3) Results are usually immediate. This 
``instant feedback'' goes hand-in-hand with trial-and-error learning 
that cannot be experienced in larger, more risk-adverse space programs. 
Sub-orbital programs have been the training ground for engineers and 
scientists, and keeping these projects supported will add to the 
vitality of the space program.
Sub-orbital Student Training
    A typical sub-orbital program at LASP includes support primarily 
for an experienced instrument scientist, an experienced system 
engineer, a graduate student, and a couple of undergraduate students. 
The students, with the help of close mentoring from the professional 
staff, are responsible for most of the work. They are also heavily 
involved with the project from cradle-to-grave, as the same students 
design instruments, fabricate and assemble the instruments, calibrate 
and test the instruments, integrate and then launch the rocket payload 
at a NASA facility, and finally analyze and model the rocket data. All 
of this work is over a 2-3 year period, which is commensurate with a 
student's timetable for completing college. In contrast, a typical 
satellite program at LASP has a duration of about 10 years, and student 
involvement on such programs is necessarily more limited. Typically, 
the student will support the professional staff and he/she will not be 
responsible for major project development milestones.
Sub-orbital Costs
    A typical sub-orbital program at LASP costs about $300K per year 
and has a duration of three years (two years to develop the payload and 
launch, with data analysis in third year). Because the payload is 
recovered, it can be flown multiple times, usually with enhancements 
developed by successive students. The LASP cost for a re-flight is 
about $150K. In addition to the science payload cost, NASA's cost for 
its rocket subsystems, launch vehicles, and launch range is about $2M 
per launch.
Peer-Reviewed Research
    The NASA sub-orbital program research is peer-reviewed, initially 
through the research proposals that are submitted to NASA and peer-
reviewed by a NASA proposal panel, and later through peer-reviewed 
research papers as a result of the analysis of the rocket measurements. 
The LASP graduate students involved in the sub-orbital program are 
expected to write first-authored research papers, and the results from 
the rocket flights often lead to a Ph.D. dissertation for the graduate 
students.

Q4.  NASA's Research & Analysis (R&A) programs are mentioned as being 
critical for developing new mission concepts and advanced technology. 
What impacts will the cutbacks in R&A have on the opportunities for 
future missions and programs? If R&A remains at current levels, what 
are we likely to see, or not see, in the next five years?

A4. Much of the technologies for satellite programs depend on research 
development prior to program initiation. Therefore, the NASA Research & 
Analysis (R&A) funds are critical to develop new instrument concepts, 
detector technology, and satellite subsystems, and then select the 
best, most-proven technology for the satellite flights. The sub-orbital 
rocket program is a excellent example where technology is developed 
quickly to address specific science objectives. These results are then 
used successfully for more detailed, thorough investigations on 
satellite missions that can last for years.
    If R&A remains at current levels, LASP expects that its staff 
number will shrink (both science and technical staff) because many 
employees are still working on multiple-year grants that were 
established some years ago when the R&A program was more robust. In 
addition, this effective reduction in grant budgets will force LASP to 
reduce the number of students involved in the Lab's research projects, 
and laboratory and facility maintenance is likely to suffer.
    It is likely that reducing of R&A programs will increase the 
competitiveness of the environment: Good researchers will potentially 
improve, marginal researchers will not be able to make a living in the 
business, and new people will find increased difficulty in gaining 
access into space research. As some point the idea of a critical mass 
of researchers has to enter into policy-makers' thinking. I have great 
concern that we are not at a healthy mass now: smaller definitely is 
not better.

Q5.  What is the current frequency of Explorer and Discovery missions, 
and what do you believe should be the frequency of launch 
opportunities.if we want to sustain a healthy space science research 
program in each of the disciplines?

A5. For Small-class Explorers (SMEX), the recent launch frequency is 
one every four years (AIM was launched in 2007 and GALEX was launched 
in 2003). The next SMEX, IBEX, is planned for launch in 2008 and then 
there is a four-year gap until the next SMEX is launched in 2012.
    For Medium-class Explorers (MIDEX), the frequency is one every 2.5 
years (SWIFT launched in 2004, THEMIS in 2007, and WISE is planned for 
2009). With the current funding profile for Explorer program, there is 
expected to be a very large gap until the next MIDEX is launched in 
2017!
    For Discovery missions, the recent launch frequency is about one 
every year (Genesis in 2001, CONTOUR in 2002, MESSENGER in 2004, Deep 
Impact in 2005, DAWN planned in 2007, and Kepler planned in 2008).
    For Earth System Science Pathfinders (ESSP), the launch frequency 
had been about one every two years (GRACE in 2002, CALIPSO in 2006, 
CloudSat in 2006, OCO planned in 2008, and Aquarius planned in 2009. 
However, the HYDROS mission scheduled for 2011 was not selected for 
formulation and there have been no solicitations for new ESSP missions 
since the round that selected OCO and Aquarius in 2002.
    There are 24 key measurement parameters defined for the NASA Earth 
Observing System (EOS). Assuming that a small satellite (e.g., ESSP) 
could measure two key parameters and that each mission could last for 
six years, then the Earth Science division needs to have two launches 
each year.
    One of the original goals for these programs is to have a launch 
once a year to keep the space science research program healthy, so the 
present mission lines are under-funded by about a factor of two to 
accomplish this goal. At this present pace of launch opportunities, the 
community is badly impacted in numerous ways. The chance of being 
selected in any competition--even for highly experienced teams with 
capable management skills--is in the neighborhood of 10-20 percent. 
Having both infrequent opportunities to propose and small chances of 
being selected means that fewer and fewer groups will survive to 
propose (or will be able to afford to propose). This could be a 
prescription for disaster in the science community. It is crucial to 
get the launch rate for smaller missions to a much higher level.

Questions submitted by Representative Ken Calvert

Q1.  What metric should NASA use to establish an appropriate level of 
technology development investment across the programs? Should it be a 
percentage of the overall program funding, or should it be a fixed 
amount?

A1. The present NASA science program has very little specific funding 
for instrument development or for advanced technology development. Many 
small-end missions have been living on ``off-the-shelf'' 
instruments.\2\ This is unsustainable. It is crucially important that 
resources be identified and made available to raise instrument and 
spacecraft technologies to a high readiness level in order to avoid 
development delays when missions are in full implementation phases.
---------------------------------------------------------------------------
    \2\ This point has been made in a number of NRC reports; e.g., 
National Research Council, 1997. Scientific Assessment of NASA's SMEX-
MIDEX Space Physics Mission Selections, National Academies Press, 
Washington, D.C.
---------------------------------------------------------------------------
    A percentage of program total cost could be a useful guideline for 
gauging technology development. Some missions will require higher 
technology development than others, and also trades between risk and 
cutting-edge science is highly dependent on the mission objectives. So 
like most guidelines, the technology development metric should not be a 
rigid requirement.

Q2.  What mission assurance and management requirements imposed by NASA 
do you believe are counter-productive or impose costs that are 
disproportionate to the size of the mission, or that offer little added 
value?

A2. There once was a management belief at NASA that the comparatively 
lower-cost and more frequent small satellite programs should require 
lower quality parts, fewer documents and processes, and fewer reviews 
than those for large satellite programs. The current NASA management 
approach is largely driven by risk aversion. Consequently, requirements 
for small satellite programs have evolved to have the same high level 
of mission assurance and management as that of the large satellite 
programs. However, the allocated resources for small missions have 
remained relatively low over the past decade. Thus, new small missions 
are forced to have much reduced science goals in order to afford the 
higher cost mission assurance expectations. The space science community 
generally supports having more small satellite missions that have more 
science per dollar that can be accomplished by having less management 
oversight and accepting higher risks.
    The recent AIM spacecraft launched by NASA (and managed by LASP) 
had 54 additional reviews during the course of its development compared 
to what was budgeted for the program originally. This horrendous 
additional load on engineers, scientists, and managers for the program 
was nearly unsustainable. Such a huge review load detracted from real 
design and development work, distracted engineers and managers from 
their real jobs, and for the most part did not add substantial value. 
Such out-of-control risk aversion must be reigned in or else NASA will 
not be able to afford any meaningful science flight program.

Q3.  How should NASA and the space science disciplines best develop 
estimated mission costs, at a reasonable level of confidence, during 
the next round of decadal surveys? Who should perform these estimates? 
What level of confidence do you believe is appropriate?

A3. NASA has primarily used scientists for defining the mission 
concepts for its decadal surveys. While scientists are required to 
specify the science objectives critical for strategic planning, most 
scientists are not well trained in costing all components and phases of 
satellite missions. Future mission cost estimates could be improved by 
having at least two panels, one of primarily scientists for science 
planning and one of primarily satellite engineers for mission 
definition, with significant overlap between the panel members.
    When developing the first concepts for a mission, a 50 percent 
margin (reserve) is usually added for resources like mass, power, and 
data rate, and a similar 50 percent margin should also be added to the 
first cost estimates. NASA missions have sometimes been defined with 
these early mission concepts and then later forced to reduce scope or 
have been canceled because of exceeding the expected cost cap. Starting 
with realistic cost estimate and with generous margin can mitigate this 
type of mission development disaster. Recently, the National Research 
Council published a report of a workshop on decadal surveys that 
addresses the issues above in greater detail.\3\
---------------------------------------------------------------------------
    \3\ National Research Council, 2007. Decadal Science Strategy 
Surveys: Report of a Workshop, (2007), National Academies Press, 
Washington, D.C.
---------------------------------------------------------------------------
                   Answers to Post-Hearing Questions
Responses by Joseph A. Burns, Irving P. Church Professor of Engineering 
        and Astronomy; Vice Provost, Physical Sciences and Engineering, 
        Cornell University

    Please recognize that my answers, unless noted otherwise, represent 
the perspective of someone who has participated primarily in the 
exploration of the solar system. My knowledge of other disciplines of 
space science is through reading and listening at committee and 
department meetings, not through practice.

Questions submitted by Chairman Mark Udall

Q1.  NASA has imposed cost ``caps'' on number of its small- and medium-
sized mission programs, such as Discovery. With the advent of full-cost 
accounting, are those cost caps still realistic or should they be 
adjusted? Have the cost caps proven to be an effective tool?

A1. As an academic never involved in NASA's business models and 
bookkeeping procedures, I do not know how full-cost accounting has 
influenced the agency's actual out-of-pocket expenses, nor its use of 
federal employees vs. contractors. Thus I cannot address whether the 
cost caps should be adjusted specifically to accommodate the agency's 
newly instated method of accounting.
    I can note, however, that any effectiveness of the cost caps in 
limiting expenses today has been compromised by problems both inside 
and outside the agency's control. First, excessive program reviews 
carried out within NASA Headquarters (as well as those done at its 
request) have added expense and time to the development of missions 
[see the response to Representative Calvert's #2 below]. Furthermore, 
the poor estimation of costs when missions are proposed followed then 
by a lack of discipline as missions are developed has also made it 
difficult for the agency to carry through on the caps. These failings 
by proposing teams mean that NASA is then confronted by an unpleasant 
choice, often late in the game: either lose the funds already spent or 
fly a mission that accomplishes little more than previous flights. 
Delays associated with insufficient funds lead to a stutter-step 
development, further increasing costs. Finally, cost caps over the last 
few years have had to confront major cost breakers outside the agency's 
control, namely a substantial inflation in the cost of launches plus 
the added expenses associated with ITAR requirements.
    An important subtext to this topic is specifically what cost caps 
should particular mission classes have and can effective missions be 
developed within contemporary cost caps, currently $425 M (FY06) for 
Discovery and $750 M in FY07$ for New Frontiers, according to the SSE 
2006 Roadmap. A simple test exists: are the current missions in these 
classes providing good value. Most observers would answer, `Yes!' but 
with some strain in their voices concerning the future, as missions 
necessarily become more ambitious payloads increase in sophistication, 
technology costs grow at above the inflation rate, and launch vehicles 
are less available but more costly.

Q2.  The National Academies report, Rising Above the Gathering Storm, 
recommends ``emphasis on physical sciences, engineering, mathematics 
and information sciences,'' as well as high-risk research, grants to 
early career researchers, and funding for advanced research 
instrumentation and facilities, among other actions, that can help 
foster innovation and sustain a strong economy. How relevant are NASA's 
space science research programs to those recommendations? Can you offer 
any specific examples? NASA's science program was not included in the 
President's American Competitiveness Initiative (ACI). Would you 
advocate NASA's science programs be made part of the ACI in future 
budgets? If not, why not?

A2. The influential NAS report Rising Above the Gathering Storm 
convincingly documents and argues that America must bolster its 
competitiveness by strategically strengthening those disciplines that 
most contribute to our global business position. I firmly believe the 
same point: the physical sciences and engineering are crucial if the 
United States is to remain internationally competitive. It is primarily 
our technological prowess that sets the U.S. apart from its economic 
competitors.
    NASA's Space Science Research Program covers many economically 
important fields through its support for fundamental research in 
physics, chemistry and biology. These sciences contribute directly to 
placing our nation in the world's forefront technologically, thus 
stimulating the economy. This connection is perhaps a little less 
apparent for the earth sciences, space physics and astronomical 
sciences. Nonetheless research in such scientific subjects benefits the 
mining and oil industries, the energy sector, telecommunications 
companies and those investigating plasma fusion. NASA's space science 
missions and their instrument payloads have obvious applications of 
considerable interest to a number of commercial and defense spacecraft 
builders. To mention just a few engineering examples relevant to these 
latter industries, NASA's Space Science Research Program supports 
instrument design, remote-sensing devices across a broad spectrum, the 
miniaturization of advanced detectors and image-processing algorithms.
    In addition, the space program plays an important role in our 
country's science education at all levels. Images of Earth's planetary 
siblings and the wider universe appeal broadly to the public, 
especially young people. Such materials help to attract K-12 students 
to the STEM disciplines. At the other end of the educational chain, 
graduate students drawn to, and trained in, the space sciences often 
move into the commercial and defense sectors upon graduation.
    Thus I feel that many of Gathering's recommendations apply equally 
to NASA research as to NSF, DOE and DOD research. Accordingly I urge 
Congress to include NASA's Space Science Program in the President's 
American Competitiveness Initiative. Its exclusion was an oversight.

Q3.  A recently released study of the National Academy of Sciences on 
Building a Better NASA Workforce recommended that: ``NASA increase its 
investment in proven programs such as sounding rocket launches, 
aircraft-based research, and high-altitude balloon campaigns, which 
provide ample opportunities for hands-on flight development experience 
at a relatively low cost of failure.''

        a.  Could you please explain in concrete terms how the sub-
        orbital programs are used to train students and young workers?

        b.  What do these sub-orbital programs typically cost and do 
        they produce peer-reviewed research?

A3. Low-altitude terrestrial flights employing rockets, aircraft and 
balloons are generally not effective schemes for pursuing planetary 
research: missions can achieve much better resolution and coverage with 
close planetary encounters. Hence these Earth-bound platforms are no 
longer actively employed by planetary scientists. However, I understand 
that the sub-orbital program benefits other space-science disciplines 
in NASA. This program provides effective training for students because 
its missions flown are usually small-scale and, of course, nearby. 
Hence students can complete an end-to-end project (wherein they select 
a topic and target, build appropriate instrumentation, launch and 
collect data, and finally analyze results) for their doctoral 
dissertations rather than being assigned to a single aspect of research 
(e.g., data analysis) within a large team. For students in planetary 
exploration, some of the benefits of rocket and balloon research (e.g., 
hands-on) may be gained by building instruments for Discovery missions.
    My answer to this question highlights that the various disciplines 
of space sciences may have substantial differences in research 
techniques and funding. One of the questions that was asked during our 
May 2 hearing dealt with data analysis funds for various missions and 
the answer given by an astronomer on the panel (who probably was 
considering the success of the investigator support for astrophysics' 
``Great Observatories'' (e.g., Hubble, Chandra and Spitzer) was that 
all was well. Time prevented me from mentioning that this is not true 
for the information returned by recent planetary missions, whose data 
analysis has been sorely under-funded. As a personal example, I 
received no funds as an associate of the Galileo mission to Jupiter 
beyond travel support even though I planned all the image sequences of 
Jupiter's rings and published the primary papers interpreting those 
results. After this several-billion-dollar mission ended, the total 
funds for the analysis of its returned data was a few million dollars. 
As another local illustration, I am a current member of the imaging 
team on the Cassini mission (the latest solar-system-exploration 
flagship) in orbit about Saturn since 2004, for which my support is 
primarily for planning and archiving data, not for modeling or 
interpretation. My group's analysis of the data is covered by six weeks 
of summer salary. We've been fairly effective only because Cornell has 
been partly supporting my research. As in the case of Galileo, the 
Cassini data analysis program for last year and again this year only 
receives about $2-3 M. Effectively the U.S. is annually spending about 
0.1 percent of the total planetary mission cost for the analysis of the 
data that is the advertised reason for the mission. This seems very low 
to me.
    The less than optimal funding for doing science on missions extends 
to the Discovery line.

Q4.  NASA's Research & Analysis (R&A) programs are mentioned as being 
critical for developing new mission concepts and advanced technology. 
What impacts will the cutbacks in R&A have on the opportunities for 
future missions and programs? If R&A remains at current levels, what 
are we likely to see, or not see, in the next five years?

A4. The researchers supported by R&A funds accomplish more than simply 
publish papers that interpret the data returned by missions. They 
deepen our understanding of our solar-system surroundings, thereby 
introducing new paradigms for how the planets work and how the solar 
system originated. As a result of these findings, the program as a 
whole evolves: new mission concepts and perhaps new targets are chosen 
in order to address the latest ``big questions.''
    A large fraction of the R&A monies that are awarded to university 
staff are used to hire graduate students. So these funds also produce 
the next generation of space explorers, the individuals who will be 
designing, building and operating future missions and programs. In 
addition, R&A dollars are used to develop improved instruments to 
permit more sensitive and broader observations.
    Because of the crucial role that R&A programs play in shaping the 
future missions, as laid out in the paragraphs above, the answer to the 
last question is straightforward. If NASA's planetary R&A budget 
continues at its present level, which is 25 percent below FY05 support 
and even further beneath that recommended by the 2003 decadal report, 
the program will be addressing last year's questions with an older, 
less numerous work force using outdated equipment.

Q5.  What is the current frequency of Explorer and Discovery missions, 
and what do you believe should be the frequency of launch opportunities 
if we want to sustain a healthy space science research program in each 
of the disciplines?

A5. The Discovery program was initiated to provide a continuing stream 
of low-cost, focused, innovative missions, chosen competitively, that 
would complement the much-less-frequent but much more competent and 
broader flagship missions that are usually designed conservatively. The 
Scout program serves the same function within the Mars program. The 
Discovery line is now fifteen years old, during which time seven 
missions have been launched, eight if the Dawn spacecraft flies this 
summer as planned. That's one flight every 22 months, whereas the 
original plan was to launch one every 18 months. That is a good record. 
However, the selection rate has slowed dramatically: after choosing a 
pair in each of alternate years (FY 95, FY97,. . .) no selections have 
been made since FY01, although two (responding to last year's AO) may 
be yet chosen in FY07. There is a reasonable concern that this slow 
rate will continue due to potential future budget reductions with the 
higher cost cap and increased launch costs with the end of the Delta 2 
line.
    The New Frontiers line for medium-scale missions was endorsed by 
the 2003 decadal panel and then placed in the NASA budget. This line 
was jump-started with the already-in-process New Horizons (based on an 
FY01 AO). The rate of New Frontiers too may have slowed; Juno was 
chosen from an FY05 solicitation and the next AO is yet to be released. 
This slower pace for both Discovery and New Frontiers should be placed 
against the backdrop of the indefinite deferral of both flagship 
missions (Europa Geophysical Orbiter and Mars Sample Return) 
recommended by the decadal panel. These delays likely result from the 
draining of $4B from the science program, the vast majority coming from 
solar system exploration. Analysts suggest that a minimum of $200 M 
more annually would be needed in the Planetary Sciences Division in 
order to meet the decadal survey's strategic goals.
    Discovery and New Frontiers require frequent launches to fulfill 
their roles as recommended by the decadal report. Based on the 
historical record, 5-6 Discovery missions per decade should be 
sustainable along with 2-3 New Frontiers per decade.

Questions submitted by Representative Ken Calvert

Q1.  What metric should NASA use to establish an appropriate level of 
technology development investment across the programs? Should it be a 
percentage of the overall program funding, or should it be a fixed 
amount?

A1. While I can't give you an informed number, technology development 
should be a fixed percentage or, better, within a fixed range of 
percentages, flexible on an annual basis, of the total mission 
development budget. The metric should be developed depending on the 
anticipated needs for future missions in the decadal plan.
    One will want to have a range within which to operate, so that the 
amount is somewhat variable as demand changes. For example, 
preparations to return a sample from the Moon are quite different than 
if we wish to take a piece of a comet back to Earth. Similarly, it's 
much easier, and already has been demonstrated, to drop a long-lived 
mobile laboratory onto the plains of Mars, than it will be to parachute 
a capable probe through Venus's lethal environment onto its scorching 
surface. Any sophisticated in-situ laboratory will demand much advanced 
development and the associated funding stream as will many generic. 
outer solar system vehicles. Because of this variability in the sorts 
of technology development that is required at any particular time, it 
is only rational if the level of funding is a percentage of overall 
program funding. However, what the correct percentage is for the next 
decade is a question that should be studied by the NRC. For a well-
managed, focused program, I would guess that 10 percent is appropriate, 
but that's only a guess.
    To some degree, however, this query overlooks another important 
issue. The fact is that NASA technology development has not generally 
been very effective in correctly choosing and then maturing the 
technologies necessary for future missions. In some areas, for example 
electronics and communications, the record is a ``solid B.'' In others, 
for example, sampling devices, it is much less acceptable. What is 
required is a prioritized list of critical technology for the highest 
priority future missions and then the willingness and financing 
necessary to promptly produce these technologies. At present, it's as 
much the lack of focus as the lack of funds that has been a problem.

Q2.  What mission assurance and management requirements imposed by NASA 
do you believe are counter-productive or impose costs that are 
disproportionate to the size of the mission, or that offer little added 
value?

A2. The mission assurance and management requirements imposed by NASA 
are well defined in its mission development directive 7120. Any 
additional reviews are superfluous and of no value. NASA HQ should re-
adopt the `trust but verify' attitude it used to take toward its 
mission implementers. Currently, NASA HQ's attitude is fearful and 
distrustful, imposing costly and even damaging additional reviews with 
every flight project hiccup or milestone. Today's world is increasingly 
risk-averse. To mitigate this, NASA should insist that decisions are 
made at the lowest possible levels, by individuals who are close to the 
details and specifics. Money is wasted when inappropriate requirements 
are imposed by someone far removed from the actual projects who does 
not understand what is appropriate.
    Furthermore, the level of management burden imposed should be 
commensurate with the funds expended. Since New Frontiers missions cost 
two or three times less than Flagship missions, whereas Discovery 
missions typically cost one-half New Frontiers missions, the Discovery 
should not be expected to go through all the bureaucracy appropriate 
for a Cassini-class endeavor. The agency should be willing to accept 
more risk for Discovery than for any other mission class. In the 
original manifestation of Discovery, a significant fraction of these 
missions were expected to be high-risk since in part they demonstrated 
new technologies. One might ask whether today's missions in this line 
have been aggressive enough since only one has failed, and that was due 
to a well-known but occasional flaw in a conventional rocket.
    Finally, any group of principal investigators will always, and 
probably justifiably, ask that the review processes be streamlined.

Q3.  How should NASA and the space science disciplines best develop 
estimated mission costs, at a reasonable level of confidence, during 
the next round of decadal surveys? Who should perform these estimates? 
What level of confidence do you believe is appropriate?

A3. Forecasting estimated mission expenditures has been a perennial 
problem in the space sciences and it will never be entirely solved. Not 
every difficulty can be foreseen and some expenses lie outside the 
NASA's control, such as launch charges as well as the cost of 
radioisotope thermal generators and fuel. The prices for the 
development and ultimate construction of new technology items are 
notoriously hard to predict in all the scientific disciplines. 
Nonetheless, the recent scorecard within the agency and in the space 
industry has been poor. Forecasts of mission costs could be improved 
significantly by spending more in deriving these costs. Enough effort 
needs to be devoted to this early in order to develop a cost estimate 
that has a reasonable chance to be correct. History indicates that 1-2 
percent of the eventual total mission price tag should be invested to 
get a reliable preliminary estimates of mission costs. By this metric, 
the $1M being spent on each of the current studies for outer planet 
missions is low by a factor of ten.
    This indicates that much more investment should be made in order to 
get reliable cost estimates for the prospective missions in the 
beginning stages of any decadal report. Otherwise the estimates lack 
credibility, implying that the full report is likely to be unrealistic 
advice and hence flawed. Most likely NASA must take this responsibility 
on itself to use its implementers plus independent cost estimators to 
provide the technical studies and cost estimates. I believe that the 
NRC has a study underway about how to properly devise this process. A 
probable answer is that two or three independent estimates are needed 
from separate autonomous institutions. In order for these estimates to 
be meaningful, any mission's concept has to be clearly defined to make 
sure that each institution is costing the same mission.

</pre></body></html>
